<html>
<title> - GARRISON UNIT REFORMULATION</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                      GARRISON UNIT REFORMULATION

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                   SEPTEMBER 29, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-114

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources




                      U.S. GOVERNMENT PRINTING OFFICE
 51-878                      WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

               Subcommittee on Water and Power Resources

                JOHN T. DOOLITTLE, California, Chairman
KEN CALVERT, California              PETER A. DeFAZIO, Oregon
RICHARD W. POMBO, California         GEORGE MILLER, California
HELEN CHENOWETH, Idaho               OWEN B. PICKETT, Virginia
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     SAM FARR, California
WILLIAM M. (MAC) THORNBERRY, Texas   ADAM SMITH, Washington
JOHN B. SHADEGG, Arizona             RON KIND, Wisconsin
JOHN E. ENSIGN, Nevada               LLOYD DOGGETT, Texas
ROBERT F. SMITH, Oregon              ---------- ----------
CHRIS CANNON, Utah                   ---------- ----------
MICHAEL D. CRAPO, Idaho
                  Robert Faber, Staff Director/Counsel
                   Joshua Johnson, Professional Staff
                      Steve Lanich, Minority Staff


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 29, 1998..................................     1

Statement of Members:
    Conrad, Hon. Kent, a Senator in Congress from the State of 
      North Dakota...............................................     7
        Prepared statement of....................................     9
    DeFazio, Hon. Peter, a Representative in Congress from the 
      State of Oregon............................................     2
    Doolittle, Hon. John, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2
    Dorgan, Hon. Bryon, a Senator in Congress from the State of 
      North Dakota...............................................    11
    Pomeroy, Hon. Earl, a Representative in Congress from the 
      State of North Dakota......................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Beard, Dan, Senior Vice President, Public Policy, National 
      Audubon Society, Washington, DC............................    33
        Prepared statement of....................................    77
    Dorso, Hon. John, State Representative and Majority Leader, 
      North Dakota State House of Representatives................    20
        Prepared statement of....................................    57
    Furness, Hon. Bruce, Mayor, Fargo, North Dakota..............    27
        Prepared statement of....................................    57
    Haak, Norman, Chairman, Garrison Diversion Conservancy 
      District, North Dakota.....................................    44
    Koland, David, Executive Director, North Dakota Rural Water 
      Systems Association........................................    50
        Prepared statement of....................................    87
    Martinez, Eluid, Commissioner, U.S. Bureau of Reclamation, 
      Department of Interior, Washington, DC.....................    25
        Prepared statement of....................................    88
    Mason, Russell, Sr., Chairman, Three Affiliated Tribes, North 
      Dakota.....................................................    29
        Prepared statement of....................................    68
    McCormack, Michelle, Southwest Water Authority, North Dakota.    31
        Prepared statement of....................................    76
    Nargang, Ronald, Deputy Commissioner, Minnesota Department of 
      Natural Resources..........................................    48
        Prepared statement of....................................    81
    Peterson, Scott, President, North Dakota Chapter of The 
      Wildlife Society...........................................    46
        Prepared statement of....................................    79
    Schafer, Hon. Edward, Governor, State of North Dakota........    13
        Prepared statement of....................................    16



            OVERSIGHT HEARING ON GARRISON UNIT REFORMULATION

                              ----------                              


                      TUESDAY, SEPTEMBER 29, 1998

                  House of Representatives,
                   Subcommittee on Water and Power,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 1324, Longworth House Office Building, Hon. John Doolittle 
(chairman of the Subcommittee) presiding.

STATEMENT OF HON. JOHN DOOLITTLE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Doolittle. The Subcommittee on Water and Power will 
come to order.
    The Subcommittee is meeting today to hear testimony 
concerning the Garrison Reformulation Unit and to also receive 
testimony regarding H.R. 1213, the Perkins County Rural Water 
Systems Act of 1998.
    Today's hearings will cover these two projects. So these 
projects, and particularly Garrison, have been the subject of 
thousands of hours of debate over the last several decades. In 
the last couple of years, many of those who are presenting 
information today have made a dedicated effort to resolve some 
of the major outstanding issues. We acknowledge their hard work 
and their thoughtful consideration regarding this complicated 
situation. I believe that everyone involved in these projects 
has a genuine desire to address the fundamental needs for 
water.
    The Garrison Unit of Pick-Sloan Land has a colorful 
history. It represents a longstanding effort to develop North 
Dakota's water resources. It has been at times controversial, 
both inside the State and in the Nation's Capitol. Management 
of these water needs in North Dakota is incredibly complex, 
from too much water at Devil's Lake to too little water quality 
in the Red River Valley.
    The project remains an issue with the Canadian Government, 
several other States, and interest groups outside North Dakota.
    Very much related to the Garrison project is the Perkins 
County project to provide Garrison water to Perkins County, 
South Dakota. The Perkins project was considered when the 
Garrison Diversion Unit Reformation Act of 1986 was passed.
    I hope that these hearings will provide a discussion on the 
available alternatives to provide reliable, high-quality water 
supplies in both these North Dakota and South Dakota project 
areas.
    Several different agencies have participated in rural water 
system development projects over the years, including the 
Bureau of Reclamation. However, rural water development does 
not have a regular place in the Federal budget. In imperative 
declining budgets, it remains a serious challenge to provide 
for these programs while continuing to meet the other 
obligations we must fund such as existing authorized projects, 
the Safety of Dams Program, and the substantial backlog of 
maintenance activities.
    We look forward to hearing from our witnesses today and be 
pleased to recognize our Ranking Member, Mr. DeFazio, for his 
statement.
    [The prepared statement of Mr. Doolittle follows:]

Statement of Hon. John T. Doolittle, a Representative in Congress from 
                        the State of California

    Today's hearings cover the Garrison Unit in North Dakota, 
and the Perkins County Rural Water System in South Dakota. 
These projects, and particularly Garrison, have been the 
subject of thousands of hours of debate over the last several 
decades. In the last couple of years, many of those who are 
presenting information today, have made a dedicated effort to 
resolve some of the major outstanding issues. We acknowledge 
their hard work and their thoughtful consideration regarding 
this complicated situation. I believe that everyone involved in 
these projects has a genuine desire to address the fundamental 
needs for water.
    The Garrison Unit of the Pick-Sloan plan has a colorful 
history. It represents a long-standing effort to develop North 
Dakota's water resources. It has been at times controversial, 
both inside the state and in the Nation's Capital. Management 
of North Dakota's water needs is incredibly complex, from too 
much water at Devil's Lake to too little quality water in the 
Red River Valley. The project remains an issue with the 
Canadian government, several other states, and interest groups 
outside North Dakota.
    Very much related to the Garrison Project is the Perkins 
County Project to provide Garrison water to Perkins County, 
South Dakota. The Perkins project was considered when the 
Garrison Diversion Unit Reformation Act of 1986 was passed.
    I hope that these hearings will provide a discussion on the 
available alternatives to provide reliable, high quality water 
supplies in both these North Dakota and South Dakota project 
areas. Several different agencies have participated in rural 
water system development projects over the years, including the 
Bureau of Reclamation. However, rural water development does 
not have a regular place in the Federal budget. In a period of 
declining budgets, it remains a serious challenge to provide 
for these programs while continuing to meet the other 
obligations we must fund, i.e., existing authorized projects, 
the dam safety program, and the substantial backlog of 
maintenance activities.
    I look forward to hearing from our witnesses today.

 STATEMENT OF HON. PETER DEFAZIO, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman. I will not be able to 
stay for a good part of the hearing today but will review the 
testimony. We have an impressive list of witnesses, and I look 
forward to the discussion.
    I am best described as a skeptic on the issue, particularly 
the original proposal and aspects of the current proposal which 
might reflect that or move us back in that direction. But I 
also represent a very large district and a district where I 
have communities that are water poor and need some Federal 
assistance with rural water development, so I'm sympathetic 
particularly to those aspects of it.
    And I've got to say that our colleague, Earl Pomeroy, has 
done a tremendous job in advocacy and in bringing this forward 
to fruition in the hearing because, you know, they're sort of 
the initial reaction for those members who have been around 
here for a long time is, ``Oh, no, not again.''
    [Laughter.]
    So I congratulate him on his persistence and the fact that 
he has convinced those of us who have concerns, you know, to 
work with him and work through the process and see if we can 
resolve those as we go forward.
    I'd be remiss if I didn't mention a letter from the 
Ambassador of Canada who was expressing grave concerns about 
the interbasin transfer, similar to ones they've expressed in 
the past, and so there are some big hurdles that we have to--
that the advocates will have to overcome.
    So I appreciate the chairman making the Committee available 
and gathering information on this.
    Mr. Doolittle. Thank you.
    We have a distinguished panel of witnesses before us.
    As I understand, Senator Conrad is on his way and Senator 
Dorgan, his whereabouts is being ascertained, so perhaps we'll 
begin with the representative for the State of North Dakota, 
Mr. Pomeroy, who has done so much to get us to hold this 
hearing.

 STATEMENT OF HON. EARL POMEROY, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF NORTH DAKOTA

    Mr. Pomeroy. Well, thank you very much, Mr. Chairman.
    I think this afternoon's hearings is amazing in two 
respects. First, that it's being held at all; this is a day 
where no recorded votes are scheduled, and the fact that you 
have proceeded to hold the hearing as you promised me you 
would, I think really reflects very, very highly on you. And 
you're a man of your word, and the State of North Dakota 
appreciates it because we've been looking forward to this 
opportunity.
    The second thing that's amazing about this hearing is here 
we are, 5 weeks from a general election and you'll see the 
senior elected leadership of the State of North Dakota before 
you. We are not all of one party, yet we will all be singing 
from the same play book this afternoon. This is a broad, 
bipartisan consensus on behalf of this Dakota Water Resources 
Act, and I think it--especially at a time when many issues are 
highly polarized and extremely political--it's remarkable the 
depth of unity in North Dakota behind this bill.
    We all see H.R. 3012 and it's companion bill, Senate Bill 
1515, as critical to the future of North Dakota. We think that 
the broad support it has among the political leadership is also 
reflected upon the depth of support it has back in North 
Dakota, across not just the people of North Dakota, but a host 
of groups that represent a variety of important perspectives.
    To that end, Mr. Chairman, I would like to offer into the 
record today, letters from these groups. There are in excess of 
20 entities represented in these letters, as well as the 
testimony of the Spirit Lake Tribe. Now one of the tribes will 
be testifying on behalf of all of the tribes in the course of 
this hearing, but this testimony I'd like to introduce as well.
    Mr. Doolittle. Yes, without objection, so ordered.
    [The information referred to may be found at end of 
hearing.]
    Mr. Pomeroy. In the mid-1950's, construction was completed 
on six mainstem dams on the Missouri River, and the flooding 
began in North Dakota creating our largest lake, Lake 
Sakakawea. The flooding destroyed prime farmland, about 500,000 
acres of it. It cut the Fort Berthold Indian Reservation into 
two separate geographic units which has caused tremendous 
hardship over the years in terms of transportation, economic 
development, administrative demands.
    In addition, the Oahe Dam, created in South Dakota on the 
Missouri, flooded up into North Dakota and split the Standing 
Rock Sioux Reservation in North and South Dakota. Unlike the 
floods most folks are used to, this flood is with us for good, 
flooding an area in our State about the size of the State of 
Rhode Island, to let you know the North Dakota contribution to 
this Missouri River management plan.
    Now when we agreed to play host to this flood, we were also 
given some commitments, commitments that water from the Fort 
Peck Dam in eastern Montana would be used in western North 
Dakota for irrigation. Over the years, it was determined 
through extensive testing that irrigation was not feasible in 
light of the soil and other issues, and attention turned to 
irrigating the eastern part of our State with water from the 
Garrison reservoir.
    This plan has been changed and changed and changed over the 
years, yielding to feasibility difficulties as well as to 
political realities. The status right now is that we've got 
more than 100 miles of supply works constructed delivering 
water to nowhere.
    In response to the concerns involving the feasibility of 
widespread irrigation and our frustration with the status of 
the existing project, the elected leadership of North Dakota 
has refocused the priorities of the Garrison project to address 
our needs going on into the next century, primarily by focusing 
the project on to creating a safe, reliable water supply for 
municipal, rural, and industrial use.
    The Dakota Water Resources Act completes the journey 
started in 1944 by providing safe water to these communities. 
The irrigation feature has shrunk from more than 100 million 
acres envisioned in the first design of the project to now 
70,000 acres of authorization is what we're seeking in this 
plan before you.
    I can personally tell you, Mr. Chairman, about the 
difficulties we have across this State with quality potable 
water. I grew up three miles outside the town of Valley City. 
My family had to haul drinking water because our well water 
wasn't fit to drink, and that is precisely the situation many 
North Dakota families continue to find themselves in.
    Now the MR&I feature of the existing Garrison 
authorization, has met the drinking water needs of a number of 
families. For example, the Southwest Water Pipeline, to date, 
has taken families--we're dealing with tap water of this color 
and turned it into safe, potable drinking water, now delivered 
through the Southwest Water Pipeline. I think this is an 
example of what can be accomplished through MR&I works in the 
State of North Dakota.
    It should certainly be noted that there's a lot of work to 
be done. We have a number of communities across the State and 
on our Indian reservations where people every morning turn on 
tap water to this rather than this. It's especially ironic when 
you consider the States of the reservations being adjacent to 
this tremendous reservoir of water and yet not able to find 
potable water in light of the destruction done to their artisan 
wells and the aqueducts in their region.
    We have reformulated a project so that it has $300 million 
geared to the State MR&I needs. This will continue on a 75-25 
cost share basis with the State. We also pay particular 
attention to Indian MR&I needs, moving funding from $20.5 
million provided in the 1986 Act, up to $200 million. The 1986 
Act was represented to be a place holder figure while the full 
extent of Indian MR&I needs was ascertained. Even at the $200 
million figure, we estimate that it is only 80 percent of 
meeting the full water needs presently experienced on our 
Indian reservations.
    The final major component of H.R. 3012 is $200 million 
designed for developing reliable water supply to the Red River 
in eastern North Dakota. I call your attention to the pictures 
on the charts. They reflect two different occasions--we have a 
third illustrated as well--where the Red River essentially ran 
dry. Now the Red River is two of our largest cities; Fargo and 
Grand Forks, are on the Red River, and you can take a look at 
what history has dealt us to know why we're concerned about the 
adequacy of Red River water supply to our major metropolitan 
areas going on into the future.
    We construct a canal--to begin with, we constructed canals 
under the earlier versions of the project which create water 
supply heading to eastern North Dakota. The key linking 
structure didn't work under the 1986 Act. And what we do in the 
bill before you is have a pipeline connection that delivers the 
water from the canals to waterways that can carry the water to 
the Red River Valley and deal with this issue.
    To address the concerns that have existed in the past about 
interbasin transfer of water, we actually provide for the 
treatment of this water in the pipeline supply works to deal 
head-on with that problem that has been central to the fate of 
this bill in the past.
    The final issue I'd mention in the bill before us, $25 
million for the expansion of existing Wetlands Trust, $6.5 
million for recreation and ecotourism development, and $40 
million for construction of a new bridge across Lake Sakakawea 
on the Fort Berthold Reservation.
    We believe, Mr. Chairman, that there's a commitment that 
was made to us that has gone unfulfilled, and the sheer weight 
of the needs of the people of North Dakota for safe and clean 
water drive this legislation. We should not have people dealing 
with the water quality issues that presently exist in all too 
many homes in North Dakota. We need better water, and the bill 
before us would help us get this water.
    I thank you for your interest. I can't emphasis how 
critical we believe this project is to the future of North 
Dakota.
    [The statement of Mr. Pomeroy follows:]

 Statement of Hon. Earl Pomeroy, a Representative in Congress from the 
                         State of North Dakota

    Thank you Mr. Chairman for holding this hearing on the 
Dakota Water Resources Act of 1998.
    I am grateful for the opportunity to express my strong 
support for this legislation--H.R. 3012 in the House, and its 
companion, S 1515 in the Senate. This legislation is a critical 
component to the future of North Dakota and has a very broad, 
bipartisan base of support in my state as you will hear from 
the testimony today.
    In the mid 1950s, construction was completed on one of the 
six main stem dams on the Missouri River. At this time, the 
flooding began which eventually created North Dakota's largest 
lake--Lake Sakakawea. This flooding destroyed prime farmland on 
the Fort Berthold Indian Reservation and created a geographic 
separation which has caused numerous hardships in terms of 
transportation, economic development, and various 
administrative demands. In addition, the Oahe dam in South 
Dakota created Lake Oahe, which is partially situated on the 
Standing Rock Sioux Reservation of North and South Dakota. 
Unlike the floods most folks are used to--the type where a 
spring snow melt causes a river to rise, or a storm temporarily 
makes a river flow over its banks, this flood is with us for 
good. In total, almost 550,000 acres of North Dakota land--a 
chunk of real estate the size of Rhode Island--has been lost 
for the sake of this project.
    When North Dakota agreed to play host to this flood, a 
commitment was made to our state that we would be able to use 
water from the Fort Peck dam in eastern Montana for irrigation.
    Extensive testing of the soils in western North Dakota 
revealed that the land was not suited to such irrigation 
development and attention turned to irrigating the eastern part 
of our state with water from the Garrison reservoir. Numerous 
problems arose as we pursued this plan and further studies and 
negotiations resulted in a series of changes, most notably 
reducing the irrigation component from an original figure of 
over 1.2 million acres to the 70,000 acres in this bill--none 
of which will be located in the Hudson Bay drainage basin.
    In response to the concerns involving the feasibility of 
wide-scale irrigation, elected leaders of North Dakota have 
refocused the priorities of the Garrison Project to better 
address the need across the state for safe, reliable water 
supplies for municipal, rural, and industrial use. The Dakota 
Water Resources Act completes the journey started in 1944 and 
will provide this safe water to communities across the state.
    Today you will hear of the tremendous success of the 
Southwest Water Pipeline, a feature of the Garrison Project 
which has brought clean water to thousands of North Dakotans 
who no longer have to haul their water from town. Mr. Chairman, 
I can personally attest to the difficulties of growing up with 
poor well water. For years, my family hauled water from town to 
our home outside Valley City. Prior to the Southwest Pipeline, 
water in some communities was both unreliable and unsafe.
    I would like to show you just exactly what these folks 
dealt with and what many still deal with in North Dakota where 
good water isn't available. I have a pop bottle here that I'm 
glad no one mistook for a Pepsi and tried to drink. This is 
water from a community in Southwest North Dakota prior to the 
construction of the Southwest Pipeline. Now, these people enjoy 
clean, safe drinking water, but there are plenty of other 
communities across North Dakota, and on our Indian 
Reservations, where people get up every morning and turn on 
their tap to find water like this. I believe Chairman Bud Mason 
of the Fort Berthold Reservation has brought some samples of 
his own to show you today--a sad irony considering the people 
who use the water he will show you are little more than a 
stone's throw away from Lake Sakakawea itself, yet cannot tap 
into its vast store of clean, safe water.
    To continue to the progress we have made with features such 
as the Southwest Water Pipeline, the Dakota Water Resources Act 
authorizes $300 million to continue work on this pipeline and 
develop other projects across the state which will bring safe, 
clean water to many North Dakota communities. This will 
continue on a 75-25 cost-share basis with the state. In 
addition, a second major component of this legislation is the 
commitment to the Indian Reservations in North Dakota. The 
Garrison Reformulation Act of 1986 provided for MR&I funding of 
$20.5 million for The Standing Rock Sioux, the Three Affiliated 
Tribes, and the Spirit Lake Nation. It was understood this 
number was not representative of their needs, but rather a 
starting point. Of course, we now recognize this was a wholly 
inadequate level of funding and the unique and pressing needs 
of the reservations in North Dakota are much greater. The 
Dakota Water Resources Act provides $200 million for water 
development on the reservations in North Dakota--which, in 
fact, is still short of meeting their documented needs.
    The final major component of H.R. 3012 is the $200 million 
designated for developing a reliable water supply to the Red 
River Valley in eastern North Dakota. This area of North Dakota 
is the most heavily populated, and the city of Fargo is one of 
the most rapidly growing cities in the region.
    The Red River is known for its dramatic changes in stream 
flow from one year to the next. We all recall the vivid 
pictures from the great flood of 1997, yet vivid pictures of 
just the opposite are something we've experienced on many 
occasions in the past. A photo here taken in 1932 of the Red 
River shows children playing within its banks.
    To address this, we began building canals under earlier 
versions of this project which were designed to connect the 
water supply created by the Garrison dam to the Sheyenne River, 
which flows into the Red River. However, after building canals 
from each end of this project, the key linking structure in 
this plan was deemed unworkable, leaving approximately 20 miles 
between these two canals which remains unconnected today. A 
number of issues led to the stoppage of this project, one of 
which was that bringing water from the Missouri basin to the 
Red River Valley would result in an interbasin transfer of 
water. Should the study of water needs and supply in the valley 
conclude that this is the most appropriate method for 
delivering water to communities in eastern North Dakota, the 
interbasin transfer of water concerns would be addressed by 
using a pipeline link the two canals which would incorporate 
treatment of this water to meet the environmental concerns of 
downstream interests.
    This component of the legislation, as well as the portion 
of those structures already in place which may be used to move 
water to the east will be reimbursable. This is considerable 
value to the U.S. Government, as the state would not be repay 
the Federal Government for existing project features which will 
never be placed into service.
    Finally, the bill before us today includes $25 million for 
the expansion of the existing Wetlands Trust, $6.5 million for 
recreation and ecotourism development, and $40 million for 
construction of a new bridge across Lake Sakakawea on the Fort 
Berthold Reservation.
    Mr. Chairman, while we believe a commitment was made to us 
which has gone unfulfilled, it is the sheer weight of the needs 
of the people of North Dakota for clean and safe water which 
drive this legislation. No child should have to bathe in water 
like this. The resource is available, the need is significant, 
and this legislation is our answer. This is a fair and 
reasonable closure to the commitment by the Federal Government 
to the state of North Dakota. The need across the state and on 
our Indian reservations for an improved water supply--one that 
is safe and reliable--is well-documented. The bill before us 
today is the product of numerous, intense negotiations among 
the elected leaders of both parties in North Dakota, tribal 
leadership, the environmental community, city leaders, and 
others to develop a plan that effectively addresses these water 
needs and fulfills the commitment of the Pick-Sloan Missouri 
Basin Program. I would like to submit for the record almost 
thirty letters recently received from organizations across the 
state which demonstrate the support I mention for this Act.
    Again, I thank you Mr. Chairman for your interest in this 
project and for scheduling this hearing. This is one of the 
most critical issues before the people of North Dakota and your 
willingness to hold this hearing is very important as we move 
forward to bring clean, safe water to the people across my 
state.

    Mr. Doolittle. Thank you.
    Our next witness is Senator Kent Conrad from the State of 
North Dakota. Senator.

 STATEMENT OF HON. KENT CONRAD, A SENATOR IN CONGRESS FROM THE 
                     STATE OF NORTH DAKOTA

    Senator Conrad. Thank you, Congressman; thank you very 
much, very much, for holding this hearing, and thank you very 
much for your patience.
    I believe this project is fiscally responsible, is 
environmentally sensitive, and is a treaty-compliant approach 
to completing the Garrison project.
    Mr. Chairman, we started on this effort five long years 
ago. When we recognized, in a bipartisan basis in the State of 
North Dakota, that with the 1986 reformulation, we were never 
going to achieve the results promised to the people of North 
Dakota. It was just very unlikely that the Sykeston Canal would 
ever be completed to deliver water to eastern North Dakota.
    And so 5 years ago, we started on what we called the 
``Collaborative Process.'' And in that collaborative process, 
we tried to involve all of the stakeholders. The Governor was 
involved, the congressional delegation; the Bureau of 
Reclamation worked with us on a technical basis. We had all of 
the tribes of North Dakota represented, and we asked both the 
national environmental community as well as the environmental 
community in the State of North Dakota to participate. It is a 
result of the lengthy deliberations through the collaborative 
process, a myriad of studies that were done by the Bureau of 
Reclamation that has brought us to where we are today.
    Mr. Chairman, in 1997, in February, we held in my office a 
10-hour marathon negotiating session to reach agreement on the 
12 principles that would guide the drafting of the legislation. 
With your permission, Mr. Chairman, I'd like to enter those 12 
principles into the record at this point.
    Mr. Doolittle. Certainly. Without objection, so ordered.
    [The information referred to follows:]
    Senator Conrad. Mr. Chairman, we believe we have been 
faithful to those 12 principles. They form the foundation of 
the bill that is before us today.
    And I want to especially highlight organizations that help 
bring this all together in North Dakota. The North Dakota Water 
Users and the North Dakota Chapter of the Wildlife Society, 
they played absolutely critical roles in bringing us together.
    And, Mr. Chairman, what you see is remarkable. I've never 
in my experience in public life in North Dakota, seen more 
agreement in our State than on this measure, on a bipartisan 
basis, with every stakeholder signed up to support the Dakota 
Water Resources Act. So we believe we've made enormous 
progress.
    Mr. Chairman, we have been working very closely with the 
Bureau of Reclamation, and they had a whole series of things 
that they believed we ought to change. And so for 3 months, we 
have worked with them, and now we believe we're down to four 
issues. We met with them again last week, and we think dramatic 
progress has been made. Let me just highlight the four, and 
then I will end.
    They're still concerned about the OM&R costs in this bill. 
They estimate they are from $5 to $12 million a year, with $200 
million available in their budget on a yearly basis, they're 
concerned with that amount of money.
    Second, they are concerned about the revolving loan fund 
feature of the $300 million of State MR&I.
    Third matter, is they are concerned about the Four Bears 
Bridge that is included here. Mr. Chairman, we understand this 
is unusual to have a bridge in a reclamation bill. The reason 
that it's here is because it is project-related and because 
this bridge, which is going to cost $45 million, is truly a 
hazard. I'd invite the chairman and anybody else who is 
interested to come and go across that bridge with us sometime--
about midnight on a Saturday night would be a good time. Mr. 
Chairman, it is a hazard; it needs to be replaced. The State 
doesn't have the money to do it. It is project-related, and we 
thought the best place to put it was here.
    Finally, they raised the issue of total cost. I think we 
probably understand that they make the point that we still need 
to have a shave and a haircut here. I'm hopeful that it will be 
just a minor shave and a minor haircut, because frankly, Mr. 
Chairman, we've gone a long way toward making this project 
fiscally responsible, environmental sensitive, and Treaty-
compliant. We believe we have delivered a project like that to 
the Committee and to the Congress.
    We are certainly prepared to listen as you counsel us in 
what other changes need to be made so that we can cross the 
line.
    And again, Mr. Chairman, I want to thank you for your 
patience and your interest.
    [The statement of Mr. Conrad follows:]

Statement of Hon. Kent Conrad, a Senator in Congress from the State of 
                              North Dakota

    Mr. Chairman, I greatly appreciate your willingness to hold 
this hearing. It is a pleasure to indicate my strong support 
for the Dakota Water Resources Act of 1998.
    I believe this legislation represents a fiscally-
responsible, environmentally-sound, Treaty compliant approach 
to completing the Garrison project. I will focus my comments on 
the history of the development of the bill before the 
Committee, because the process we have followed has been an 
unprecedented and cooperative process that has taken more than 
five years. Our approach has been to seek input from every 
quarter.

THE COLLABORATIVE PROCESS

    In 1993, after it became apparent that the project 
authorized by the 1986 Garrison Diversion Reformulation Act 
would not be constructed, we began the ``Collaborative 
Process'' to seek ways to again reformulate the project into 
one that could be completed. That process involved a group of 
representatives from the North Dakota congressional delegation, 
the State of North Dakota, the Indian Tribes within North 
Dakota, and local and national environmental organizations.
    Additionally, the Bureau of Reclamation provided technical 
support to the group and acted as a facilitator to the 
discussions. Those initial discussions, while not leading to an 
immediate compromise, began the 5-year long process of 
formulating a new project.
    Following the ``Collaborative Process'' and time for 
organizations to develop alternatives, we organized meetings 
with all stakeholders to begin a new effort to complete the 
project.

DEVELOPING THE DAKOTA WATER RESOURCES ACT

    We held public meetings in North Dakota in December, 1996, 
to get a fresh start with the various stakeholders to develop 
the plan to meet the contemporary and future water needs of 
North Dakota. Those meetings were used to solicit views from 
all interested groups about how the project should be 
reformulated.
    In February, 1997, we met with several North Dakota and 
national environmental interests in my Washington office to 
discuss how to develop an environmentally-sensitive approach to 
completing the project. From that 10-hour meeting, we developed 
12 principles that have guided our efforts to craft the 
detailed legislative language to settle this issue. I ask 
consent to have a copy of the ``12 Principles'' included in the 
record.
    The bill, based on those 12 points, requires full 
compliance with NEPA and the Boundary Waters Treaty with 
Canada. It includes additional funds for wetland enhancement 
and other natural resource conservation in the state. The 
bottom line, Mr. Chairman, is that we have developed a bill 
that is an environmentally-sensitive proposal based on the 
agreement we reached at that marathon negotiating session in 
February, 1997.
    Let me emphasize that all parties came to an agreement at 
that meeting, including two organizations that will present 
testimony today in opposition to the bill. We have continued to 
reach out to those organizations to hear their views about how 
the substitute amendment before Congress differs from the 12 
Points. We remain willing to hear their specific concerns.
    Following the February, 1997 discussions, we worked to 
write the legislative language that would remain true to the 12 
Points. After going through several drafts and seeking reaction 
from interested groups, we reconvened all the stakeholders for 
a day-long meeting in Washington last October. Unfortunately, 
at that time the Na-

tional Audubon Society and the National Wildlife Federation 
chose to withdraw from the process, and invited us to introduce 
the legislation we had developed for a thorough public debate.
    That October session helped us further narrow differences 
on the draft bill. At this point I would like to highlight the 
yeoman's effort of two organizations--the North Dakota Water 
Users and the North Dakota Chapter of the Wildlife Society. 
Those groups put forward an extraordinary effort to help us 
complete drafting the bill in a way that meets North Dakota's 
water needs in an environmentally-acceptable manner. That 
effort culminated in S. 1515 and H.R. 3012, which were 
introduced November 10, 1997, in the Senate and House of 
Representatives.

PROGRESS SINCE INTRODUCTION

    Since we introduced the bill, we held a field hearing in 
Fargo, North Dakota, in February to hear the reaction of North 
Dakotans to the proposal. At that hearing, virtually every 
organization or interest that testified supported the Dakota 
Water Resources Act. I have never seen such broad, bipartisan 
support for anything in our state.
    That support ranges from North Dakota's bipartisan elected 
leadership, the four Indian Tribes located in North Dakota, a 
wide variety of water interests across the state, the North 
Dakota Wildlife Society, the North Dakota Rural Electric 
Cooperatives, the state's Chamber of Commerce (called the 
Greater North Dakota Association), the North Dakota Farmers 
Union, the North Dakota Education Association; and many more.
    Following that hearing in Fargo; the Interior Department 
raised questions about the legislation and interpreted parts of 
the bill differently than we intended. For more than three 
months this summer we held an intensive effort to re-write the 
bill to clarify provisions that were open to interpretation and 
to make substantive changes to address concerns expressed by 
the Department.
    From those discussions, we significantly narrowed the 
differences between the Bureau and the sponsors of the bill. 
The substitute amendment before the Subcommittee represents 
those changes, and I believe the Administration's testimony 
today will acknowledge that effort.
    I believe we have substantially narrowed the differences on 
this legislation so that we now have only a handful of issues 
remaining with the Department. We have been working since the 
July hearing before the Senate Energy Committee to continue to 
discuss those issues with the Department.

CONCLUSION

    Mr. Chairman, the work of the past two years has brought us 
to where we are today--ready to move forward with a plan to re-
direct, and complete, the Garrison Diversion project. The 
process we have followed in developing the bill is one of 
inclusiveness.
    The legislation represents a fiscally-responsible, 
environmentally-sound, Treaty-compliant approach to completing 
the Garrison project. I urge the Committee to approve this bill 
and send it to the full House for its consideration.

                    SUMMARY OF GARRISON DISCUSSIONS

                     FEB. 24, 1997, WASHINGTON D.C.

    As a result of the non-binding talks on Feb. 24, the 
following are areas of potential agreement.
    1. Form of legislation--offer as amendments to the 1986 
Reformulation Act.
    2. Indian MR&I--increase current authorization by $200 
million. Will need to: (1) net BUREC OK on needs assessment and 
(2) require Sec. Interior to rank projects and set a timetable 
in consultation with Indian Health Service.
    3. Indian Resources--keep existing authority for irrigation 
at Standing Rock and Ft. Berthold; add an estimated $40 million 
to replace Four Bears Bridge at Ft. Berthold; get refined 
bridge cost estimates from DOT and ND DOT, seek funding for Ft. 
Yates Bridge in Highway Reauthorization Bill once tribe agrees 
to move ahead.
    4. State MR&I--increase current authority by $300 million. 
Should fund 80 percent of 40-year needs.
    5. Water to Red River Valley--increase current authority by 
$200 million for construction of facilities to provide Missouri 
River water to RRV or for alternative solutions preferred by 
the local communities and the state. Establish a process by 
which the BUREC would complete its phase 2 study so that all 
stakeholders could make a decision by the end of 1997.
    6. State Role--continue to share MR&I and other costs; 
handle O&M on completed facilities.
    7. Devils Lake--do not include outlet or inlet in 
amendments to '86 Act. Outlet is being considered on a separate 
emergency basis.
    8. Integrated Projects--(a) require Corps review of 
Missouri River bank stabilization options downstream of 
Garrison Dam, (b) retain authorization for Turtle Lake 
demonstration and deal with next steps in report language after 
peer review is completed, and (c) increase authority for 
recreation projects by $5 million.
    9. Repayment--reaffirmed principle that ND should only pay 
for capacity or features it uses. Feds pay 100 percent of 
Sheyenne treatment/distribution. Define a specific plan for 
forgiving capital and operation/maintenance costs for existing 
facilities and apportioning costs for future facilities. Power 
Rates--leave as in '86 Act to retain existing rate structure.
    10. Irrigation--Keep irrigation as an authorized purpose. 
Retain canal-side irrigation on McClusky Canal of 10,000 acres 
and authorize 1,200 acres along New Rockford Canal if full 
costs are paid. Do not provide Federal funding for 5,000 acre 
Oakes site. Deauthorize other designated irrigation except as 
provided in Indian Resources and Integrated Projects.
    11. Wildlife and Water Resource Management--keep current 
authority for Kraft Slough; turn the Wetlands Trust into a 
broader Resources Trust, which would then deal with grasslands 
conservation and riparian areas, too; increase Trust by $25 
million; earmark a specific share of the Trust to prevent any 
decrease for wetlands; funci a $1.5 million Intepretive Center 
through the Trust; deauthorize Lonetree Reservoir and convert 
to a Wildlife Management Area; keep operation's maintenance/
repairs of mitigation projects as a Federal responsibility.
    12. Economic Recovery Fund--do not include in legislation.

    Mr. Doolittle. Well, thank you very much.
    Our next witness is the other Senator from the great State 
of North Dakota, Senator Byron Dorgan.

STATEMENT OF HON. BRYON DORGAN, A SENATOR IN CONGRESS FROM THE 
                     STATE OF NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much.
    My colleagues have pretty well covered it. Let me add a 
couple of points.
    First, a more historical note, I wasn't here back in the 
1940's when those viewing the Missouri River decided it was 
kind of a ornery river from time to time. Especially in the 
spring it would create chaos and massive flooding in the 
downstream cities, and softball would be interrupted in the 
city parks in Kansas City because of a river that was 
overflowing and wild and ornery.
    So, Federal officials decided the way to harness the 
Missouri River and get some benefits from that river was to 
build a series of mainstem dams. They decided they wanted to 
have one of those dams in North Dakota. So they came to North 
Dakota with this plan, the Pick-Sloan Plan, and told North 
Dakotans, ``In order to control this river and prevent flooding 
from downstream and all of the problems it causes, we'd like to 
propose that we have a permanent flood in your State. If you'd 
just be willing to accept this, the flood will come and visit 
your State and stay forever. We propose it be about the size of 
Rhode Island. We propose that it never leave, and we understand 
that it would be kind of a dumb thing for you to say, `Yes, 
we'd love to have a permanent flood without getting something 
in return.'
    ``So what we'd do is this; we'd propose a bargain with you. 
We'd have the flood visit your State, and you be host to it 
forever, and we will understand that you are a semi-arid State 
and would be able to use water from behind that dam to move 
around your State for the benefit of your State--for safe 
drinking water, clean water, municipal and industrial needs, 
industrial development and so on.''
    The State thought about that and decided, well, that was a 
pretty good trade and a pretty good bargain to make, and so we 
did, and so the flood came. And President Eisenhower went out 
and cut the ribbon to dedicate the dam, and the water came, and 
so we're now host to a permanent flood.
    We got the costs of this bargain, but have never realized 
the full promise. It's not to say we haven't realized anything; 
we have received benefits--about a half a billion dollars and 
the clean water that Congressman Pomeroy held up which comes to 
my hometown and many others in North Dakota. There are very 
significant benefits from this project.
    Throughout the years this project, we were promised as much 
as a million acres of irrigation--which is a very significant 
issue for a semi-arid State like ours. Imagine! A million acres 
of irrigation we were told. That project has now, like a plum 
to a prune, has shrunk and shriveled. And now with all of its 
wrinkles, is 70,000 acres of irrigation in the reformulated 
plan pending before the Subcommittee.
    The plan itself is necessary because in 1986 we 
reformulated the then-Garrison Diversion project to best meet 
the State's needs at that point. But in this room and in the 
agreement that was made, there was one piece called the 
Sykeston Canal which was the connecting link needed to 
accomplish a lot of the project's purposes. It was uncertain 
whether that link was going to work as intended. Of course, 
over time, it was clear. It was from an engineering standpoint, 
not workable; from a cost standpoint, not workable.
    And so we had, then, to retool this project one additional 
time, one last reformulation to fine tune the project to better 
meet the needs of the State.
    The latest revisions in S. 1515 include all of the features 
my two colleague have just mentioned. I will not mention them 
again. But I do want to mention three final issues very 
quickly.
    First is the issue dealing with North Dakota Indian 
reservations. My father spent some time in his youth in Elbow 
Woods, North Dakota, and that doesn't exist anymore. That's at 
the bottom of our permanent flood. Chairman Russell Mason of 
the Three Affiliated Tribes is here to testify; he comes from 
that part of North Dakota. His tribe very much needs the 
resources that were promised and the resources that will be 
delivered in this piece of legislation, as do the people of 
eastern North Dakota and many other communities throughout the 
State who will benefit from this legislation.
    Second, we dealt with this with a realistic budget. One, we 
retained the cost share of 25 percent for the MR&I projects. 
Two, we repay the $200 million for Red River water supplies. 
Three, we also reimburse the government for the share of the 
capacity of the mainstem delivery features, index MR&I features 
only from date of enactment, and we target the State's critical 
water development needs. Meanwhile, the Federal Government will 
earn tax revenues from economic growth and receive 
reimbursement from the project users.
    And finally, let me just make another quick point. We 
addressed the legitimate concerns of the environmental groups, 
the Canadi-

ans, and the downstream States. Those who say that we didn't 
address those problems are just dead wrong. We expressly bar 
any irrigation in the Hudson Bay Basin. We give the Secretary 
of the Interior the authority to select the Red River Valley 
water supply feature, determine the feasibility of newly 
authorized irrigation areas in the scaled-back project, and we 
extend the EIS period. As far as boundary water measures are 
concerned, biota transfers is a non-issue because only treated 
water would be transferred, and so on.
    Moreover, we scale back the authorized irrigation for 
130,000 to 70,000 acres and limited withdrawals from the 
Missouri River to 200 cfs.
    All of this is in my full statement that I would hope you'd 
make a part of the record.
    All of these provisions reflect those of us in this group, 
Republicans and Democrats who are interested in this project 
from the standpoint of benefiting our State. We understood what 
kinds of criticisms were being leveled at this project, and we 
dealt with those criticisms in a very direct way. I'm proud, as 
Senator Conrad and Congress Pomeroy indicated, to be sitting 
here with the Governor and the majority leader of the State 
house; we're united on what's important for our State and what 
we'll invest and build for the future of our State, and I'm 
pleased to be here to present this testimony.
    Mr. Doolittle. Thank you. I must say, I've never 
experienced nor do I know of a situation where we've had this 
kind of top-elected leadership of the State assemble all for 
one purpose such as this. It is quite remarkable I think.
    As Governor, we've talked several times about this. I know 
you, along with the others, have been a real leader and 
proponent of bringing this issue to the forefront. I'd like to 
recognize you now for your testimony, Governor Ed Schafer, 
Governor of North Dakota.

  STATEMENT OF HON. EDWARD SCHAFER, GOVERNOR OF THE STATE OF 
                          NORTH DAKOTA

    Governor Edward Schafer. Thank you, Mr. Chairman. Thank you 
for the opportunity to be here and testify. We do appreciate 
the time.
    For the record, my name is Edward T. Schafer. I'm the 
Governor of North Dakota, and I do thank you for the 
opportunity to testify in support of the Dakota Water Resources 
Act.
    As Governor of North Dakota, I am here today to address the 
current and future water needs of our State, and to show how 
this Act will serve the Federal Treasury--will save the Federal 
Treasury--compared to the cost of completing the Garrison 
Diversion project under current law.
    The Dakota Water Resources Act is the key to solving these 
needs. The project unlocks North Dakota's future as an 
indispensable element for water supply, economic development, 
agriculture, recreation, tourism, and wildlife enhancement.
    The Bureau of Reclamation has stated that the cost of the 
Dakota Water Resources Act is no more than the cost of the 1986 
Garrison Diversion Reformulation Act. As a matter of fact, the 
cost of meeting the needs of the 1986 Act is far in excess of 
the cost of the Dakota Water Resources Act, and for these 
reasons, what is good for North Dakota is good for the Nation 
as well.
    The greatest challenge before us is to find a solution for 
a dependable water supply for current and future generations of 
North Dakotans. Good drinking water is necessary for economic 
stability and growth. Presently, much of North Dakota suffers 
from either insufficient quantity or/and a lack of adequate 
supply of water quality for drinking. The solution to this 
challenge is the delivery of water from the Missouri River 
throughout our State. By providing Missouri River water 
throughout the State, we will also be able to support the 
growth experienced in certain areas of our State in recent 
years. This growth has come about largely because of new 
manufacturing and new industry service centers. As communities 
grow, so does the demand for water and so does the need for a 
safe water supply.
    The Dakota Water Resources Act ensures our citizens an 
adequate supply of high quality and reliable water for MR&I 
water systems across this State. The greatest single need in 
this regard is to provide citizens of the Red River Valley with 
long-term water supply. This includes the need for our citizens 
as well as the need for our neighbors in Minnesota.
    An important aspect of the Red River water supply is the 
fact that the cost of delivery of Missouri River water is 
reimbursable with interest. This is an important factor which 
helps reduce the impact of the Federal Treasury.
    Water supply development for Native Americans on our Indian 
reservations within our State also is included in this Act, as 
well as opportunities to manage and conserve the natural 
resources of North Dakota through an expanded Natural Resources 
Trust.
    When Congress authorized the MR&I Water Supply Program in 
1986, it was a positive first step in fulfilling the water 
needs of our State. The total identified needs then were more 
than $400 million. And unfortunately, even after addressing 
some of these needs under current law, the total remaining 
water supply needs in the State today exceeds $600 million 
because of inflation and newly identified needs.
    The current need is outlined in a report that I have 
provided to the Committee for the record.
    [The information referred to may be found at end of 
hearing.]
    Governor Edward Schafer. This report lists water supply 
needs for more than 520,000 people in 144 water systems, 
including community and rural needs as well. The report does 
not cover the water supply and water treatment needs of the 
Indian reservations in North Dakota. A separate needs 
assessment reports are to be completed for the reservations. 
Also, the means for contributing the non-Federal share of the 
State MR&I program are already in place.
    MR&I funds include local, State, and Federal funds, have 
improved the quality of life for many North Dakotans; 32 
communities and rural water projects have been developed since 
1986 at a cost of more than $200 million. And the non-Federal 
contribution to these projects has been approximately $73 
million.
    I might take a minute, Mr. Chairman, you mentioned in your 
comments about the Perkins County project. The South Dakota 
project, however, ties into North Dakota water supply projects, 
and unlike some other States or neighbors, North Dakota is 
cooperating with this project and certainly support the needs 
of South Dakota, their people, and this water development 
project in Perkins County.
    The water supply needs of the Red River Valley are being 
addressed separately in order to evaluate the best available 
method to solve the Red River Valley water supply problem. And 
as you've heard, this is a cooperative effort of Federal, 
State, and local agencies. Water conservation, available water 
supplies in the basin, and diversion of water from outside the 
basin are all being considered for the future Red River Valley 
needs.
    The preliminary estimates for total water requirement for 
Red River Valley ranges from 100 to 200 cubic feet a second in 
the Cheyenne and Red Rivers to meet the supply needs of the 
valley by 2050. And under any scenario, the amount of water 
necessary for the Red River Valley represents less than 1 
percent of the annual Missouri River flow leaving North Dakota.
    You know the Red River Valley Water Supply projects, the 
Southwest Water Pipeline, the Northwest Water Pipeline, 
evidenced here, the projects that we've been working on, but it 
is equally important to complete the project to allow North 
Dakota to use the Missouri River water properly throughout our 
State.
    That distribution of the water will also provide a habitat 
to sustain fish and wildlife through drought years and will 
allow enhanced recreation during normal years.
    We have identified $1.6 billion of water management 
projects in the State. Since 1986, local and State entities 
have spent more than $88 million; therefore, we do believe we 
are showing our willingness to continue to fund our share of 
these water supply projects.
    We've talked about the reduction of irrigation acres, but 
it's important to note that no additional Federal funds are 
being sought for the developing of these acres. This results in 
a further reduction to the Federal Treasury in cost, and that 
is authorized under current law. None of the irrigation is 
located in the Red River Basin or in the Devil's Lake Basin.
    Water supply to North Dakota is a great concern to Manitoba 
and Canada, and these concerns will be thoroughly addressed 
through the consultative process to ensure compliance with the 
United States-Canada Boundary Waters Treaty Act of 1909. And 
from a technical standpoint, compliance is clearly attainable.
    I know that there's also been a concern raised about the 
efforts of our State to control the flood at Devil's Lake. Some 
suggest that this is a back-door approach to diverting Missouri 
water to Devil's Lake, and this is simply not the case. And for 
the record, the proposed Devil's Lake outlet cannot be operated 
in any way to divert Missouri River water to Devil's Lake. 
These two issues are totally separated physically, as well as 
by law.
    In addition, you will hear testimony from folks and 
organizations from outside of our State that purport to be 
testifying in our best interest. And I want to assure you that 
the people of North Dakota that live and work in our State 
understand our needs and desires, including the wildlife and 
environmental organizations, support this project in our State. 
We are 100 percent committed to meeting the quality and 
environmental standards and safeguards that Congress has had 
the foresight to put in place. And the Dakota Water Resources 
Act is written in such a way that there is no question that we 
will fully comply with the National Environmental Policy Act, 
as well as the Boundary Water Treaties Act.
    I know my time is up here, Mr. Chairman. I appreciate the 
opportunity to testify.
    In closing, I do have more comments which I'll submit for 
the record, but I would like to enter into the record also the 
Resolution of the North Dakota State Water Commission, which I 
chair, supporting the authorization of the Dakota Water 
Resources Act.
    [The information referred to may be found at end of 
hearing.]
    Governor Edward Schafer. North Dakotans from cities, from 
farms, from businesses are committed to this Garrison Diversion 
project. The project we know will never be what was promised to 
us in 1944, but it will continue to be the most important water 
management project in our State.
    I want to thank you for your past support for the Garrison 
Diversion project, and I hope that you will continue your 
support to helping secure a brighter, better, and bolder future 
for North Dakota through this water resources Act. Let's bring 
this 50-year project to closure.
    In closing, let me ask--I guess I'm kind of curious when we 
receive a letter from Canada, when we have a neighboring State 
comment, when a national environmental or wildlife group, or a 
downstream State makes some testimony, I guess I'm curious as 
to why those efforts get the credence, the creditability, and 
the priority over North Dakotans when we who live and work in 
our State know the needs. We love the environment, our clean 
air, and our clean water, and we would never do anything to 
ruin the quality of life in our State or for anybody else in a 
neighboring State or country.
    I thank you for the opportunity, Mr. Chairman.
    [The prepared statement of Governor Schafer follows:]

      Statement of Hon. Edward T. Schafer, Governor, North Dakota

    Mr. Chairman and Members of the Subcommittee, my name is 
Edward T. Schafer, Governor of North Dakota. Thank you for the 
opportunity to testify in support of the Dakota Water Resources 
Act.
    As Governor of North Dakota, I am here today to address the 
current and future water needs of our state, and to show how 
this Act will serve the Federal treasury compared to the cost 
of completing the Garrison Diversion Project under current law. 
The Dakota Water Resources Act is the key to solving these 
needs. The project unlocks North Dakota's future and is an 
indispensable element for water supply, economic development, 
agriculture, recreation, tourism, and wildlife enhancement. The 
Bureau of Reclamation has stated that the cost of the Dakota 
Water Resources Act is no more than the cost of the 1986 
Garrison Diversion Reformulation Act, and as matter of fact, 
the cost of meeting the needs of the 1986 Act is far in excess 
of the cost of the Dakota Water Resources Act. For these 
reasons, it is good for North Dakota as well as the nation.
    The greatest challenge before us is to find the best 
solution for a dependable water supply for current and future 
generations of North Dakotans. Good drinking water is necessary 
for economic stability and growth. Presently, much of North 
Dakota suffers from either insufficient quantity or lack of an 
adequate supply of good quality water for drinking. The 
solution to this challenge is the delivery of water from the 
Missouri River throughout the state. By providing Missouri 
River water throughout the state, we will also be able to 
support the growth experienced in certain areas of the state in 
recent years. This growth has come about largely because of new 
manufacturing and new industry service centers. As communities 
grow, so does the demand for water and so does the need for a 
safe water supply.
    The Dakota Water Resources Act ensures our citizens an 
adequate supply of high quality and reliable water for 
municipal, rural and industrial water systems across the state. 
Our greatest single need in this regard is to provide the 
citizens of the Red River Valley with a long-term water supply. 
This includes the need for our citizens as well as the need for 
some of our neighbors in Minnesota. An important aspect of the 
Red River water supply is the fact that the cost of the 
delivery of Missouri River water is reimbursable with interest. 
This is an important factor which helps to reduce the impact to 
the Federal treasury. Water supply development for Native 
Americans on the Indian reservations within our state is also 
included in the Act, as well as opportunities to manage and 
conserve the natural resources of North Dakota through the 
expanded Natural Resources Trust.
    When Congress authorized the Garrison Municipal, Rural and 
Industrial (MR&I) Water Supply program in 1986, it was a 
positive first step in fulfilling the water needs of our state. 
The total identified needs then were more than $400 million. 
Unfortunately, even after addressing some of these needs under 
current law, the total remaining water supply needs in the 
state today exceeds $600 million because of inflation and newly 
identified needs. The current need is outlined in a report I 
have provided to the Committee for the record. The report lists 
water supply needs for more than 520,000 people in 144 water 
systems including community and rural needs. The report does 
not cover the water supply and water treatment needs of the 
Indian reservations within North Dakota. Separate needs 
assessment reports are to be completed for the reservations. 
Also, the means for contributing the non Federal share of the 
state MR&I program is already in place.
    MR&I funds including local, state and Federal funds have 
improved the quality of life for many people across North 
Dakota. Thirty-two (32) community and rural water projects have 
been developed since 1986 at a cost of more than $200 million. 
The non-Federal contribution to these projects has been 
approximately $73 million.
    The water supply needs of the Red River Valley are being 
addressed separately in order to evaluate the best available 
method to solve the Red River Valley water supply problems. 
This is a cooperative effort of Federal, state and local 
agencies. Water conservation, available water supplies in the 
basin, and diversion of water from outside the basin are all 
being considered to meet future Red River Valley needs. The 
preliminary estimates for the total water requirement for the 
Red River Valley ranges from 100-200 cubic feet per second to 
the Sheyenne and Red Rivers to meet the water supply needs in 
the year 2050. Under any scenario, the amount of water 
necessary for the Red River Valley represents less than 1 
percent of the annual Missouri River flow leaving North Dakota.
    Projects such as the Red River Valley Water Supply, the 
Southwest Pipeline Project, the Northwest Area Water Supply, 
and many other city and rural projects are all important parts 
of the Dakota Water Resources Act. Furthermore, and equally as 
important, completing this project will allow North Dakota to 
use its Missouri River water right.
    Distribution of Missouri River water in the state will also 
provide habitat to sustain fish and wildlife through drought 
and to allow for enhanced recreation during normal years. 
Providing additional water from the Missouri River is a 
potential solution to low stream flows as well as meeting 
municipal, rural and industrial needs.
    Besides need for water supply, North Dakota's State Water 
Management Plan shows overall needs for flood control, 
recreation, irrigation water supply, bank stabilization, and 
fish and wildlife. The Plan identifies $1.6 billion of total 
water management needs in the state. Since 1986, the state and 
local entities have spent more than $88 million on water 
management projects alone, and are willing to continue to fund 
their share of future projects. These efforts are in addition 
to our efforts for water supply projects.
    It is important to note that the Dakota Water Resources Act 
will reduce the number of acres of irrigation from 130,000 
acres to 70,000 acres. No additional Federal funds are being 
sought for developing these acres, resulting in a further cost 
reduction from the Federal treasury as authorized under current 
law. Also, none of the irrigation is located in the Red River 
Basin or the Devils Lake Basin.
    Water supply to eastern North Dakota has been a great 
concern to Manitoba and Canada. These concerns will be 
thoroughly addressed through a consultative process to ensure 
compliance with the United States-Canada Boundary Waters Treaty 
of 1909. From a technical standpoint, compliance is clearly 
attainable.
    Concern has also been raised about the state's effort at 
flood control at Devils Lake, which some suggest is a back-door 
approach to diverting Missouri River water to Devils Lake. This 
is not the case. The proposed Devils Lake outlet cannot be 
operated in any way to divert Missouri River water to Devils 
Lake. These two issues are totally separated physically, as 
well as by law. In addition, you will hear testimony from some 
folks and organizations from outside of our State, that purport 
to be testifying in our best interest. I want to assure you 
that the people of North Dakota that live and work in our state 
and understand our needs and desires, including wildlife and 
environmental organizations, support this project. We are all 
100 percent committed to meeting the quality and environmental 
standards and safeguards that Congress has had the foresight to 
put in place. Some of these folks will give you misguided 
information and numbers in an attempt to subvert this project. 
The Dakota Water Resources Act is written in such a way that 
there is no question that the project will fully comply with 
NEPA, the National Environmental Policy Act, as well as the 
Boundary Waters Treaty.
    The Dakota Water Resources Act also provides for the 
continuation of our efforts to manage and conserve wetlands as 
well as other essential natural resources. Operating since 
1986, the North Dakota Wetlands Trust has been successful in 
protecting wetland areas, and when expanded to a Natural 
Resources Trust will manage and protect other areas as well, 
such as tall grass prairies, woodlands and river bottoms. 
Overall, the Dakota Water Resources Act will greatly enhance 
our environment, and the State's natural resources.
    Everyone must cooperate to meet the challenge of providing 
safe, affordable and reliable water to our citizens and 
neighbors, and to address our water management needs. There are 
problems in all corners of our state, and there is agreement 
that cities, rural areas, agricultural interests, 
conservationists, and water managers can solve these problems 
by working together. The completion of the Garrison Diversion 
Project, through the Dakota Water Resources Act, is the best 
approach to solving our difficult water problems for current 
and future generations of North Dakotans.
    The Dakota Water Resources Act is a reasonable solution 
from the Federal perspective as well. As I stated earlier, we 
have reduced the acres of irrigation and although our total 
MR&I need is more than $600 million, we have agreed to provide 
$100 million upfront to projects and to also reimburse $200 
million for the delivery of water to the Red River. As you can 
see, the people of North Dakota are willing to provide for 50 
percent of the identified MR&I need.
    In 1944, when the Pick-Sloan Missouri River program was 
authorized, North Dakota agreed to give up 550,000 acres of 
valuable Missouri River bottomland for the creation of dams and 
reservoirs providing a multitude of benefits for our country. 
We, in turn, hoped to realize the benefits promised for our 
state. Passage of the Dakota Water Resources Act is necessary 
to help our state recover its losses from the development of 
the Pick-Sloan reservoirs. The Act will bring to a reasonable 
and final conclusion, the long and sometimes controversial 
history of Garrison.
    Finally, I am providing a December 1, 1997 resolution of 
the North Dakota State Water Commission, which I chair, 
supporting the authorization of the Dakota Water Resources Act. 
North Dakotans from cities, farms and businesses are committed 
to the Garrison Diversion Project. The project can never be 
what it once was planned to be in 1944, but it will continue to 
be the most important water resource management project in our 
state. I thank you for past support for the Garrison Diversion 
Project, and it is my hope you will continue your support in 
helping to secure a better, brighter, and bolder future for 
North Dakota through the Dakota Water Resources Act, and bring 
this 50 year project to a final closure.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] T1878.001
    
    Mr. Doolittle. Thank you.
    Our final witness at the beginning here will be 
Representative John Dorso, who is the majority leader in the 
State House of Representatives, who has also been a vigorous 
proponent and been in contact with the Committee on various 
occasions.
    Representative Dorso.

STATEMENT OF HON. JOHN DORSO, STATE REPRESENTATIVE AND MAJORITY 
      LEADER, NORTH DAKOTA STATE HOUSE OF REPRESENTATIVES

    Mr. Dorso. Thank you, Mr. Chairman, and members of the 
Committee. For the record, my name is John Dorso; I'm North 
Dakota House of Representatives majority leader.
    I really appreciate the opportunity to testify today in 
support of the Dakota Water Resources Act. As part of the 
leadership of the North Dakota Legislature, I am here to speak 
in behalf of the State legislature.
    Also with me today and sitting behind me is the State 
senate majority leader, Gary Nelson. Unfortunately, neither 
State Minority Leader Tim Mathern nor State House of 
Representatives Minority Leader Merle Boucher could be here 
today, although, as well as Senator Nelson, they asked me to 
stress the importance of the Dakota Water Resources Act to the 
State of North Dakota, and the total bipartisan support of the 
legislature, and the past and present willingness of the State 
to contribute to the implementation of the Garrison Diversion 
project.
    You have heard from our congressional delegation, as well 
as the Governor, on the importance of this Act to the State of 
North Dakota. Senator Nelson, Mathern, and I all live in the 
Red River Valley in eastern North Dakota. Our principal water 
supply, the Red River, has gone dry several times in the past. 
Also, the population of the Red River Valley has increased 
substantially where today more than 25 percent of our 
population resides within 15 miles of our eastern border with 
Minnesota. It is obvious that we need to develop the future 
water supply for that area. The Red River Valley is a 
significant and critical economic engine for North Dakota. 
Without a water supply for it, as would be reauthorized by this 
Act, our whole State will suffer.
    Every State legislative assembly since 1944 has gone on 
record by resolution supporting this project, and most recently 
in 1997, the framework for the Dakota Water Resource Act. That 
resolution has come completely by bipartisan support, urges the 
completion of the project, and recognizes the critical priority 
of the project for water management and development in North 
Dakota. Be it for municipal, rural, industrial, tribal, 
recreation, or fish and wildlife needs, the Dakota Water 
Resources Act is essential for economic sustainment and 
development of our State.
    Because of the importance to North Dakota, the State 
legislature has provided funding to show its commitment to the 
Garrison project. In the past, we have appropriated general 
funds for water projects, including the Garrison Diversion 
project, and we have also dedicated, by constitutional measure, 
a Resources Trust Fund for water development. Most recently in 
1997, we provided authority for bonding for the Garrison 
project as part of our comprehensive statewide water 
development program. The State legislature stands ready to 
address ways to meet future needs for funding the non-Federal 
share of the Dakota Water Resource Act as proposed.
    Mr. Chairman, I'm going to just digress a little bit from 
my written testimony here. I heard you mention, or maybe it was 
Representative DeFazio earlier, about Representative Pomeroy's 
persistence in this matter. The fact of the matter is, is I 
think any of us who live in North Dakota and are elected to be 
political leaders of our State, will continue to be persistent. 
I don't think we have any choice because of the nature of the 
changing economy of our State where we have tried, through 
bipartisan efforts, to diversify our economy, water has become 
so critical. We have no choice but to be here and continue to 
ask to get something done, because the Red River Valley cannot 
sustain itself without a sustainable, clean source of water.
    So I would appreciate your support and members of the 
Committee. We will continue to be here and work with you as 
much as we can to solve this problem for our people.
    Thank you.
    [The prepared statement of Mr. Dorso may be found at end of 
hearing.]
    Mr. Doolittle. Well, thank you.
    I just have a couple of questions. Maybe Mr. Dorso--let me 
just ask you, do you and your colleagues accept the present 
cost share that's proposed for the State in this bill? I mean 
you think you'd be able to meet that?
    Mr. Dorso. Well, Mr. Chairman, to be completely honest, I 
didn't really like the formula. I thought it should be quite a 
bit less, the State's share, based on what we've spent in the 
past. But, through the compromise process, I can assure you 
that the legislature will support this formula for funding, and 
hopefully we'll be able to do something in 1999 as we meet to 
move forward.
    Mr. Doolittle. I know you're not going to like the 
direction of this and, hopefully from your standpoint, it will 
be what it is in the bill, but does the State's legislature 
have the will--does the State have the capacity if it took even 
a higher share of local cost to accomplish this, do you think 
you could rise to that occasion?
    Mr. Dorso. Well, Mr. Chairman, I think that that's a fair 
question, but I think I have to ask you, if we have to do 
something about the Devil's Lake problem, and that's the 
outlet, and all of the costs there, I think in the short run, 
``No.'' I think we'd be very hard pressed with all of the 
problems that we have dealing with water in North Dakota. We 
also have the Grand Forks Dike issue that we have to face. I 
just don't know where, in the short term, we could come up with 
additional funds.
    Mr. Doolittle. Let me jump in and ask, I notice in this 
emergency supplemental that's moving through the Congress now, 
there's an amount of money for Devil's Lake. I don't know how 
that relates to--does that solve the problem for Devil's Lake 
or not?
    Mr. Dorso. Well, we have to have a State share for that, 
too, Mr. Chairman.
    Mr. Doolittle. So, you're saying that when you meet that 
State share, you think you wouldn't be able to go much above 
the 25 percent?
    Mr. Dorso. Mr. Chairman, in the short term, I don't believe 
we would be able to.
    Mr. Doolittle. Thank you.
    Governor, what has been the nature of your discussion with 
the Government of Manitoba and other governmental officials on 
the Garrison issue?
    Governor Edward Schafer. Well, I obviously have met several 
times with the premier, especially of Manitoba. We've had 
technical exchanges with some of their folks up there as well 
through our Water Commission, and there are ongoing 
discussions. Certainly, they understand our problems, are 
interested in our needs. I found it interesting that the 
premier, Premier Filman, from Manitoba, is an engineer. And he 
said, ``Normally, I look at, as an engineer, I look at ways at 
how you solve problems. If you have a barrier, how do you get 
through them?'' However, he told me directly that he is 
unalterably opposed this project. I think this project is 
emotional there. I think there are political considerations in 
Canada that just won't allow us to be able to deal with this. 
It just seems to me that even though that we can show it to be 
technically safe, that it will not have risk to the Canadians 
and to our friends and neighbors, the Manitobans. I just think 
that we will never get them to support this project, and it's 
going to be necessary for the U.S. State Department to just 
say, you know, ``You will comply with the Boundary Water 
Treaties Act.'' We're committed to it. I don't think we're ever 
going to convince them that we can do it, but I guarantee that 
our State will make sure we meet the requirements at the border 
of the Boundary Water Treaties Act.
    If I might go back to your previous question, as far as 
what we've been able to do, the State has already, in the 
current projects, committed funds in the range from 25 to 35 
percent. I mean we're putting our share of dollars in as 
needed, but as Representative Dorso mentioned, we have such 
huge needs for water projects in our State, including the flood 
problems in the Red River Valley. I know it seems strange to 
talk about flood problems----
    [Laughter.]
    [continuing] in for Red River Valley when we're talking 
about moving water over there, but those are the up and down 
cycles of water, and certainly the needs are there. And our 
State has shown the willingness to contribute our fair share.
    Mr. Doolittle. Coming from California, I can fully 
appreciate how you can be faced with both drought and flooding 
in the same year.
    I'd also like to recognize the presence--acknowledge the 
presence of the Senate majority leader, so we have everybody; 
that's impressive. Welcome.
    Well, Mr. Farr has joined us. Did you wish to address 
questions to the witnesses?
    Mr. Farr. Thank you very much, Mr. Chairman. I appreciate 
you having this hearing.
    It's ironic that two Californians, both from northern 
California who have all the water, are sitting here. Usually 
we're battling with our colleagues in southern California who 
want our water.
    [Laughter.]
    So we're very sympathetic to the needs. As I just read the 
quick summary of it--and I want to thank Congressman Pomeroy 
for coming into my office and briefing me on this issue--I was 
very sympathetic to your needs.
    But looking over here, is there really--is the cost of 
this, as it adds up to be about $725 million? Is the analysis 
here--the overview, is that the additional $300 million for the 
municipal, rural, and industrial water for the MR&I under the 
1986 reformulation, an additional $200 million for the tribal 
MR&I, authorization of $200 million to meet the Red Valley 
water needs, and adding $25 million to the existing Wetlands 
Trust for broadened purposes, and then some offsets, reducing 
the authorized irrigation from 130,000 acres to 70,000 acres, 
and provide protection for the Western Area Power 
Administration's rate payers. What is the bottom line need?
    Mr. Pomeroy. Mr. Chairman, if I might.
    Mr. Farr, it's about a $770 million tag and the three 
principal components of it. Three hundred million dollars State 
MR&I, the conversion of this project from primarily an 
irrigation project to primarily a municipal water supply 
project, and that's the $300 million figure. All right, in 
addition, as was recognized at the time of the 1986 
reauthorization, the water needs on our Indian reservations are 
enormous, and once more the equity claim in particular of two 
of the four tribes that have literally been split apart by this 
reservoir are very significant. It's $200 million to the Native 
American MR&I needs. Two hundred million dollars as the third 
central feature of this project, Congressman Farr, relating to 
the transport of water from the reservoir in the west to the 
population in the east.
    And so those are the three most significant features of 
this project. And then there are some other issues; the 
Wetlands Trust and the Four Bears Bridge allowing this 
particular tribe at Fort Berthold to have a workable 
transportation artery over the reservoir itself.
    Mr. Farr. Can you segment that? Is that where you can get 
$200 million for the project for the pipeline and then work on 
the formulas in subsequent years, because those don't all come 
due at the same time, or do they?
    Mr. Pomeroy. Well, the $200 million is reimbursable on that 
water, west to east, so there would be an income stream coming 
back repaying that obligation to the Federal Government.
    Mr. Farr. OK. Well, I'll be on the Appropriations Committee 
next year, so I'll be looking forward to working with you.
    Mr. Pomeroy. You know, as was said, actually you missed our 
presentations, and this is a big price tag, but we have put 
this project together. It's a comprehensive project for our 
State's water needs and represents the quo and the quid pro quo 
the State entered into at the time we got flooded with a 
reservoir that's literally the size of the State of Rhode 
Island.
    We are the host to the flood, but we have yet to get the 
optimal plan in place that gives us a fair use of the water 
from that reservoir. And so, that's why this is as it is, and 
we haven't asked the Federal Government, ``Well, fund this 
little leg; fund that little leg.'' We put it together in a 
comprehensive package that would represent the culminating of 
the Federal Government's response to North Dakota for the 
building of the dam on the Missouri River and the flood that 
resulted in Lake Sakakawea.
    Mr. Farr. It's too bad you couldn't have that pipeline 
reach Los Angeles. You'd sell it in a quick minute.
    [Laughter.]
    Mr. Doolittle. I'd like to thank our witnesses' 
extraordinary appearance by the officials of North Dakota. We 
certainly know you are committed to this project, and we thank 
you for taking the time to be here.
    We may have additional questions we'll wish to address, and 
we'll do that in writing, and we'll hold the record open for 
your responses.
    And with that, we thank you for being here. We'll excuse--
--
    Mr. Pomeroy. Mr. Chairman, as this panel breaks up, I would 
have two requests for the record. We held a couple of hearings 
in the State of North Dakota, one in Fargo and one in Minot, to 
illicit responses from and to allow the general public in the 
State to show what they thought of this particular plan. We 
would like to introduce the testimony from those two hearings, 
one held in Fargo on February 14, 1998, one held in Minot, 
August 11, 1998, into the record.
    Mr. Doolittle. We'd be pleased to, without objection, 
include that in the record.
    [The information referred to may be found at end of 
hearing.]
    Mr. Pomeroy. Thank you, Mr. Chairman. And finally, we'd 
like to add to the records a letter from Robert Griffin, 
Brigadier General U.S. Army, division engineer with the Army 
Corps of Engineers, basically assessing the impact on 
downstream flows from the proposed project.
    Mr. Doolittle. And we'll include that as well, without 
objection.
    [The information referred to may be found at end of 
hearing.]
    Mr. Pomeroy. Thank you, Mr. Chairman.
    Mr. Farr. And I think for the record, I've--and I'm still 
new to this place--but I have never seen a more distinguished 
panel in the entire political leadership; House, Senate, and 
Governor are sitting at one table from any one State. I don't 
think any other State could do that, and I compliment you on 
your ability to bring it all together.
    Mr. Pomeroy. Thank you.
    Governor Edward Schafer. Thank you.
    Mr. Doolittle. As the witnesses are leaving, let me invite 
the members of panel one to come forward.
    Any objections to Mr. Pomeroy joining us at the desk? Being 
none, he is invited.
    Let me ask, please, the members of panel one if you will 
rise and raise your right hand.
    [Witnesses sworn.]
    Mr. Doolittle. Let the record reflect that each answered in 
the affirmative. We appreciate your being here, and we will 
begin with our Commissioner of the Bureau of Reclamation, Mr. 
Martinez.

   STATEMENT OF ELUID MARTINEZ, COMMISSIONER, U.S. BUREAU OF 
      RECLAMATION, DEPARTMENT OF INTERIOR, WASHINGTON, DC

    Mr. Martinez. Mr. Chairman, members of the Subcommittee, I 
have submitted by written testimony for the record, and if 
appropriate, I'd like to summarize my statement.
    I'd like to start off by extending my appreciation to the 
North Dakota delegation, the Governor's office, State 
legislative leaders, their State engineer, and the Conservancy 
district with working with reclamation over the past year to 
try to address some of the outstanding issues and the concerns 
of the administration.
    While we have not been able to adequately address all those 
issues, we are a lot closer today than we were 6 months ago in 
trying to resolve the administration's concerns with this, 
including a meeting I had last week with the delegation. I'm 
optimistic that additional progress can and will be made.
    There is still some concerns that need to be addressed, and 
if I may, I'll divert from my prepared statement. We have the 
issue of the concern by Canada about water quality. I view that 
as a technical issue and a political issue. I think from a 
technical prospective, these issues can be addressed.
    The other issue that my testimony addresses is a question 
of tieing the Wetlands Trust funding to development or to the 
progress of development on the Red River Valley initiative. The 
administration believes they should be decoupled and stand on 
their own merits.
    I'd like to, if at all possible, try to help you, Mr. 
Chairman, and the Committee with some of the questions that you 
raised and try to place this in some kind of a perspective. And 
my figures might be a little bit off, and if so, I'll correct 
the record. But it's my understanding that in 1965, under 
Public Law 98-108, where Congress sort of adopted or fashioned 
a project that involved 250,000 acres of irrigated land. It was 
at that process at that time that the amount of money necessary 
to construct that project was about $2.2 billion, 1965.
    In 1986, by the time this project had sort of been 
reformulated, Public Law 99-294, was looking at a total project 
cost of about $1.5 billion with no indexing involved. In other 
words, no escalation for increases in price of construction. 
And, to date, out of that $1.5 billion, $800 million has been 
authorized, and the Bureau of Reclamation has, through this 
year, gotten appropriations of about $614 million.
    The current proposal before you now, as proposed by this 
legislation, is about $1.6 billion and does not include index 
cost. In other words, that price will escalate based on the 
time it takes to construct and the indexing of those costs, so 
I think from all----
    Mr. Doolittle. Commissioner, just to clarify, you said that 
it will escalate?
    Mr. Martinez. Yes. The $1.6 does not include indexing 
costs.
    Mr. Doolittle. Right.
    Mr. Martinez. So it would escalate. So I think the argument 
could be made that it's sort of a wash in terms of the total 
number of Federal dollars that were contemplated to be 
committed sometime in 1986 versus the current proposal.
    Within this $1.6 billion that the project sponsors are 
seeking, is an increase of about a billion dollars to fund, in 
essence, a $200 million part of the project for bringing water 
into the Red River Valley. Now as I understand, this would be 
reimbursable with interest, paid back to the Federal Treasury, 
but it is my understanding that the payments would not occur 
until such time as the project would be put in operation.
    There's a $300 million increase in the non-Indian MR&I, or 
municipal, rural, and industrial portion of this project. That 
$300 million represents a 75 percent cost share of the Federal 
Government of what I assume to be a $400 million project. The 
administration has concerns about the 75 percent cost share. 
It's longstanding policy at the Bureau of Reclamation that 
these kind of projects, that the project sponsor fund 100 
percent, reimbursable with interest, with these kind of 
projects.
    Now I fully understand that the Committee is aware that 
there is, within the Garrison project right now, $200 million 
which has been authorized for similar projects that are being 
funded with a 75 percent cost share by the Federal Government.
    Mr. Chairman, if I may, I might want to exceed----
    Mr. Doolittle. You just take the time you need, Mr. 
Martinez.
    Mr. Martinez. OK.
    So, and I think the administration is committed to that 
$200 million, so we're talking about an additional $300 
million. And the question is, whether that should be a 75 
percent Federal cost share to the extent that that cost share 
reduced that $300 million requirement would come down, bringing 
down the total cost of the project.
    There's a $200 million portion for Indian municipal, rural, 
and industrial water supply. And I understand that would only 
meet 80 percent of the Indian needs in the State. The 
administration supports that. I believe that the Indian 
community needs to have their needs addressed. But we are 
concerned about the operation and maintenance, perpetual costs 
associated with that project.
    The Bureau of Reclamation, as Commissioner, I'm concerned 
about the $40 million in this proposal for the Four Bears 
Bridge. Now I understand the need, and I don't question the 
need, for the bridge, but given the fact that the Bureau of 
Reclamation's budget has been decreased and continues to be in 
a decreasing mode for the last few years, I would find it 
difficult to be able to seek the appropriation for $40 million 
for a bridge when I have competing needs, as you know, toward 
reclamation efforts westwide.
    So I think from my perspective, Mr. Chairman, assuming you 
get past the water quality issue with Canada and some of the 
environmental concerns, it's really a question of funding and 
where the money is going to come from if Congress sees fit to 
move this project forward.
    We will continue to work with the Committee and the 
project's sponsors to try to find ways to reduce the Federal 
expenditure on this project by reductions in the Federal OM&R 
expenses as well as the total project outlay.
    Mr. Chairman, that concludes my comments.
    [The prepared statement of Mr. Martinez may be found at end 
of hearing.]
    Mr. Doolittle. Thank you.
    Our next witness will be the Honorable Bruce Furness, Mayor 
of the city of Fargo, in North Dakota.
    Mayor Furness.

    STATEMENT HON. BRUCE FURNESS, MAYOR, FARGO, NORTH DAKOTA

    Mayor Furness. Chairman Doolittle, Congressman Farr, 
Congressman Pomeroy, thank you for the opportunity to be with 
you today.
    I do represent the city of Fargo, but, in addition, today 
I'm representing the Eastern Dakota Water Users group and the 
North Dakota League of Cities, which just this past Saturday, 
the North Dakota League of Cities, 361 cities, approved a 
resolution of support for the Dakota Water Resources Act which 
I'd like to have entered into the record if I may.
    Mr. Doolittle. Without objection, so ordered.
    [The information referred to may be found at end of 
hearing.]
    Mayor Furness. Fargo is located right on the edge of North 
Dakota on the Red River. It is the largest city in North Dakota 
and with Moorhead, Minnesota, right across the river, 
represents about 165,000 people in population. We have enjoyed 
a growth rate of about 2 percent over the last 15 to 20 years 
and see that continuing in the near future. In fact, we think 
it's actually accelerating at this point. This is one of the 
reasons why we're concerned about the quantity of water 
available. And from a statewide prospective, nearly 40 percent 
of the State's population live in the six counties that border 
the Red River.
    I am going to paraphrase my report, but I would like to 
read two parts of this. And the first is a summary of the 
problem characterized by a report from our consultant, Black & 
Veatch, when we designed our new water plant. They say that, 
``The city of Fargo has rights to two water sources for 
treatment and subsequent supply to its citizens for potable 
use: the Red River of the North and the Cheyenne River. 
Unfortunately, both sources are of poor quality and, even taken 
together, they do not offer a reliable quantity of water to 
meet Fargo's present and certainly the future water needs. The 
diversion of Missouri River water to Fargo by way of Garrison 
Dam would provide a long-term lifeline for the community.'' 
That's their conclusion.
    We are concerned about the quantity of water. You've seen 
the pictures of some of the drought situations, and I want to 
also describe to you a commentary, I guess, by former Governor 
William Guy of Fargo. ``If you were to look at the Red River 
near the water plant in the 1930's, you would wonder how they 
ever made the water fit to drink. The searing hot drought hung 
over heavily the Upper Midwest through the entire decade of the 
1930's. The Geological Survey records say that the murky Red 
River ceased to flow at Fargo for a period in every year of 
that decade. The driest year was 1936 when the Red River 
stopped flowing for 166 continuous days. Cars were not washed. 
Lawns went unsprinkled. There was talk of returning the Fargo 
Sewage Plant discharge to the river above the city water intake 
for reuse. Moorhead, across the river, was drawing all of its 
water from wells east of the city, and their tap water tasted 
good. With a population of around 25,000 at that time, Fargo's 
water situation was desperate. Today--'' and I'm still quoting 
Governor Guy--``both Fargo and Moorhead draw their water from 
the Red River, while their combined population has increased 
five fold from the dry 1930's. Industries not even dreamed of 
65 years ago now use copious amounts of Red River water. It is 
easy to understand why the Garrison Diversion project to bring 
Missouri River water east to the Red River Valley has been on 
the minds of thinking people for more than 50 years.'' and 
that's the end of his quote.
    We are concerned about low flow quantities as well. There 
has been a study performed in the past that suggested that a 
seven cubic feet per second minimum flow in the Red River is 
sufficient, and that is totally unacceptable. You won't be able 
to see this chart----
    [Laughter.]
    I can hardly see the chart from here. So I'll just have to 
describe it to you. But it is a chart; I think it was in the 
packet of information that was sent to you. It's a chart of 
annual 7-day duration low flows in the Red River from 1900 to 
the present time. And what it shows is--what it takes is 7-day 
periods, 1-week periods, and finds the lowest of those for the 
given year, and that's what is recorded on the chart.
    So you can see that there's a green line toward the bottom 
of that chart. That represents the current capacity or the 
current average daily use of our water plant in Fargo, 12 
million gallons a day. And when the blue line goes below that 
green line, that means there's insufficient water to handle 
that average usage of water. So it doesn't happen too often. 
You can see in the 1930's that there is no blue line there. 
That's when we had that zero flow. You can see in the 1970's 
there was some, but of recent years it has been fairly good.
    The next line above that is a black line and it represents 
the capacity of our new water plant at 30 million gallons per 
day, which we just invested $60 million in, and the line above 
that, the kind of dark blue line, horizontal line, represents 
our future capacity. The plant was designed to be expanded to 
45 million gallons per day. If you look at that line, the 45 
million gallon line across, and then look below that for all of 
the blue trend lines, those would be situations where in the 
past there would not have been enough water to run that plant 
at capacity. So we think we didn't enter into that investment 
of $60 million lightly. We have that capacity now, and we'd 
like to have the water available for that as well.
    The obvious source of that kind of water is the Missouri 
River water; 96 percent of the usable surface water in North 
Dakota is in the Missouri River, and it makes sense, we think, 
to transport that east. And as was pointed out before, the 100 
cubic feet per second that would go potentially to eastern 
North Dakota is about 1 percent of the entire water flowing 
through the State in the Missouri River.
    And I had a graphic description which didn't get here, but 
if you were to take a pail of water that represents the water 
in the Missouri River going through Garrison and down out of 
the State, the amount that would be diverted into the eastern 
part of the State would be represented by just a single thimble 
of water.
    We are also concerned about quality, and I'll let the 
written report deal with that. And we are also concerned about 
conservation, which we are doing in our community now and will 
continue to do and enhance that.
    The last point I would like to make is my last paragraph in 
the written statement. Although impossible to predict with any 
certainty, it is believed that the Red River Valley has 
adequate water supply for the next 10 to 15 years. Should 
drought conditions occur, however, that estimate may be reduced 
3 to 5 years. Consequently, little time remains to resolve 
these concerns. Activity must begin now to address the many 
issues relating to water quantity and quality. And I urge your 
favorable consideration of this critical legislation.
    Thank you.
    [The prepared statement of Mr. Furness may be found at end 
of hearing.]
    Mr. Doolittle. Thank you.
    Now our witness will be Mr. Russell D. Mason, Sr., chairman 
of Three Affiliated Tribes, in North Dakota.
    Mr. Mason.

  STATEMENT OF RUSSELL MASON, SR., CHAIRMAN, THREE AFFILIATED 
                      TRIBES, NORTH DAKOTA

    Mr. Mason. Thank you, Mr. Chairman, and members of the 
Subcommittee, Congressman Farr, and our good friend Congressman 
Earl Pomeroy. I want to thank you for the opportunity to 
present testimony today concerning H.R. 3012, the Dakota Water 
Resources Act.
    I am Chairman Russell Mason of the Three Affiliated Tribes 
of the Bandan, Hidatsa, and Arikara Nations. Also, accompanying 
me is Chairwoman Mira Pearson of the Spirit Lake Nation, who is 
sitting in the audience here.
    I'd like to share with you a little bit about the Three 
Affiliated Tribes. As you may recall, the Three Affiliated 
Tribes greeted Lewis and Clark in the early 19th century as 
they made their expedition up the Missouri River and over to 
the Pacific coast. And if it wasn't for the Three Affiliated 
Tribes, I don't think he would have survived his first winter. 
And also, I don't know if he would have been able to find his 
way if it hadn't been for a guide that was one of our women 
from the tribes up there, and that was Sakakawea who provided a 
guide as well as an interpreter.
    But also, in sitting here and listening to the testimony 
and having testified at a number of hearings and on the Senate 
side, the Three Affiliated Tribes were one of the tribes that 
signed the 1851 Fort Laramie Treaty, at the time when we were 
given over 11 million acres.
    Since that time, lands were taken by Executive Order, by 
congressional actions, and the last land grab--and if you were 
to look at the map of the Garrison Reservoir--is that the Three 
Affiliated Tribes gave the most and sacrificed the most. About 
69 percent of the land needed for that dam belonged to the 
Three Affiliated Tribes. We occupied that valley; 99 percent of 
our people lived in that valley, and I grew up there. I can 
never go back, and I can never say, ``This is where I was 
born.'' like any one of you can go back wherever you were born.
    It caused social disorganization that we're still 
recovering from. It disorganized our clanship systems, our 
medicine societies, and caused havoc. It took some of our most 
fertile lands from us.
    What I want to say that, today--and I think that 
Congressman Farr identifies with this--we're one of the few 
States that has a solid working relationship with not only our 
congressional delegation, but also with our Governor, with our 
State legislatures, and our friendship goes across partisan 
lines. And I think many States could follow this example.
    I want to say, clearly, that the Three Affiliated Tribes 
strongly supports the Dakota Water Resources Act and urges its 
immediate passage. And, I would like to show--everyone has 
their water bottles here, but I brought mine, too. But this is 
the water that we get from most of the wells in North Dakota. 
Someone just brought this to me. They said this was from the 
Committee coffee shop----
    [Laughter.]
    [continuing] which really isn't very far off from these 
other colors. In fact, my mother is 86 years old, and she lives 
out in the country. Her water was darker than this. We shut her 
well down, otherwise, I would have brought a sample. We have to 
haul her water. And so, without laboring--and I think that my 
good friends have given all of the information that is needed--
is that we need this.
    But also we were promised many things in the same manner 
that we were promised many things in our treaties. We were 
promised the replacement of a hospital; we have never received 
that.
    We were promised a bridge, and that bridge that spans the 
Missouri River that we were talking about, Four Bears Bridge, 
is not an Indian bridge; it's a North Dakota bridge, and it has 
a lot to do with the commerce in western North Dakota. You have 
farmers and rangers that live on each side of the river who 
farm on the other side of the river. That needs to be replaced. 
Those spans for those bridges were taken from bridges that were 
constructed in the 1930's, and it is one of the most dangerous 
bridges in the country. And as Senator Conrad had mentioned is 
that one only needs to drive, not only on a Saturday night but 
anytime of the day, to see how dangerous that bridge is.
    I would have several remaining issues that I hope this 
Committee could address, at a minimum in the final committee 
report of H.R. 3012.
    One, is that we would ask that the language be in the final 
committee report recognizing the reserved water rights of the 
Three Affiliated Tribes to water from the Missouri River and 
its tributaries that are within the Fort Berthold known as 
Winters doctrine rights.
    Two, we would also request that authority be provided for 
Federal funding of additional irrigation sites for the Three 
Affiliated Tribes, should they prove feasible other than those 
already authorized.
    Finally, we would ask that the final Committee report 
accompany the bill include language that states that this bill 
fulfills some of the goals set forth in the Garrison Unit Joint 
Tribal Advisory Committee report, dated May 23, 1986. I have 
attached a copy of that report to my original copy of my 
written testimony and would ask that this be included in the 
record of this hearing.
    As I mentioned, we were promised many things when we lost 
our homelands almost 50 years ago. And as Senator Dorgan said 
on the floor of the Senate when the Senate version of this bill 
was introduced, ``We expect the Federal Government this time to 
keep their promise.''
    Thank you very much.
    [The prepared statement of Mr. Mason may be found at end of 
hearing.]
    Mr. Doolittle. Thank you.
    Our next witness will be Ms. Michelle McCormack, of 
Southwest Water Authority, in North Dakota.
    Ms. McCormack.

  STATEMENT OF MICHELLE McCORMACK, SOUTHWEST WATER AUTHORITY, 
                          NORTH DAKOTA

    Ms. McCormack. Mr. Chairman, members of the Committee, my 
name is Michelle McCormack, and I have been a resident of 
southwest North Dakota for the past 17 years.
    I am one of the many people in North Dakota that has 
benefited from the partially completed Southwest Pipeline 
project. I support the passage of legislation on the completion 
of Garrison Diversion because I know firsthand, the social, 
economic, and personal hardships of having poor water.
    My first home in southwest North Dakota had clear water, 
but it was ``hard enough to walk on'' according to the water 
tester. It was high in sodium and high in iron. It left rust 
stains on our clothes and it left stains and deposits on 
fixtures. It was so invasive that lifetime faucets had to be 
replaced every 7 years. Water pipes and shower heads filled up 
with hard lime deposits, so the water pressure was reduced, and 
eventually plumbing would leak and have to be replaced.
    My husband and I built a house 10 years ago on a building 
site with an existing well. The well water was light brown, the 
color of tea, and it was soft, but it was very limited. When 
the cattle were drinking there was no water in the house.
    That well began to fail after a few years. Because of the 
soils in our area, wells often fail, filling in with a light 
silt. We added filters, attempted to clear the water through 
the use of settling tanks, and finally we had to accept the 
fact that we needed a new well. At a cost of $12 a foot, we dug 
until we had spent over $6,000. And we found water--abundant, 
soft, potable, safe for cattle, but dark brown. We had the 
choice of digging deeper, hoping to find better water; however, 
there was no guarantee that it would be there. Or we could live 
with the brown water that we had and wait for the pipeline to 
come.
    That brown water stained everything. One washing would turn 
a white dishtowel grey. Even dark clothes were dulled and 
dingy. My children learned to dry their hair after a shower; if 
they did not, their damp hair would stain the collars of their 
white t-shirt.
    The picture you see here of the baby in the bathtub is my 
son. When he was five, he asked me if there was a rule that 
only motels and grandmas got to have white sheets. We bought 
dark towels, dark linens, and very little white clothing. We 
had to haul all our white laundry to the nearest laundromat, a 
30-mile trip one way.
    It took full strength toilet bowl cleaner to remove dried 
stains from sinks, showers, and fixtures. We distilled all the 
water we used for cooking and drinking and cleaning. The water 
had tested safe for human use, but boiling pasta or potatoes in 
that water was unappetizing at best. Our distiller ran 24 hours 
a day.
    It wasn't pretty and we endured it because we had to. Our 
family and friends hated to visit or stay overnight, and the 
kids' friends didn't like to see it. So there was a social cost 
and a high economic cost to distill, and haul laundry, and a 
long-term cost to the house plumbing and fixtures.
    Our friends and our neighbors, they all have stories like 
this. They tell stories of faucets that erode away every 5 
years; garbage disposal blades eaten by the water; stains, 
costs, frustrations, and hard work over a resource that most 
Americans take as a given part of their life.
    I've been lucky; I am one of the people who benefited 
greatly from the Southwest Pipeline project. There are others.
    Don and Sarah Froehlich from Belfield were about to sell 
their dairy cattle operation before the pipeline arrived at 
their farm. High levels of sulfate contaminated their water 
causing Don to be sick with flu-like symptoms for over a month. 
In addition, the water caused a bad taste in the milk and 
cheese their cattle produced.
    Douglas Candee from Dickinson has expanded his buffalo herd 
to over 200 head which he attributes to the abundant, 
dependable water he receives from the Southwest Pipeline 
project.
    Joe and Mag Kathrein, of New England, have struggled 
constantly with water in the past, hauling water twice a day to 
their cattle herd 20 miles round trip. Now they enjoy quality 
water in abundance.
    Bernice Jahner, of Hettinger, appreciates the health 
benefits she receives from Southwest Pipeline water. For the 
past 5 years, she has been doctoring for ulcers on her legs, 
taking whirlpool baths twice a day. After using pipeline water 
for just 1 month, her doctors were amazed at her improvement.
    The North Dakota State Water Commission has currently 
identified 524 projects that are necessary for water 
development in the State with an approximate cost of $1.8 
billion. One hundred twenty-four of these projects are targeted 
specifically for the next biennium, at a total cost of $362 
million. Several large projects, such as flood control for 
Grand Forks and Devil's Lake and the Maple River Dam are 
included in this cost.
    I can personally say the cost of a pipeline water bill 
every month is a bargain, compared to what we paid to make our 
water usable. Pipeline water is better for our health, 
affordable, less work, and a real blessing to all of us in an 
area where wells are not reliable.
    I have some supporting documents that I ask be made part of 
the record.
    Thank you for the opportunity to share my experience.
    [The prepared statement of Ms. McCormack may be found at 
end of hearing.]
    Mr. Doolittle. Thank you, and the documents that you and I 
think Mr. Mason referred to will be admitted, without 
objection.
    [The information referred may be found at end of hearing.]
    Mr. Doolittle. Our final witness in this panel is a former 
staff director of this Subcommittee in a previous life and is 
the former Commissioner of the Bureau of Reclamation, and now 
is senior vice-president for Public Policy of the National 
Audubon Society, Mr. Dan Beard.
    Mr. Beard, welcome.

 STATEMENT OF DAN BEARD, SENIOR VICE PRESIDENT, PUBLIC POLICY, 
            NATIONAL AUDUBON SOCIETY, WASHINGTON, DC

    Mr. Beard. Thank you, Mr. Chairman. It's nice to be back.
    I appreciate the opportunity to testify before the 
Subcommittee today. For the reasons I'll detail below, we 
strongly oppose enactment of the Dakota Water Resources Act.
    We appreciate all the time and hard work Congressman 
Pomeroy has put into this proposal. We also recognize it 
reflects a consensus among a variety of interests in North 
Dakota. And while we appreciate all that work, we still oppose 
the legislation.
    Mr. Chairman, the Garrison Diversion Unit water project has 
been the subject of controversy for 50 years. It has generated 
countless lawsuits, legislative battles, diplomatic 
negotiations, interstate controversies, and environmental 
confrontations. Even worse, the taxpayers have spent about $600 
million on the project facilities, many of which don't fulfill 
their intended purpose.
    In our view, H.R. 3012 would not end the controversies 
surrounding the Garrison project and water development in North 
Dakota; this legislation would just continue old controversies 
and create new ones.
    Mr. Chairman, rather than go through the bill line-by-line 
and detail our objections, I would prefer to focus on several 
important reasons why we believe this legislation is deficient.
    We believe the proposal is premised on a faulty assumption. 
As you've heard today, the major premise for this legislation 
seems to be that a debt is owed North Dakota as a result of a 
construction of the mainstem Pick-Sloan reservoirs.
    Rather than revisit the historical accuracy of this 
supposed commitment, let me point out that the Congress in 1986 
expressly said that whatever commitment may have existed was 
fulfilled by the 1986 legislation. Subsequent Congresses and 
administration, both Democratic and Republican, with the 
support of the environmental community, have met this 
commitment by making available over $400 million to the State 
of North Dakota for the construction of rural water systems, 
Indian water projects, and other project facilities. Over 
80,000 North Dakotans have directly benefited from these 
expenditures, as you've heard today with things like the 
projects like the Southwest Pipeline. In addition, according to 
data provided by the Corps of Engineers, the State also 
receives about $130 million in benefits each year from the 
mainstem Missouri River facilities.
    Thus, the State has received well over a billion dollars in 
benefits and direct Federal appropriations since 1986. In our 
view, the Dakota Water Resources Act fails to present a 
forceful and compelling case why the taxpayers should make 
available an additional $900 million in Federal funds and debt 
forgiveness.
    The Congress should know the facilities and features it is 
authorizing. We believe it is absolutely essential that the 
Congress only authorize construction of features that have been 
thoroughly considered and planned. As currently drafted the 
legislation directs the Secretary to build facilities that are 
not clearly described or known, may not be needed, and perhaps 
cannot be used. The Federal Government should take the lead for 
implementing any legislation.
    There are interstate and international issues and a host of 
environmental challenges surrounding this project. We don't 
believe it is appropriate for the Federal Government to cede 
authority for addressing these issues to the State of North 
Dakota, as it would in several sections of the bill.
    There are several sections of the bill that would provide 
for forgiveness or changing the rules for reimbursable 
expenditures made in the past. We don't believe inclusion of 
these provisions is appropriate.
    The legislation would provides that the State will play an 
integral part in the planning and design of facilities, and in 
the preparation of an environmental impact statement on Red 
River Valley water supply facilities. Given the interstate and 
international problems surrounding this issue, we believe it 
would be inappropriate to give the State this authority.
    The final problem we would like to raise is the opposition 
of the Government of Canada to importing water from the 
Missouri River into the Red River drainage. In 1977, the 
International Joint Commission recommended the construction of 
those portions of the Garrison project delivering water from 
the Missouri River into streams that ultimately drain into 
Canada not be built, due to the potential for violation of the 
Boundary Waters Treaty of 1909. Twenty-one years later, there 
still is no assurance that project facilities that will be 
completed and operated under this legislation would not violate 
the Boundary Waters Treaty.
    Now, as we said, we appreciate the opportunity to detail 
our objections to the legislation. Let me outline a suggested 
list of elements that we believe could lead to a positive 
resolution of the issues surrounding this controversy.
    First, we oppose the legislation to complete the Garrison 
Unit because the project does not represent responsible, 
economically sound, or environmentally acceptable water 
resource development.
    Second, if legitimate need is demonstrated for importing 
Missouri River water to the Red River Valley for MR&I use, we 
support formal consultations with Canada and discussion with 
Minnesota to determine if an acceptable means can be developed 
to deliver treated Missouri River water by pipeline directly to 
the targeted cities.
    Third, we support projects to meet tribal MR&I needs using 
cost-effective delivery systems.
    Fourth, we support irrigation development on tribal lands 
adjacent to the Missouri River using water directly from the 
river.
    Fifth, we support other MR&I water projects in North Dakota 
utilizing local water supplies or pipelines where they are 
economically feasible and environmentally acceptable.
    Sixth, we oppose the expenditure of additional Federal 
funds for the construction, operation, or maintenance of the 
Garrison Diversion Unit principal supply works, which have been 
authorized previously.
    And finally, the Garrison Diversion Conservancy District is 
the entity primarily responsible for insisting that 
construction proceed on the principal supply works. They have 
done so before major problems associated with the project were 
resolved and despite the objections of landowners and other 
groups. Therefore, the costs associated with abandonment of the 
principal supply works should be borne by the C-District rather 
than by the American taxpayer.
    I appreciate the opportunity to be here today and would be 
happy to answer any questions.
    [The prepared statement of Mr. Beard may be found at end of 
hearing.]
    Mr. Doolittle. Thank you.
    I realize that we have--it does seem strange to me that 
with all the planning of the expenses of these projects that we 
could build them, and then it just turns out they just don't 
work. I know that's happened various times, and apparently it's 
happened here.
    I personally think all of the upset about the interbasin 
business is a little exaggerated. We have enormous transfer of 
water that crosses basins in the State of California and 
doesn't seem to be causing too many problems in that regard.
    I would like to ask the Commissioner, it's obvious to me 
you have a real problem with water like that in the picture, 
but we do have a shrinking budget for the Bureau of 
Reclamation, and I guess I'd ask our Commissioner if you'd tell 
us how this project ranks with the other authorized projects 
that you have. In your mind, how does it fit in?
    Mr. Martinez. My perspective of this particular project 
merits the same consideration as a lot of other projects. And 
from my perspective, the question is not the authorization, the 
question is the funding. And that's a very difficult decision 
when we look at the projects that we have to fund under the 
Bureau of Reclamation budget.
    And when I'm looking at costs associated with dam safety 
and operation and maintenance, fixing our facilities, I need to 
place emphasis on those versus requesting from the Congress 
appropriations for new ongoing projects.
    As I stated, there's no question in my mind, once you get 
past the environmental issue and the water quality problem with 
Canada, that it really centers on economics. And I'm telling 
you the way I see it.
    Mr. Doolittle. Well, Commissioner, I don't expect you to be 
an expert on the economics of North Dakota, but is there from 
what you do know about the situation, is there a better way 
they could solve their problem than the way that's being 
proposed in this legislation? I mean, do you see any 
suggestions that you could offer them as to how to go about 
this?
    Mr. Martinez. With respect to the water supply needs in the 
Red River Valley, it's my understanding that studies are taking 
place to determine an assessment as to how those needs can or 
will be met and, you know, to the extent that that's 
incorporated in the legislation, I think we'll probably look at 
the best and most feasible approach.
    But with respect to the other issues dealing with the 
question of the $300 million additional dollars that the State 
is requested for MR&I needs, again, to the extent that the 
State would fund that at a 100 percent, like what we're 
requesting, it would reduce the total project cost by $300 
million. Or, if the Congress decides on another appropriate 
cost share, that would reduce that cost.
    I have no reason to question that the studies will reflect 
probably the best engineering and least costly way to address 
these problems, but they're still going to be very, very 
expensive.
    Mr. Doolittle. It was your testimony, wasn't it, that 
there's already on the books of what an authorization for--
maybe it was an appropriation, but I think it said 
authorization--for $200 million worth of rural water supply 
already in the Garrison?
    Mr. Martinez. That's my understanding; yes, and that's what 
is being sought is an additional $300 million for the non-
Indian component.
    Mr. Doolittle. To your knowledge, are those the main 
exceptions to the policy that the Federal Government doesn't 
provide money for rural water supply, or do we have other 
examples as well?
    Mr. Martinez. Well, I think what I tried to express is 
the--as the Senator addressed as the issues--the main issues 
are the question of who pays for the appropriate share of O&M 
costs.
    Mr. Doolittle. In this case, the O&M costs would be O&M for 
that pipeline and all the related facilities.
    Mr. Martinez. The O&M costs associated with the Indian part 
of the project, the O&M costs associated with what has already 
been constructed, and of course the O&M of the future 
facilities.
    Mr. Doolittle. Well now let me ask for the Indian part of 
it, does the Federal Government normally fund that, or how does 
that get handled?
    Mr. Martinez. I'd have to get back to you, but it is my 
understanding it has been dealt with differently in different 
projects.
    Mr. Doolittle. OK. That's the answer I thought you were 
going to give.
    [Laughter.]
    Mr. Martinez. Now the other issue has to do with a $300 
million increased request for MR&I purposes. Not only is the 
request being made for $300 million, which represents a 75 
percent cost share, but it is also being requested to put that 
money in a State revolving fund to be able to use that money 
for the State to lend out that money, to earn interest on that 
money, be able to enable itself to make limited dollars 
stretch.
    The administration has some concerns with the use of that 
revolving fund, to the extent that that type of revolving fund 
is perhaps appropriate and to the extent that if the State 
would generate interest revenues, maybe the $300 million can be 
reduced.
    These are the kind of things that we're willing to sit down 
and discuss with the project sponsors in the Committee.
    Mr. Doolittle. Let me interrupt and ask about that 
revolving fund. Is that a unique proposal, or do we have 
examples where that's been done before?
    Mr. Martinez. I'm not aware of a proposal in the Bureau of 
Reclamation, but we do make reference to a APA-type revolving 
fund that this might be able to be modeled after. So I'm sure 
there's something that guides us within the Federal bureaucracy 
on these issues.
    Then the other issue is the Four Bears Bridge, $40 million 
bridge. Like I said, I have no reason to question the need of 
it. The concern I have is the Bureau of Reclamation, the 
appropriate place to fund a State bridge.
    And those, I guess, basically, are the big financial issues 
as I view them.
    Mr. Doolittle. Let me ask about the bridge, because I'm 
aware of--bridges are an issue, actually, in my district. You 
said it's a State bridge, but Mr. Mason said there was 
somebody--I guess I was going to ask him, and maybe I will ask 
now.
    You said you were promised--North Dakota was promised--I 
guess it was North Dakota--was promised this bridge. Was that 
you mean by the Federal Government?
    Mr. Mason. Yes, sir.
    Mr. Doolittle. And that was back when they built the 
Garrison Dam, you mean?
    Mr. Mason. Yes, this was in the 1940's.
    Mr. Doolittle. And Mr. Beard said that in 1986 in that 
legislation that reformed the 1940's legislation that they had 
basically declared all those prior claims were settled by the 
1986 legislation. Is that your understanding, Mr. Mason?
    Mr. Mason. Yes, sir.
    Mr. Doolittle. But was the bridge set aside as a separate 
outstanding issue unresolved, or how do you----
    Mr. Mason. I'm not sure of that.
    Mr. Doolittle. Anybody want to comment on that who might 
know about it?
    Mr. Beard. Well, if I could, Mr. Chairman. I think there's 
a couple of things. There is the issue of whether the Federal 
Government has an obligation since the bridge was built and has 
been maintained on a State road. And the question is, does the 
Federal Government have an obligation to replace that bridge?
    Mr. Doolittle. So, the bridge was built originally by the 
Federal Government; now it's deteriorated, and so North Dakota 
wants a replacement for the bridge.
    Mr. Beard. I need to throw another thing on the table. In 
1992, the Congress passed legislation, title 35 of Public Law 
102-575, which provided authorization to divert surplus Western 
Area Power Administration revenues in the amount of about $250 
million to the tribes in North Dakota because the Congress felt 
the tribes had not been fairly compensated for the taking of 
their land at the time the mainstem reservoirs were built. This 
recommendation came from the Garrison Commission in 1984, and 
it was a rec-

ommendation addressed in the Committee reports in 1985, and 
then in the 1992 legislation.
    So, in addition to the amount that have been made available 
for the Garrison project, I'd also point out that an additional 
amount has been made available to the tribes in recognition of 
the fact that they were not compensated fairly at the time that 
the original mainstem reservoirs were built.
    Mr. Doolittle. And that amounted to $250 million?
    Mr. Beard. The authorization is for $250 million of surplus 
Western Area Power Administration revenues to be diverted to 
the tribes.
    Mr. Doolittle. Do you know how much of that they've 
actually----
    Mr. Beard. I don't have that figure with me.
    Mr. Pomeroy. Mr. Chairman, that legislation was passed 
before I came to Congress, but was not in any way related to 
either the bridge issue or the MR&I needs of the reservations.
    It was a settlement related to the fact that at the time 
they went ahead with this ``let's dam the Missouri River 
plan,'' the Pick-Sloan plan, it just so happened, probably not 
coincidentally, that the flooded lands were quite often Indian 
reservation lands, and that this was a fundamental inequity 
that needed to be addressed. And as a measure of addressing it, 
the JTAC legislation was passed.
    On the bridge, specifically, this was an area that didn't 
need a bridge because we didn't have water before the reservoir 
was flooded. At the time they were doing this grand project, 
they bought a bridge somewhere. If I understand it, Mr. 
Chairman--you can correct me if I'm not correct--they bought a 
bridge which was an existing bridge; it wasn't built from 
scratch for this purpose and stuck it in here. The problem was 
that it was never adequate because it wasn't wide enough. It 
was always an extremely narrow hazardous bridge, and we've just 
lived with it for all these many years. So this isn't kind of a 
road maintenance issue; this artery never worked, and we didn't 
even need an artery if we wouldn't have had this federally 
constructed reservoir.
    And that's how this all ties together. We understand that 
it is an unusual feature of a water project.
    Mr. Doolittle. What does this bridge span anyway? Is it an 
arm of the reservoir?
    Mr. Pomeroy. Yes.
    Mr. Doolittle. OK. Well let me recognize Mr. Pomeroy for 
some questions.
    Mr. Pomeroy. Thank you very much, Mr. Chairman.
    I, in particular, want to express my appreciation for 
Director Martinez who has, I think, demonstrated on behalf of 
the Bureau and understanding that this is a Federal 
relationship to North Dakota's water needs that has not been 
met and needs to be met, specifically, as to the point made by 
Dan Beard. Did the 1986 Act absolve the Federal Government of 
some kind of obligation back to the State of North Dakota?
    The 1986 Act really had a--represented a plan, and the plan 
included some MR&I funding, but it included a water 
distribution works that was to allow the State to access and 
use this Missouri River water. Now this distribution works, 
known as the Sikeston Canal didn't work. And so the central 
part of the 1986 reformulation--a central part of the 1986 
Act--simply has failed.
    That's what got us back to the drawing board so that we 
might come up with something that does meet our needs going 
forward. And we have reconfigured the needs. We haven't just 
said, ``Well this distribution piece doesn't work. How else do 
we maintain this exact project?''
    We basically took a look at--let's go back to the drawing 
board, stay within the dollars that were represented by the 
1986 Act, but come up with a plan that better meets our needs 
into the 21st century. And so that's really the plan that is 
before us.
    Because the 1986 Act represents, and specifically states--
the 1986 Act recognizes this could be a commitment of the 
Federal Government by declaring as a purpose of the bill, 
quote, ``to offset the loss of farmland resulting from 
construction of major features of the Pick-Sloan Missouri Basin 
program by means of a federally assisted water resource 
development project.'' unquote.
    Well, that project didn't work, so we don't believe that 
the 1986 Act extinguishes the obligation. Rather, we think, it 
represents part of the ongoing Federal-State relationship as we 
try to come up with an appropriate resolution of what the State 
ought to have for its role in this comprehensive Missouri River 
management plan that has caused us this flood.
    Specifically, I would respond to Dan Beard, in saying that 
of your list of seven, I mean I think there are four points of 
general agreement between North Dakota and the Audubon Society. 
Now to the extent that you rely on you would transport water 
from west to east by piping it all the way to Fargo, Mr. 
Chairman, a distance in excess of 200 miles, we would use an 
existing--we'd use first of all the 100 miles of canals that 
have already been constructed and natural terrain features to 
get the water over there. But we're basically talking about the 
same thing--water, west to east.
    You indicate we shouldn't breach the Boundary Waters 
Treaty. We agree; we shouldn't breach the Boundary Waters 
Treaty, and obviously this will not go forward if it does. But 
on the other hand, we don't think it's simply up to Canada to 
indicate whether or not that treaty is breached. We've actually 
put in a treatment capacity to make certain that the treaty is 
in all respects complied with. So this isn't a treaty violative 
proposal we're putting forward; it's a treaty compliant measure 
that addresses more than any of the iterations of Garrison have 
in the past of those concerns raised by our friends to the 
north.
    There are a number of issues, obviously, that we would take 
exception to. I mean while we agree, maybe conceptually in 
certain respects, we certainly have other points of what I'd 
call adamant disagreement with the Audubon Society's testimony. 
But rather than take your time, Mr. Chairman, hammering it out 
here, we recognize these will be discussions to be held going 
forward.
    I would like to describe, though, so you understand how 
this project came together. We really opened the door to all 
interested parties as we tried to come up with a reformulated 
plan for Garrison Diversion. That included a number of 
representatives of the environmental community. At some point, 
the Audubon Society elected not to continue at the table with 
us, and they decided instead to resist. Other representatives 
of the environmental community stayed at the table and have 
signed off on the completed plan.
    We don't want to continue this debate another 40 years. We 
want a completed water project that meets our State's needs 
into the 21st century. To the extent, I think we have made 
concessions that have gone far beyond what have ever been done 
before to try and get a comprehensive consensus of views that 
this is the plan that gets this done.
    Obviously, the concerns raised by Director Martinez will be 
a source of ongoing discussions and negotiations, and we'll 
continue to be available to discuss these other issues that we 
recognize we'll have to deal with them in the legislative 
process anyway. But I particularly am appreciative of the 
Bureau's interest in the proposal and the supportive words you 
have made, as well as those representatives of the 
environmental community that stayed at the table and helped us 
bring this plan to its present state.
    Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you.
    Commissioner, could I ask you--or maybe somebody else wants 
to volunteer--if this thing in 1986, these canals or whatever 
it was, had worked as they were designed, then would this 
problem have been resolved then or not?
    Mr. Martinez. I'd have to--maybe former Commissioner Beard 
might be able to give us some insight on this. My knowledge is 
limited on this. It's not the question they didn't work; it's 
just that they stopped building them. They left a gap in the 
middle.
    Mr. Doolittle. Well, that's why they didn't work.
    Mr. Martinez. Because of concerns. So, what you've got, is 
you've got some oversized canals. The project has changed; the 
formulation of the project has changed.
    Mr. Doolittle. Well, I want to hear from Mr. Beard. Maybe 
he'll comment on that. But, that's a useful clarification. So 
they stopped the construction of these canals----
    Mr. Pomeroy. Mr. Chairman, the Sikeston Canal feature, 
Commissioner, was not going to work. I mean it was--
construction wasn't begun because even before we began we 
realized that that which the Act had provided for physically 
wasn't going to do that which was intended, and, therefore, the 
construction didn't begin. But it was a design feature that 
simply didn't work as had been envisioned at the time the Act 
was passed.
    Mr. Martinez. Mr. Chairman, for the purpose of clarifying 
the record, we'll present something in writing to sort of give 
a little history on that.
    Mr. Doolittle. That would be useful.
    Mr. Martinez. Thank you.
    Mr. Doolittle. Mr. Beard?
    Mr. Beard. Yes, if I could, Mr. Chairman, I think maybe I 
can, hopefully, bring some clarity to the discussion by 
characterizing it this way. This is my view, certainly, and it 
isn't, I'm sure, held by the delegation, Mr. Pomeroy, and 
others. But, we're here today, not because we're addressing a 
``project.'' We're here today for political reasons. We're here 
today because, as the delegation stated and I stated in my 
testimony, that there is a feeling on the part of--and 
earnestly felt--on the part of people in North Dakota that 
there's an obligation from the Federal Government to provide 
something to the State of North Dakota in compensation for the 
construction of the mainstem reservoirs. That's why we're here.
    And so the legislation you have is essentially not one 
project, it's a whole bunch of things to take care of 
individual interest groups. There's a bridge; there's $25 
million for some in the environmental community who want more 
grant-making authority. There's more money for MR&I all 
throughout the State, which is a legitimate need. There's some 
money for Indian MR&I and Indian irrigation, and there's some 
money to move water to eastern North Dakota.
    All of these are specific interests. They've all been 
collected, put together in one bag, and called the ``Dakota 
Water Resources Act,'' and in that sense, fulfills a political 
problem, which is this feeling that there is a commitment owed.
    I think the principal question for you and the rest of the 
Committee members is, should this Congress address this 
political issue, this commitment issue? And, should it address 
the commitment in the ways that have been suggested in the 
legislation? That's the challenge before you, because we're not 
here for some engineering reason, certainly. We're here to 
fulfill a political obligation.
    As I tried to point out in my testimony, I think a very 
compelling case can be made that the Federal Government has 
gone a long way to fulfilling this commitment already. And the 
question is, how much more should it undertake on behalf of 
fulfilling this obligation?
    So I hope that helps.
    Mr. Martinez. Mr. Chairman?
    Mr. Doolittle. Mr. Martinez.
    Mr. Martinez. I don't think the place is appropriate for me 
to be debating the issue with a former Commissioner but I think 
that there's a need. There's no question there's a need out in 
that area to deliver this service. And it appears to me that 
not only North Dakota, but also South Dakota and other western 
States are coming before this Subcommittee and asking for these 
kind of projects, and will continue to ask for these kind of 
projects.
    The question is how the Congress wishes to deal with this 
issue. It's either a total package, if in fact it believes that 
it owes something to North Dakota because of what happened back 
50 years ago, or because it wants to address this issue 
comprehensively rather than having it piecemealed to death. 
Because, in essence, if you look at what's happening in other 
parts of the west--and we have another project coming right 
behind this one where they're coming in one after another, 
rather than comprehensive. And, you know, that's what I want to 
leave with you.
    Mr. Doolittle. Well, I'd have to agree with you on that 
score, and I'm afraid I haven't been very encouraging to Mr. 
Pomeroy and the people that--or Mr. Thune from South Dakota 
because, heretofore, we haven't made great ventures into the 
area of MR&I supply as we're now being asked to do. And yet I 
certainly understand the need is legitimate.
    I'm not sure I have a solution. I know we need one. I guess 
we're looking for one, really, in this Committee. And that's 
the purpose of this hearing and others like it to try and 
develop the facts that we need in order to, I guess, ascertain 
how serious the problem is, how extensive it is, and what we're 
going to do about it.
    Ms. McCormack mentioned that the water from the pipeline 
was a bargain compared to what they paid to treat the water and 
deal with it there. I mean, I would pay three or four--maybe 
more than that--times our present water bill if I had that to 
deal with. I don't know if three or four or five or six times, 
even if you paid that, would be enough to develop what you'd 
have to do in order to get the better water.
    But I would be interested in the economics. I mean 
certainly all the people raising cattle, or anybody involved in 
industry, or anything like that, is this Red River Valley area 
where this computer industry, Gateway, and all that, isn't that 
where that is?
    Mr. Pomeroy. Gateway is South Dakota, Mr. Chairman, 
although we have some----
    Mr. Doolittle. Oh, that's South Dakota----
    Mr. Pomeroy. Well, actually--I grew up very close to Fargo. 
And what we've seen Fargo do is actually enter a new plateau of 
economic development where it's really taking off. It's 
becoming a regional powerhouse, and we do have a significant 
software company in Fargo and a number of other--it's just 
gangbusters as a regional economic trade center.
    But to sum up where North Dakota is coming from on this, it 
isn't as though we got into a room and said, ``Hey, I've got an 
idea. Let's have the Federal Government fund our State water 
needs.''
    What happened way back was we agreed to host a flood 
forever in exchange for a million acres of irrigation. We never 
got the million acres of irrigation. And what's more, we can 
even agree that right now there's more important--if you take 
the dollar value of what it would take to create a million 
acres of irrigation--we, the State's elected leadership, has 
agreed that there are ways that that dollar value could be 
spent in North Dakota that would better meet our water needs 
into the next century. And we've written that down in a 
comprehensive fashion, as the Commissioner has noted, and 
advanced us in this legislation. We have operated within the 
parameters of what it was our understanding the Federal 
Government was going to return to us in exchange for us hosting 
this flood reflected in the reservoir on the Missouri River.
    Mr. Doolittle. I must say having a reservoir, I've never 
thought of that argument; that's interesting. I have to see if 
I can put that to good use in my own area there.
    [Laughter.]
    Hosting a flood, therefore, we're owed some compensation of 
some sort.
    Mr. Pomeroy. For your support of----
    [Laughter.]
    [continuing] our project, we will waive all copyright----
    [Laughter.]
    [continuing] interests in that line argument.
    [Laughter.]
    Mr. Doolittle. I mean in the case of our flood, we've 
always thought those afforded rather considerable advantages, 
through recreation and water supply and power generation, all 
kinds of things.
    Mr. Pomeroy. The issue with us is that we have the water, 
but for recreation we really have not been able to use it. So 
you've got the--and this is why, as Representative Dorso said, 
we will stay at it.
    You have a State with tremendous water needs hosting a 
tremendous water resource, and yet we're not applying that 
resource to our water needs. And that's created a situation 
where we just have to keep at this until we can, at some point, 
have a reasonable access or reasonable application of that 
resource to our needs.
    Mr. Doolittle. Let me--maybe you're the one to ask, Mr. 
Pomeroy, being the only North Dakota official, I think--well, 
Mr. Mason, but you're the elected official--let me ask you, in 
California, you know, we would sell bonds to build some of 
these vast water projects--conveying water, say, from the San 
Joaquin Delta down to southern California, things like that. 
Has that been contemplated? Is it a possible source of revenue 
in maybe getting this water to the east like you wanted?
    Mr. Pomeroy. I've seen--I will answer your question more 
generally than that. We have spent a lot of State dollars 
developing the resources developed to date. There have been 
MR&I expenditures, and we've paid generally 35 percent of the 
cost share. Is that correct? Up to 35 percent.
    The bonding capacity of a State of $600,000 is much less 
than a State of $33 million. And so we've got vast distances, 
sparse population, tremendous water needs, and real finite 
limits on the amount of local costs we can carry.
    Mr. Doolittle. And I understand that, but I guess I'd like 
to explore, you know, taking into account with the comments of 
Ms. McCormack who, while I'm sure expressed the sentiment of 
most people who would deal with that.
    And the Committee will try and work with you and see if we 
identify a solution. Obviously, it would be some sort of a 
partnership. But still even if it is a partnership, that's 
getting the Federal Government into something that's 
traditionally not been its area of concern at a time when the 
budgets are shrinking, and we have a huge, long list of 
authorized projects already with the Bureau of Reclamation.
    Mr. Pomeroy. The feature of the project, getting the water 
to the east, that is the reimbursable, and the economics do 
make that a----
    Mr. Doolittle. OK.
    Mr. Pomeroy. [continuing] real reimbursable component.
    Mr. Doolittle. Well, maybe we should entertain the idea of 
maybe it will have to be done piece by piece. Maybe it can't be 
done in a comprehensive package, or maybe it can; I don't know. 
But has it been designed so that you could isolate several of 
these and eat the elephant piece by piece, not in one fell 
swoop?
    Mr. Pomeroy. Well, the project--not really. And they are in 
certain respects severable, but this is a package that has been 
built with an awful lot of give and take. And the compromise 
and the consensus that has evolved is because everybody has 
given something for that which they've received. So it's a deal 
that is not--it doesn't neatly come apart. It's kind of a--it's 
all tied together, Mr. Chairman.
    Mr. Doolittle. Well, I understand that that is your 
position, and I'm sure it needs to be your position because 
it's quite a consensus you've developed.
    I'd like to thank the members of our panel. I'm sure we'll 
have extra questions to ask you as we sort through the 
testimony, and we'll ask you to respond expeditiously.
    And with that we will excuse you, and I'm going to declare 
a 10-minute recess, and we'll come back for panel two.
    [Recess.]
    Mr. Doolittle. The Subcommittee will reconvene.
    We have panel two already assembled. Let me ask you 
gentlemen to please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Doolittle. Thank you.
    Let the record reflect each answered in the affirmative.
    We are very pleased to have you here gentlemen. We'll try 
not to drag this out too long, but the information being 
developed is very useful.
    We'll begin with Mr. Norman Haak, chairman of the Garrison 
Diversion Conservancy District of North Dakota.
    Mr. Haak.

    STATEMENT OF NORMAN HAAK, CHAIRMAN, GARRISON DIVERSION 
               CONSERVANCY DISTRICT, NORTH DAKOTA

    Mr. Haak. Thank you, Mr. Chairman.
    My name is Norman Haak; I am the chairman of the district 
and also farm in the Oakes Test area. I'm an irrigator. And I 
have three main topics that I would like to cover with you.
    The first one being irrigation. We feel that irrigation 
would have been the best way to repay North Dakota for the loss 
we had from Lake Sakakawea. There were many people who thought 
that that would be a great economic development for North 
Dakota. One million acres irrigated today would have made it 
easier for power revenues to pay for this project, but as we 
see today, the 1944 dream did not come true.
    In 1986, there also was a dream of 130,000 acres, which was 
also a dream. But there was a block grant program with it which 
has helped, and as we look at the 1997 Dakota Water Resource 
Act, the acreage is reduced to 70,000 acres. No money is 
provided for the development of these acres from the Federal 
Government. The function of irrigation is retained as a purpose 
of the project enabling the existing facilities to be used for 
irrigation. However, this will not cost the Federal Government 
any money.
    The second point I'd like to make is on water supply 
problems and how they are addressed in this Act. The Bureau and 
the Indian tribes have identified the water supply needs on the 
reservation to be significantly higher than the $200 million 
first thought. The tribes agreed to a formula to distribute 
these funds. The $40 million bridge replacement is also there. 
The bridge was installed in the 1930's. It's not very good; 
I've been over it. I'd hate to drive a truck over it and try to 
meet someone. It's very risky.
    The water supply needs in the non-Indian rural area could 
exceed a billion dollars. The Act calls for a $300 million 
extension to the 1986 grant program. Adjusted for inflation, 
this amount matches the program originally envisioned by the 
Commission report in 1986, with the 75-25 percent cost share 
authorized in 1986. The cost share is typical of projects in 
the region.
    According to the Bureau of Reclamation report, the water 
supply needs for the Red River Valley are currently estimated 
to be as much as 300,000 acre feet annually. All previous 
legislative authorities have specially provided for delivery of 
Missouri River water to the Red River Valley in order to meet 
these needs.
    This legislation does not presume that Missouri River water 
is the only solution, or the best solution. The Act calls for 
$200 million to be authorized for a yet to be determined 
solution. The process for determining the best solution is an 
evaluation of all the reasonable alternatives and their 
environmental impacts through a cooperative effort between the 
State and the Bureau of Reclamation. The moneys allocated for 
delivery of municipal water to the Red River Valley will be 
repaid with interest.
    One of the alternatives will be to use the existing 
facilities--as Congressman Pomeroy pointed out, to deliver 
municipal water to the Red River Valley. If this alternative is 
chosen, the cost assigned to deliver Missouri River water to 
the Valley for municipal purposes will be repaid in accordance 
with existing and longstanding reclamation law.
    The third point is justification. I would like to emphasize 
the economic justification for the Dakota Water Resource Act. 
To justify this expenditure, we must first examine the 
alternatives.
    The first alternative, and often the favorite, is to do 
nothing and hope it will go away. And thinking that would be 
the cheapest. It isn't and it won't happen. The cheapest is not 
always the best. In this case, it fails on both counts. If 
nothing is done, the expense of the existing works, which 
currently brings no money to the U.S. Treasury, will continue. 
The minimal level of operation and maintenance costs is about 
$2 million a year. It's not likely to go down.
    The unmet needs of the Indian reservation are considered a 
longstanding responsibility. Whether these needs are funded in 
this bill or not, they are not going to go away. As a practical 
matter, we probably can agree the Federal Government will 
someday pay that bill. Similarly, if we do nothing, the water 
needs in the rural areas will not go away. If we ignore them, 
the economics and the rich heritage of these areas will 
continue to erode. The needs I've identified will need to be 
met in one form or another.
    The current program that we know is cost effective, 
workable for rural communities, and is the best approach that 
we have been able to identify.
    Some have proposed that the existing 120 miles of canals 
and pumping plants be abandoned. Meeting our current water 
needs by putting these facilities to use and getting repayment 
on the investment makes a lot more sense to me than spending 
$200 million to cover them up. It appears to be a lot of money 
when we talk about it at first, but upon deeper examination, it 
really is a responsible package that brings a reasonable return 
to the Federal Government.
    Mr. Chairman, this legislation is the result of a lot of 
hard, bipartisan work to incorporate the concerns and interests 
that are normally competing or at odds with each other. We 
believe it is fair and reasonable. A better alternative has not 
been identified, and we hope you will support this package, 
putting an end to the historic problems of Garrison Diversion.
    Thank you. If you have any questions, I'd like to try to 
answer them.
    [The prepared statement of Mr. Haak may be found at end of 
hearing.]
    Mr. Doolittle. Thank you.
    Our next witness will be Mr. Scott Peterson, president of 
the North Dakota Chapter of the Wildlife Society.
    Mr. Peterson.

STATEMENT OF SCOTT PETERSON, PRESIDENT, NORTH DAKOTA CHAPTER OF 
                      THE WILDLIFE SOCIETY

    Mr. Peterson. Thank you, Mr. Chairman. Good afternoon.
    My name is Scott Peterson; I am the president of North 
Dakota Chapter of the Wildlife Society, and I am here today to 
present a brief statement regarding the Dakota Water Resources 
Act on behalf of the North Dakota Chapter of the Wildlife 
Society.
    The North Dakota Chapter of the Wildlife Society is a 
professional organization of fish and wildlife biologists, 
educators, and students. The chapter has been actively involved 
with issues concerning the Garrison Diversion Unit since the 
project was originally authorized by Congress in 1965. In 1986, 
the chapter helped to forge an agreement that led to the 
passage of the Garrison Diversion Unit Reformulation Act. The 
chapter has submitted statements for the record at previous 
hearings in Washington and North Dakota in support of this 
legislation before us now, and we stand by those earlier 
statements.
    During the past 2 years, the Chapter has participated in 
discussions that led to the introduction of the Dakota Water 
Resources Act. Throughout this process, the chapter has focused 
its attention on three main objectives.
    No. 1, clearly defining the provisions of the Dakota Water 
Resources Act.
    No. 2, ensuring that the contemporary water needs of North 
Dakota include the conservation of fish and wildlife resources 
and their habitats.
    And three, modifying the legislation to eliminate provision 
that will adversely affect the environment.
    The Dakota Water Resources Act is primarily a municipal and 
rural water supply plan which will benefit North Dakotans by 
providing a dependable supply of safe drinking water to 
communities throughout the State. We believe this work can be 
completed without significant environmental impacts. The 
current version of the legislation strengthens the process for 
making environmentally sound, cost-effective decisions 
concerning the future water needs of Fargo, Grand Forks, and 
other communities in the Red River Valley. The Environmental 
Impact Statement will evaluate a range of practicable 
alternatives to meet the projected water needs and assess the 
environmental impacts associated with each option.
    Today, I would like to address and offer our further 
support for two specific provisions of the Dakota Water 
Resources Act, namely the expansion of the North Dakota 
Wetlands Trust and the oper-

ation and maintenance needs of the project wildlife mitigation 
and enhancement features.
    The Dakota Water Resources Act recognizes the conservation 
of fish and wildlife resources as an essential project feature 
to meet the contemporary water needs of North Dakota. The 
chapter wholeheartedly supports expanding the mission and 
funding base of the North Dakota Wetlands Trust to include 
riparian and grassland conservation initiatives. The chapter 
further endorses the trust's wetland education initiatives and 
supports the complimentary funding that is earmarked for the 
North American Prairie Wetland Interpretive Center.
    The trust serves as an important bridge between landowners 
and the conservation community as clearly demonstrated by the 
trust's lists of accomplishment during the past 10 years. These 
impressive accomplishments include involving 37 organizations 
and over 200 landowners in trust-funded projects and programs; 
170 landowners signed wetlands protection, restoration and 
enhancement agreements; 578 farmers and land managers 
participated in field tours on conservation practices; and over 
$1.7 million have been provided as either direct payments or 
incentive payments to landowners for various conservation 
practices.
    I have also attached a one-page summary of the Wetland 
Trust's activities during the past 10 years to highlight their 
accomplishments.
    Voluntary projects such as these are just some of the 
reasons that the various North Dakota Wetlands Trust programs 
have become so popular with landowners and conservationists 
alike. The trust is continually looking for cooperative 
ventures that benefit both the agricultural producer and our 
State's natural resources. Expanding opportunities to 
cooperatively work with landowners throughout North Dakota 
benefits both our natural resources and the State's economy. 
Further evidence of the trust's popularity can be found in one 
Ramsey County landowner's comments regarding a trust project 
when he stated, and I quote, ``I feel that we've worked well 
together as a group. It's a win, win situation for producers 
and wildlife.''
    The primary provisions of the Dakota Water Resources Act 
are designed to meet North Dakota's existing and projected 
water supply needs. Along similar lines, we believe that 
establishing an account to operate and maintain the project's 
fish and wildlife mitigation and enhancement features is an 
important step in meeting the project's conservation 
objectives.
    The operations and maintenance account will benefit 
wildlife resources, neighboring landowners, and the people 
using those public lands. The account is essential to ensure 
the stated conservation commitments of the project are met in 
the future. We recommend that the authority to establish the 
operations and maintenance account be timed to coincide with 
the record of decision concerning the Red River Valley water 
supply features. With a secure mechanism to fund the wildlife 
development areas, we are confident that the projects losses 
associated with identified irrigation development can be 
adequately mitigated.
    In closing, we believe that substantial progress has been 
made since the first draft of the Dakota Water Resources Act 
was cir-

culated. The North Dakota Congressional Delegation, Senator 
Conrad in particular, and North Dakota's State political 
leaders are to be given credit for their leadership abilities 
in keeping a diverse group representing many interests, moving 
forward.
    We wish to thank you for the opportunity to express our 
opinions here today, and we respectfully request the 
opportunity to continue negotiations directed toward developing 
legislation that meets the contemporary water needs of North 
Dakota and conserves the State's natural resources.
    Thank you.
    [The prepared statement of Mr. Peterson may be found at end 
of hearing.]
    Mr. Doolittle. Thank you.
    Our next witness will be Mr. Ronald Nargang, deputy 
commissioner of the Minnesota Department of Natural Resources.
    Mr. Nargang.

  STATEMENT OF RONALD NARGANG, DEPUTY COMMISSIONER, MINNESOTA 
                DEPARTMENT OF NATURAL RESOURCES

    Mr. Nargang. Thank you, Mr. Chairman.
    For the record, I am Ron Nargang; I'm the deputy 
commissioner for the Minnesota DNR, and I'm here representing 
Minnesota Governor Arne Carlson.
    I want to thank you for the opportunity. We do have a 
number of concerns to present. I have submitted written 
testimony to the Committee and would ask that it be included as 
part of the record, and then I'll simply summarize in my oral 
comments.
    Mr. Doolittle. That will be just fine; thank you.
    Mr. Nargang. As one of the eight States bordering the Great 
Lakes, Minnesota is no stranger to ambitious water development 
projects. We've seen any number of proposals over the years to 
move water from Lake Superior, Lake Michigan, and other lakes 
to the arid southwest. And the concern that those eight States 
had over those kinds of proposals led us to form a Great Lakes 
compact, among the eight States and the one province involved, 
and in that compact to provide for review and consultation 
among all affected parties on any diversion of water from the 
Great Lakes.
    In committing to that compact, we also committed to going 
into State law and building a body of legislation to prevent 
the diversion of water from the Great Lakes and from, in our 
case, the State of Minnesota. And further, those States got 
together and approached Congress and succeeded in 1986 in 
including section 1109 in the 1986 WRDA (Water Resource 
Development Act) that provided, in effect, a veto authority for 
each of the eight States for any diversion of water out of the 
Great Lakes basin.
    And I think, Mr. Chairman, that you've heard frustrations 
from Governor Schafer here on why his neighbors won't agree to 
this. And, frankly, I think I've just described for you the 
reason. We have a fundamental, philosophical difference about 
the interbasin diversion of water. Our State is not only 
opposed to diversions out of our State, we are opposed to 
diversion into our State. And we believe, philosophically, that 
what we ought to do is live within the limits of the water 
resources available to us. And that, frankly, is the approach 
we take in Minnesota. We are blessed with a plentiful water 
resource across much of our State, but in a great area of the 
northwest and a large area of the southwest part of our State, 
we also face water shortages, the same water shortages you've 
heard described here for North Dakota on our side of the Red 
River, and very similar problems in the southwestern corner of 
Minnesota.
    And that really leads me to my next objection--is that we, 
frankly, don't consider the Garrison supply to be a reliable 
source of water. The Red River represents the break between 
eastern and western water law. There is a radical difference in 
the way Minnesota treats water rights from the way North Dakota 
treats water rights. And North Dakota is only one player in the 
water rights battle on the Missouri River. And that battle is 
heated right now. And frankly, we're not confident at all of 
where a Garrison appropriation would come out in the prior 
appropriation hierarchy in times of drought.
    We are aware that the tribal interests along the Missouri 
River are claiming their water rights from the Missouri. I've 
heard it mentioned earlier that the Corps of Engineers has been 
asked for a statement about the impact of this diversion on 
downstream interests and has indicated that there is no impact. 
I wonder if the response from the Corps would be the same if, 
in fact, the tribal claims are perfected. Our information 
indicates that their initial claims would reduce the base flows 
in the Missouri at the confluence with Mississippi by 40 
percent.
    Now you begin to pile that in with the increased diversion 
here for the Garrison Diversion and any other appropriations 
that may be proposed from the Missouri River, and we have a 
major concern about depletion of flows downstream.
    Because of the question about the reliability of the claim 
involved here, we certainly don't believe that the project 
should be considered for construction until the tribal claims 
issue is resolved because of the major impact that will have on 
the total water resource of the Missouri. And we don't want 
Minnesota's growth to be dependent on an unreliable water 
supply. The last thing that we want in an area of our State 
that has a water shortage is to have a supply developed around 
which we develop industrial, municipal, residential demand and 
then find that the supply will not be supportive during times 
of drought because we, frankly, have no options to support that 
kind of increased growth.
    Our response to this problem is then to work with 
communities in the area on water conservation measures, to 
develop what limited areas of groundwater are available, and to 
fold that in with a combination of surface water supplies in 
the Red River so that we use groundwaters as an emergency back 
up when we have low flow conditions in the river.
    So to summarize, our two main concerns are consistent 
opposition to interbasin diversions and, frankly, living within 
the limits of the resource that we have available. Our written 
testimony also itemizes concerns about water quality, exotic 
species, and I've touched briefly on the navigation flow issue.
    I do want to make the point with the Committee that 
Congress is dealing with the Garrison as a separate and 
distinct project from Devil's Lake, and we understand that. And 
we have heard North Dakota's plea that we look at it the same 
way. But we have and will continue to evaluate the Devil's Lake 
outlet as part and parcel of a Garrison Diversion project, and 
I think we need to do that as we evaluate the impacts on our 
State.
    I thank you for the opportunity to comment to the Committee 
and will be happy to stand for any questions you may have.
    [The prepared statement of Mr. Nargang may be found at end 
of hearing.]
    Mr. Doolittle. Thank you.
    I want to mention at this point, we had a witness 
scheduled, and because of a death he had to attend a funeral. 
That's Mr. David Conrad with the National Wildlife Federation. 
So our final witness will be Mr. Dave Koland, executive 
director of the North Dakota Rural Water Systems Association.

  STATEMENT OF DAVID KOLAND, EXECUTIVE DIRECTOR, NORTH DAKOTA 
                RURAL WATER SYSTEMS ASSOCIATION

    Mr. Koland. Thank you, Mr. Chairman.
    Mr. Chairman, members of the Committee, my name is Dave 
Koland. I serve as the executive director of North Dakota Rural 
Water Systems Association. Our association has 31 rural water 
systems and 225 municipal water systems as members.
    The sons and grandsons of the pioneers that settled North 
Dakota founded our association. They had experienced the 
``dirty 30's'' and sought a solution to the unreliable and 
uncertain water supplies they depended on for a domestic water 
supply.
    Since the earliest days of our State, the people who 
settled here were driven by the need for water. The first 
settlements were located along streams or lakes. The 
homesteaders who came later dug shallow wells or endured by 
hauling water from a nearby creek or slough. Many had to move 
on when the dry years withered their crops and left them 
without the precious water needed to survive.
    In the late 1970's, many rural areas began constructing a 
water distribution system to serve rural areas. Farmers without 
water or with an unreliable source joined together and with the 
help of the Federal Government, built rural water systems to 
meet their needs. But at the insistence of the Federal 
Government, they were not allowed to build beyond their own 
current domestic needs.
    The Safe Drinking Water Act Amendments of 1986 with 
stringent testing requirements and mandated maximum contaminant 
levels brought North Dakota face to face with the reality that 
the groundwater being used in many smaller communities for 
drinking water would not meet the MCL for fluoride or arsenic 
mandated by the Safe Drinking Water Act.
    The answer for many communities was to work out a solution 
with the rural water system that served a rural area close to 
their city. Rural water systems now provide clean, safe water 
to 187 communities in North Dakota, but many still wait for the 
water they so desperately need. Communities like Mohall, 931 
people; Munich, 310; and Bisbee, 227; have few other 
alternatives to provide their citizens with clean, safe water.
    The key to providing water to small communities and rural 
areas of North Dakota has been the Grant and Loan program of 
Rural Development and the Municipal, Rural, and Industrial, 
MR&I program, of the Garrison Conservancy District. Without the 
assistance of these two grant programs, the exodus from the 
rural areas would have been a stampede.
    The desperate need for clean, safe water is evidenced by 
the willingness of North Dakota's rural resident to pay water 
rates well above the rates the Environmental Protection Agency 
consider to be affordable. The highest general guidelines sets 
an affordability threshold at 2 percent of the median household 
income. Rates beyond that threshold are considered to be 
unaffordable.
    In North Dakota that translates into a monthly cost of 
$38.69 per month. The average monthly cost on a rural water 
system for 6,000 gallons is currently $48.97. Only one system 
in the State has a monthly cost below the maximum affordable 
cost set out in the EPA study, and that system charges $37.60 a 
month for 6,000 gallons of water. Twelve systems must charge 
their consumers $50 or more, with one system charging 170 
percent of the affordable rate, or $66 a month for 6,000 
gallons of water.
    The water rates in rural North Dakota would soar to 
astronomical levels without the 75 percent grant dollars in the 
MR&I program. For instance, our current rates would average a 
truly unaffordable $134.19 per month, or a whopping 7 percent 
of the median household income. They could have ranged as high 
as $198.80 or a prohibitive 9.9 percent of the median household 
income.
    The people waiting for water in our rural communities are 
willing to pay far more than what many consider would be an 
affordable price for clean, safe water. Across North Dakota we 
have seen the impact of providing good water to rural areas and 
witnessed the dramatic change in small communities.
    We must continue to support the growth of our existing 
rural systems into regional water delivery systems and provide 
water to those areas that are not now being served.
    Water alone will not solve the problems of rural North 
Dakota, but without water, there is little hope that any 
proposed solution will work.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Koland may be found at end 
of hearing.]
    Mr. Doolittle. Thank you.
    Mr. Nargang, you mentioned that your side of the Red River 
is similar to the North Dakota side. And I think you described 
you're using groundwater there on an emergency basis, but when 
you've got surface water, then you'll use it from the Red 
River; is that right?
    Mr. Nargang. Mr. Chairman, that's correct.
    Mr. Doolittle. Is your groundwater as bad as their 
groundwater?
    Mr. Nargang. Mr. Chairman, we have stuff that looks a lot 
like this----
    Mr. Doolittle. OK.
    Mr. Nargang. [continuing] in much of the area. We do have 
some isolated buried drift aquifers, little containers of sand 
and gravel that contain pretty high quality water. What we've 
tried to do to respond to water needs for the city of Moorhead, 
for instance, is we've done an extensive geologic mapping 
program in that area to isolate those pockets. And then to help 
the city distribute their well fields, so that out of those 
limited aquifers, they don't draw them down irregularly during 
times of emergency. But they use it only to supplement their 
use of river water.
    Mr. Doolittle. Mr. Haak, do you have those little isolated 
pockets? I don't know, is your area--well maybe your area--does 
it include the Red River Valley or not?
    Mr. Haak. No.
    Mr. Doolittle. It doesn't.
    Do you know, Mr. Nargang? Do they have those on their side 
of the river?
    Mr. Nargang. Mr. Chairman, I would really hesitate to 
respond on North Dakota's groundwater situation.
    [Laughter.]
    Mr. Doolittle. Well, I mean it would be logical they 
probably do, but we'll have to--maybe that will be one of our 
written questions.
    Is it your impression that geologic mapping has gone on in 
North Dakota like it has in the Minnesota-side of the Red 
River?
    Mr. Nargang. Well, Mr. Chairman, I think that's certainly 
true. Despite our disagreement on this, we cooperate on an 
awful lot of things, and one of the things we've tried to do is 
to match up the geologic mapping we've done on the two sides of 
the river. We have some very interesting connections that 
crossed under the Red River. And how we use groundwater, how 
North Dakota uses groundwater, will affect the other 
communities.
    Mr. Doolittle. Sure.
    Mr. Nargang. We have saline upwelling that occurs in some 
of those systems if one community pumps too hard on their 
groundwater system.
    Mr. Doolittle. So you cooperate in that respect now?
    Mr. Nargang. Certainly.
    Mr. Doolittle. Mr. Koland, was it your testimony that the 
Federal MR&I money you used to reduce what would otherwise be 
the water rates that people pay?
    Mr. Koland. Mr. Chairman, that's correct. The grant program 
is used to lower the cost of building the system to a point 
where it's deemed affordable to the people. I've attached two 
charts to my testimony, and one chart was passed around that 
gave an illustration of I think the willingness of people to 
pay----
    Mr. Doolittle. Yes.
    Mr. Koland. [continuing] above that affordability.
    Mr. Doolittle. Is 6,000--I don't know--is 6,000 gallons 
about what a household of 4 is expected to use in a month?
    Mr. Koland. I think you would consider that an average. In 
North Dakota, it's actually a little bit below the average. On 
a rural water system, we averaged about 13,000 gallons a month 
per connection, but that also involves some bulk water usage--
--
    Mr. Doolittle. All right.
    Mr. Koland. [continuing] in some communities.
    Mr. Doolittle. Mr. Pomeroy.
    Mr. Pomeroy. Thank you, Mr. Chairman.
    Mr. Chairman, you might be interested in noting that Dave 
Koland and I were in the State legislature together many years 
ago--him on the Republican side of the aisle and me on the 
Democratic side of the aisle--that we have worked well together 
then; we've worked well together since.
    A couple of questions for Mr. Nargang.
    First of all, I'd like to submit for the record a letter 
submitted--this will be part of the transcript coming in from 
the Fargo hearing. But it is a letter from Morris Laning, the 
mayor of Moorhead, Minnesota, specifically endorsing the Act in 
front of us and talking about the significant need of water for 
the Fargo-Moorhead communities. They are sister cities sitting 
across the Red River, Moorhead in Minnesota, and their support 
for this project and their concern about their future water 
need.
    Mr. Doolittle. We'll enter this in.
    [The information referred to may be found at end of 
hearing.]
    Mr. Pomeroy. Mr. Nargang, honest to God, the testimony that 
you presented irritates me in a significant way. And that isn't 
because I'm not prepared to take debate on this issue. I just 
want the debate to be on the real issues, not to be on bogus 
issues just floated for purposes of stopping this initiative. 
And you have raised a couple of utterly bogus issues.
    And while you say you're reluctant to talk about what might 
be the situation of groundwater in North Dakota, you certainly 
weren't reluctant to talk about the downstream States' interest 
in the Missouri River.
    Now does Minnesota begin to have an interest in Missouri 
River water?
    Mr. Nargang. Mr. Chairman and Congressman Pomeroy, since 
all of our grain goes down the Mississippi, absolutely. And 
given the fact that in the 1988 drought and the 1976 drought, 
we had barges stacked up all up and down the river because we 
didn't have enough flow in the Missouri to support the 
Mississippi River flows. We have a keen interest in what comes 
out of the mouth of the Missouri.
    Mr. Pomeroy. And you're suggesting--and this is where you 
blow your creditability apart in the testimony this afternoon. 
You're suggesting that a 200 cfs pipe linking the supply works 
with the reservoir on the Missouri River is sufficient to 
threaten barge traffic downstream on the Missouri?
    To put it in perspective, you go down to like Saint Louis 
for the confluent. The Missouri River is so wide that Mark 
McGuire couldn't hit a home run over it.
    [Laughter.]
    You come up to North Dakota and come to the 200 cfs pipe, 
Mark McGwire can jump across it. Don't tell me that that 
threatens capacity down there. But you don't have to take it 
from my argument; you're the expert, not me. But I do have 
already introduced into the record a letter from the Corps of 
Engineers that indicates that this would impact flows by a 
factor of less than one one-thousandth. Now that doesn't float 
barges; that doesn't materially, visually, or any other way 
impact flowage capacity downstream. That is, in my opinion, a 
bogus argument, Mr. Nargang.
    Mr. Nargang. Well, Mr. Chairman, Congressman Pomeroy, in 
all due respect, that's the same argument that has led to 
things like a depletion of flows on the Colorado River, on the 
Arkansas River. And if you want to use your example, you can 
look at the wonderful story that's out there about the Aural 
Sea in Russia that makes our Great Lakes look like puddles. And 
they argued in each case that this small appropriation will not 
deplete the flows. The problem is, when you take a number of 
small appropriations and look at the cumulative impact of them, 
they do deplete the flows. And you bleed the water off at 
multiple points in the system, and pretty soon there is nothing 
left.
    Mr. Pomeroy. And North----
    Mr. Nargang. Now, I put that in the context of the claims 
by the tribal interests up and down the Missouri. And if you've 
been studying the Missouri River issues, you know that those 
tribal claims may well prove to be valid. We've been to court 
with tribal interests in Minnesota on several occasions. I 
don't think you stand a very good chance of prevailing on 
those, which is going to turn your prior appropriation system 
on the Missouri upside down. Where is Garrison going to come 
out now?
    Mr. Pomeroy. You know, what we have before us is a 
proposal. Now you can argue world precedence, but what we're 
talking about is a 200 cfs pipe, and that doesn't have the 
capacity to do that which you suggest, and the Corps of 
Engineers indicates it doesn't.
    Another issue that you raise which is utterly bogus----
    Mr. Nargang. Well, Mr.----
    Mr. Pomeroy. [continuing] we got to get to this other point 
before my time runs out--and that's this Devil's Lake issue. 
Now you've got to direct your testimony and your objection if 
you're going to be a good neighbor and appropriate a deal with 
this issue substantively to the bill before us, not the old 
bill, not some bill that you think may be out there, but the 
bill before you. And there is not a feature in any way, shape, 
or form for a Devil's Lake inlet in this reauthorization 
proposal. And I want the record to reflect that very, very 
clearly.
    In the past, it was considered about ultimately getting 
water into the Devil's Lake, a closed basin that fluctuates 
dramatically. One of the significant concessions, but made 
without qualification or wiggle room, is that North Dakota is 
not providing for any kind of inlet into Devil's Lake in this 
reauthorization bill. And so the Devil's Lake issues--the 
flooding in Devil's Lake issues are not related to this. And 
you can say you object to it because it's got an inlet in 
Devil's Lake. The bill specifically does not have an inlet--
very specifically does not have an inlet.
    So we've addressed that concern, I think, that Minnesota 
has previously raised in this regard.
    Mr. Nargang. Well, Mr. Chairman and Congressman Pomeroy, 
two issues on the table. First, just quickly to dispose of the 
issue of the right that would exist for the Garrison, we've 
asked in writing for someone to show us documentation that that 
right will be there, and we have not had any assurance from 
North Dakota. All I get is a statement that it will be OK.
    With regard to your final issue, I have heard exactly the 
argument that you just made. I've heard it repeatedly. And then 
I pick up by clipping service, and I go through and I read 
articles out of the Fargo Forum or the Bismarck paper, and the 
next delegation is heading down here to Washington, DC, and the 
first priority is the Devil's Lake outlet, and the second 
priority is the Devil's Lake inlet. And unless I'm mistaken, 
you don't have any other source of water for Devil's Lake inlet 
than the Garrison Diversion.
    Frankly, the argument that these are not connected projects 
is no longer creditable to me, because that keeps happening. 
The people coming down to lobby this Congress make it clear 
that they have two key priorities on Devil's Lake. One is an 
outlet; one is an inlet.
    Mr. Pomeroy. Just to conclude, Mr. Chairman, I'm the 
elected Congressman for North Dakota, the only one. In that 
respect, I'm one of the State's elected leaders. We do not have 
the intention to seek an inlet into Devil's Lake. It is not 
provided for in the legislation before us. You could pass the 
Dakota Water Resources Act as presently proposed and it 
wouldn't have an inlet feature, nor would it have the mechanism 
that would provide for an inlet. It would take an entirely 
different legislative act to achieve it. I would not be part of 
trying to seek that act. But if someone did, you'd have the 
opportunity at that point in time to raise your objection to 
that proposal. It simply is not before us.
    And, you know, I did not take much exception to the 
testimony of the Audubon Society this afternoon. I disagreed 
with it roundly. But we've got issues that we'll continue to 
work on. At least they were on point, but what I resent about 
Minnesota's testimony today, as you have made it, is that it 
addresses issues not before us and issues that simply don't 
really exist as presented by this project.
    Mr. Nargang. Well, Mr. Chairman and Congressman Pomeroy, if 
I may, I think I made clear in my comments that we acknowledge 
that Congress has separated the issues, but it's our intention 
to continue to review the potential impacts of these projects 
as being connected. And I think we're entitled to that.
    Mr. Pomeroy. My time has expired. We could go on, but the 
chairman has been indulgent with his time.
    Mr. Doolittle. I'd like to thank the members of this panel 
for their testimony. I have a feeling we've just scratched the 
surface on this issue, but we've brought a number of important 
facts to light. It certainly has been beneficial to me to 
better understand what we're dealing with here.
    We will have, no doubt, further questions and would ask for 
your timely responses and hold the record open until we've 
received them.
    And with that, we'll excuse the panel and conclude this 
oversight hearing on this subject and commence with the South 
Dakota subject.
    Mr. Pomeroy. As the North Dakotans get up to leave, Mr. 
Chairman, I know I speak for them in expressing to you our 
heartfelt thanks. I mean this is an afternoon that you didn't 
have to be here. You promised me you'd hold this hearing this 
session, and you made good on your word, and we are all deeply 
appreciative that you conducted the hearing this afternoon.
    Mr. Doolittle. Thank you, and I'll look forward to 
continuing to work with you.
    And with that, this hearing is adjourned.
    [Whereupon, at 5:45 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
 Statement of Hon. John Dorso, Majority Leader, State Representative, 
                              North Dakota

    Mr. Chairman and Members of the Subcommittee, my name is 
John Dorso, North Dakota House of Representative Majority 
Leader.
    I appreciate greatly the opportunity to testify today in 
support of the Dakota Water Resources Act. As part of the 
leadership of the North Dakota Legislature, I am here to speak 
on behalf of the State Legislature. Also with me today, is 
State Senate Majority Leader Gary Nelson. Unfortunately, 
neither State Senate Minority Leader Tim Mathern nor State 
House of Representatives Minority Leader Merle Boucher could be 
here, although both, as well as Senator Nelson, asked me to 
stress the importance of the Dakota Water Resources Act to the 
State of North Dakota, the total bipartisan support of the 
State Legislature, and the past and present willingness of the 
state to contribute to the implementation of the Garrison 
Diversion Project.
    You have heard from our Congressional Delegation, as well 
as from the Governor, on the importance of this Act to the 
State of North Dakota. Senator Nelson, Senator Boucher, and I 
all live in the Red River Valley in eastern North Dakota. Our 
principal water supply, the Red River, has gone dry several 
times in the past. Also the population of the Red River Valley 
has increased substantially to the point where today more than 
25 percent of our state's population resides within 15 miles of 
our eastern border with Minnesota. It is obvious that we need 
to develop the future water supply for that area. The Red River 
Valley is a significant and critical economic engine for North 
Dakota, without a water supply for it, as would be re-
authorized by the Dakota Water Resources Act, our whole state 
will suffer.
    Every state legislative assembly since 1944 has gone on 
record by resolution supporting the Garrison Project, and most 
recently in 1997, the framework for the Dakota Water Resources 
Act. That resolution, which has complete bi-partisan support, 
urges the completion of the Garrison Project recognizing the 
critical priority of the project for water management and 
development in North Dakota. Be it for municipal, rural, 
industrial, tribal, recreation, or fish and wildlife needs, the 
Dakota Water Resources Act is essential for economic 
sustainment and development for our state.
    Because of the importance to North Dakota, the State 
Legislature has provided funding to show its commitment to the 
Garrison Project. In the past, we have appropriated general 
funds for water projects, including the Garrison Diversion 
Project, and we have also dedicated, by constitutional measure, 
a Resources Trust Fund for water development. Most recently in 
1997, we provided an authority for bonding for the Garrison 
Project as part of our comprehensive statewide water 
development program. The State Legislature stands ready to 
address ways to meet future needs for funding the non-Federal 
share of the Dakota Water Resources Act as proposed.
    In closing, there is no question of the support for the 
Dakota Water Resources Act in North Dakota. As you go back in 
history, even before the project was first authorized in 1944, 
our state strived for a means to meet our water needs. In 1889, 
the year our state was created, the Constitutional Convention 
delegates recognized the importance of managing our share of 
the Missouri River for our people. Even then, they knew we 
would have to provide a water supply for the whole state, 
especially eastern North Dakota. We ask that you help us to 
realize this more than 100 year old vision by passage of the 
Dakota Water Resources Act.
    Thank you.

     Statement of Hon. Bruce W. Furness, Mayor, Fargo, North Dakota

    Mr. Chairman and Honorable Members of the Subcommittee on 
Water and Power, I am Bruce Furness, Mayor of the City of 
Fargo, North Dakota. Thank you for this opportunity to testify 
before the Committee in support of S. 1515--The Dakota Water 
Resources Act of 1997.
    Benjamin Franklin once said, ``When the well is dry, we 
know the worth of water.'' North Dakotans want to be proactive 
in managing our ``well''; we can't wait until it is dry. We 
have become unified behind this Act through the North Dakota 
Water Coalition, a group of widely diverse interests which has 
come together to advance water development in our State. We are 
unified in developing a consensus piece of legislation that 
will assure future water supply for all our citizens.
    Fargo is located on the eastern edge of North Dakota, 
separated by the Red River of the North from Moorhead, 
Minnesota. Together the Fargo-Moorhead area is the largest U.S. 
population center in the Red River Valley with approximately 
165,000 people. Fargo has enjoyed an annual growth rate of 
about 2 percent for the last 20 years and is actually 
accelerating in growth at this time. The requirement for more 
water is a direct result of this growth. From a statewide 
perspective, nearly 40 percent of our population resides in the 
six border counties adjacent to the Red River.
    Our area does not have an overabundance of water supply 
resources. Extended dry conditions and droughts have shown us 
that current resources cannot alone meet the water supply needs 
of this growing region. Development of a dependable water 
supply, along with careful management of the resources 
currently utilized, will allow the region to meet its changing 
water needs.
    Our concern is best summarized by the introductory 
paragraph of a report by Black & Veatch, the design consultant 
for our new water purification plant:

        ``The City of Fargo has rights to two water sources for 
        treatment and subsequent supply to its citizens for potable 
        use: the Red River of the North and the Sheyenne River. 
        Unfortunately, both sources are of poor quality and, even taken 
        together, they do not offer a reliable quantity of water to 
        meet Fargo's present and certainly future water needs. The 
        diversion of Missouri River water to Fargo by way of Garrison 
        Dam would provide a long-term lifeline for the community.''

QUANTITY

    A good supply of water is key to our City's continued growth and 
development. Although record-setting floods have recently occurred, 
history shows that low water in this river has occurred more often and 
caused more problems for our residents than has flooding. For example, 
during the 1930's the Red River had stream flows at Fargo below 10 
cubic feet per second (cfs) for seven straight years. This same 
phenomena has occurred in the late 1970's and once in the 1980's. A 
flow of ten cfs of water in the Red River represents less than one foot 
of water in the streambed at any given point.
    Listen to a recollection by former Governor William Guy of Fargo.

        ``If you were to look at the Red River near the water plant in 
        the 1930's, you would wonder how they ever made the water fit 
        to drink. The searing hot drought hung heavily over the Upper 
        Midwest through the entire decade of the 1930's. The Geological 
        Survey records say that the murky Red River ceased to flow at 
        Fargo for a period in every year of that decade. The driest 
        year was 1936 when the Red River stopped flowing for 166 
        continuous days. Cars were not washed. Lawns went unsprinkled. 
        There was talk of returning the Fargo Sewage Plant discharge to 
        the river above the city water intake. Moorhead was drawing all 
        of its water from wells east of the city and their tap water 
        tasted good. With a population of around 25,000, Fargo's water 
        situation was desperate . . . . . Today both Fargo and Moorhead 
        draw their water from the Red River while their combined 
        population has increased five fold from the dry 1930's. 
        Industries not even dreamed of 65 years ago now use copious 
        amounts of Red River water. It is easy to understand why the 
        Garrison Diversion Project to bring Missouri River water east 
        to the Red River Valley has been on the minds of thinking 
        people for more than 50 years.''
    Though difficult to project, future regional water requirements 
will be determined by several factors:

        <bullet> Population growth and economic expansion in Fargo will 
        continue into the next century at the same 2 percent annual 
        growth rate. The entire region is expected to grow 
        correspondingly.
        <bullet> Per capita usage is currently below national and 
        regional averages but could increase without stringent use of 
        conservation measures.
        <bullet> 
        <bullet> In 1995, a large corn-processing plant went on-line in 
        the Red River Valley. It is projected that a minimum of three 
        additional plants will be constructed in the basin over the 
        next forty years. Water usage for each of these plants may well 
        equal what the City of Fargo uses in an average day. Thus, any 
        needs analysis must include future economic growth resulting 
        from increased value-added agricultural processing.
    Another consideration relating to water quantity is that of minimum 
stream flows. As indicated earlier, there have been times of extremely 
low flows. One analysis suggests that 7 cfs as a minimum flow in the 
Red River is sufficient. That is totally unacceptable.
    An examination of historical seven-day-duration flows shows many 
periods of inadequate flows for our current usage and increasingly more 
severe problems as our usage grows to new plant capacities. Fifty cfs 
is a bare minimum to be considered, 75 cfs is desirable.
    The use of Missouri River water is an obvious solution to this 
availability problem. Ninety six percent of the usable surface water in 
North Dakota is in the Mis-

souri River. It represents the best source of highly available water 
and has an extremely small impact on downtstream sites. Analysis shows 
that the potential allocation of 100 cfs for Eastem North Dakota is 
less than \1/2\ of 1 percent of Missouri water flowing through our 
state. A graphic description of this minimal impact is to think of the 
entire flow as a gallon of water. The proposed allocation is then 
represented by a thimbleful of water (\1/2\ fluid ounce).

QUALITY

    When water is not available in adequate amounts, the quality of 
water also declines. This fact has a high impact on processing costs. 
Relying on the Red River as its main source of water requires cities 
from Fargo to Pembina to take extraordinary measures to treat raw 
water. Both Fargo and Moorhead have recently built new water treatment 
facilities which use ozone (an electrically charged liquid oxygen), the 
latest available technology to disinfect the water. Ozone is a 
treatment process which has become the favored disinfectant for raw 
water having high organic characteristics.
    Ozone can do in 3 seconds what it takes chlorine 3 minutes and 
chloramine (chlorine and ammonia) 12 minutes to accomplish. However, 
this highly efficient treatment comes with a price--the cost of 
producing the ozone. To electrically charge liquid oxygen, the power 
costs for Fargo's treatment plant will double to $600,000 per year.
    Another advantage of treating better quality water can be shown by 
comparing the cost of treating Missouri River water at Bismarck with 
Red River water. Our staff analyzed the chemical costs to treat a 
gallon of water and discovered that Fargo's cost is about 22 cents per 
1,000 gallons while Bismarck's costs are 9 cents per thousand. As water 
quantity and quality decrease, the cost of its treatment increases.
    Each of these examples demonstrates the preference for treating 
higher quality water such as that found in the Missouri. As with 
quantity, water of better quality is a vital need for our community and 
region.

CONSERVATION

    Water conservation strategies employed by the City of Fargo include 
the adoption of odd/even lawn watering restrictions beginning in 1989 
and continuing through today. In 1997, a demonstration xeriscaping 
program was implemented with over 100 homes participating. We intend 
for this program to grow. A 15-year project to replace deteriorating 
water mains has begun. The result will be a significant reduction in 
water loss. Using all these tactics, water management will remain a 
high priority item in our City.

TIME-FRAME

    Although impossible to predict with any certainty, it is believed 
the Red River Valley has adequate water supply for the next 10 to 15 
years. Should drought conditions occur, however, that estimate may be 
reduced to 3-5 years. Consequently, little time remains to resolve 
these concerns. Activity must begin now to address the many issues 
relating to water quantity and quality. I urge your positive 
consideration of this critical legislation.
    I will be pleased to respond to any questions you may have. Thank 
you once again for the opportunity to testify in support of S. 1515.
[GRAPHIC] [TIFF OMITTED] T1878.002

[GRAPHIC] [TIFF OMITTED] T1878.003

[GRAPHIC] [TIFF OMITTED] T1878.004

[GRAPHIC] [TIFF OMITTED] T1878.005

[GRAPHIC] [TIFF OMITTED] T1878.006

[GRAPHIC] [TIFF OMITTED] T1878.007

[GRAPHIC] [TIFF OMITTED] T1878.008

[GRAPHIC] [TIFF OMITTED] T1878.009

Statement of Russell D. Mason, Sr., Chairman, Three Affiliated Tribes, 
                Chairman, United Tribes of North Dakota
    Chairman Doolittle, Members of the Subcommittee:
    Thank you for the opportunity to present testimony today concerning 
H.R. 3012, the ``Dakota Water Resources Act.'' The Three Affiliated 
Tribes of the Fort Berthold Reservation are the Mandan, Hidatsa and 
Arikara Nations. We strongly support H.R. 3012 and urge its passage, as 
it provides long promised and much needed funding for our municipal, 
rural and industrial water needs, as well as needed funds for a new 
bridge over Lake Sakakawea, to replace a bridge whose center spans have 
not been maintained and which are more than 60 years old.
    Further, we want to expressly thank our Congressional delegation 
and our current Governor, Ed Schafer, for their continued recognition 
of our needs in this legislation, and their willingness to consider our 
views. We look forward to working with them to seek passage of this 
vital legislation.

Background

    As you may recall, the Three Affiliated Tribes named above greeted 
Lewis and Clark in the early 19th century as they made their expedition 
of discovery up the Missouri River and over to the Pacific coast. Even 
prior to Lewis and Clark our Tribes had lived together peacefully for 
hundreds of years along the Missouri River. The Mandan particularly 
were agricultural, and tended corn and other crops.
    As we, like all other Indian people, were forced to live on 
reservations in the late 1800's, we were able to retain a spot along 
the Missouri River where we could maintain to a considerable degree a 
self-sufficient life style, tending to our crops and livestock on the 
rich bottomlands along the river. Few of our members were ever on 
welfare. Our reservation, which straddles the Missouri River, is 
approximately 1,500 square miles in size, although almost one-half of 
the reservation is owned by non-Indians and more than 15 percent of the 
area is covered by the water of the reservoir behind Garrison Dam.
    Despite our protests, our council resolutions, our delegations to 
Washington and our tears, our lives were turned upside down when the 
Garrison Dam was completed in the early 1950's. Over 156,000 acres of 
our best agricultural lands were taken from us for the creation of the 
reservoir behind the dam, and represented 69 percent of the land 
needed. By October 1, 1952, we were almost all forced from our homes 
because of the ``great flood,'' as many of our elders call the 
formation of the reservoir, now known as Lake Sakakawea. I was one of 
the last students at Elbowwoods High School, which was also the home of 
the Bureau of Indian Affairs Agency and a small Indian Health Service 
hospital. Our once close-knit communities, separated only by a river, 
which was then connected near Elbowwoods by a bridge, were now split 
apart and separated by as much as 120 miles. Our rich farmland and 
self-sufficient lifestyle were gone forever.
    Before the dam was completed, in addition to the inadequate 
compensation we received for our lands, we were promised many things by 
the U.S. Army Corps of Engineers, whose generals came and listened to 
our protests and our needs. Among other things, we were promised a lot 
of new infrastructure to allow us to rebuild our communities, including 
a new hospital, which was never built; community buildings, only now 
being completed, partly with Tribal funds; and a rural water system, 
using some of the water from the lake for which we had sacrificed our 
way of life.
    That water system, fifty years later, is even now only partly 
constructed. In just the past three years, several of our communities, 
which are generally a few miles from the lake, have been provided with 
adequate water from Lake Sakakawea. But the current system does not yet 
begin to serve our real needs, as specified below in more detail.
    In 1985, after nearly 33 years, and much lobbying in Washington and 
in our state capital, the U.S. Secretary of Interior established a 
committee to make recommendations for just compensation to the Three 
Affiliated Tribes and the Standing Rock Sioux Tribe for their losses. 
The Standing Rock Sioux Tribe had suffered also, like the Three 
Affiliated Tribes, following the construction of the Oahe Dam near Ft. 
Pierre, South Dakota. This committee was called the Garrison Unit Joint 
Tribal Advisory Committee (GUJTAC), which issued its final report on 
May 23, 1986. A copy of this Committee Report, which we commonly refer 
to as the ``JTAC'' report, is attached to my original written 
testimony, and I would ask that the Report be made a part of the record 
of this hearing, as it provides substantive justification for some of 
the components of H.R. 3012 that directly affect us.
    Partly as a consequence of the JTAC report, some of the needs for 
rural infrastructure of the Three Affiliated Tribes and the Standing 
Rock Sioux Tribe were included in the Garrison Unit Reformulation Act 
of 1986, Public Law 99-294. These included partial funds for a 
municipal, rural and industrial water system (MRI), shared between the 
Standing Rock Sioux Tribe and the Three Affiliated Tribes, and 
authorization for irrigation projects. The understanding of Congress 
when the Garrison Unit Reformulation Act was passed is that Congress 
knew the funds were insufficient, and expected a full report of the 
actual needs of the Fort Berthold Reservation at some later date. That 
later date has arrived.
    While the irrigation projects authorized for the Three Affiliated 
Tribes were never funded, we did receive a part of the $20 million 
which was eventually appropriated over the next 11 years, which have 
allowed some of our MRI water system needs to be satisfied. A summary 
of our current water needs is included in this written testimony.

Principal Benefits of H.R. 3012 for the Three Affiliated Tribes and 
northwest North Dakota

    Now, in 1998, the State of North Dakota is back before Congress 
seeking further authority to complete what has been known as the 
Garrison Diversion Project. The state rightfully states that it has 
been waiting more than 50 years for the completion of this project. We 
too, have been waiting for more than 50 years for the infrastructure 
promised to us as a result of the completion of the Garrison Dam, and 
are asking for what was promised us before our homes were flooded and 
our land taken.
    This bill has three features which are of tremendous importance to 
the Three Affiliated Tribes and for all of northwest North Dakota, 
including our MRI water system needs, continued authorization for 
approximately 15,000 acres of irrigation projects (which were meant to 
replace lost agricultural lands), and funds for a new Four Bears Bridge 
across the Missouri River near New Town, North Dakota (now the site of 
the Tribal Administration offices and the Bureau of Indian Affairs 
Agency). These are discussed in more detail below.

1. Municipal, rural and industrial water needs (MRI)

    H.R. 3012 provides that the four tribes in North Dakota share in a 
total authorization for MRI water needs of $200 million. The amounts 
needed by each tribe, and as agreed to by the Tribal chairs, are 
specifically stated in the bill, so that there need be no guess work 
afterwards about how much each tribe should receive. The share for the 
Three Affiliated Tribes is $70 million, contained in Section 9 of the 
bill.
    As required by the Committee Report on the Garrison Unit 
Reformulation Act, Public Law 99-294, we have documented our water 
needs to Congress and have provided detailed studies of these needs to 
our Congressional delegation. We would ask that the Committee recognize 
those reports in its final Committee report language concerning the 
bill.
    We believe that the figure of $70 million will be sufficient for 
our water system needs, if provided over time and indexed for inflation 
as currently allowed by law. The funds authorized, once appropriated, 
will provide, among other things, much needed usable drinking water 
that will contribute greatly to the health, economic and environmental 
needs of approximately 10,000 residents of the reservation, including 
non-Indian and Indians alike. The system, as designed, will be able to 
become part of a larger regional water system that will have an impact 
far beyond the Fort Berthold Reservation.
    At present, our ground water supply over most of the reservation is 
very poor. Dissolved solids, salts and other minerals often makes 
available water unusable for cooking, washing, drinking, and even home 
gardening. As an example of the danger of the poor water, sodium 
concentrations of more than double normal standards, often present in 
reservation well water, can aggravate hypertension, a common affliction 
on the Reservation.
    Even more of a problem are homes that have no local water source at 
all. Close to the end of the 20th century, we still have many families 
who must haul in their water from some outside source, often many miles 
away. In addition to the obvious inconvenience, this causes an undue 
risk of water borne diseases. Also, the many private wells on the 
reservation are simply undependable, often with low flows, and 
generally provide poor quality water, as well.
    Further documentation of the problems we face was just published in 
the September, 1998 issue of the magazine North Dakota Water, a 
publication produced for North Dakota water users. The sub-title of the 
article is called ``Reservations lack access to quality water 
systems.'' The article says, among other things: ``There is a 
tremendous need for rural water lines,'' which applies to both the Fort 
Berthold Reservation and the Standing Rock Sioux Reservation, and it 
documents the plight of a young family on our reservation which has to 
constantly haul water, as well as the sorry condition of our New Town 
water treatment plant. New Town is the largest town on the reservation, 
with both a large Indian and non-Indian population. A copy of this 
article is attached to my testimony, and I would request that this 
article be made a part of the record in this matter.
    As we all can appreciate with the Garrison Diversion Project, the 
lack of good water systems at present blocks effective economic 
development in most of our reservation districts, which we call 
``segments.'' Unemployment is still a large problem on our reservation, 
even with the modest success of our casino, Mandaree Electronics, the 
Northrup Grumman plant in New Town, and other Tribal enterprises. The 
1990 census pegged our average per capita income at $4,849, one-third 
of the national average.
    Now, we are faced with welfare reform requirements of meeting 
national goals for work partition rates within a specified timetable 
over several years. This means that economic development must become an 
even higher priority for our reservation. And, as we all know, economic 
development requires good water. Projects that are possible users of 
good water include a feed lot, meat processing plant, fiber board plant 
and ethanol plant, as well as further development of recreational areas 
along the shore of Lake Sakakawea, new housing development, expansion 
of various tribal facilities, and so forth.
    At the same time as water systems are developed and water use is 
increased on the reservation, we must also be mindful of environmental 
concerns, such as wastewater disposal. We know that a successful MRI 
program will not only address water distribution needs, but also 
wastewater disposal needs.
    The major components of the needed MRI projects are as follows, 
segment by segment:
        <bullet> 1. Mandaree: (west side of reservation, west of lake) 
        In Mandaree, the water distribution system needs to be expanded 
        and the existing system improved. Mandaree already has an 
        adequate water treatment plant and water intake.
        <bullet> 2. White Shield: (southeast corner of reservation, 
        north of lake) In White Shield, again, the water distribution 
        system needs to be expanded. A new water treatment plant is 
        just being completed, but the water intake was completed in 
        1991.
        <bullet> 3. Twin Buttes: (south side of reservation, south of 
        lake) While Twin Buttes already has a water intake and water 
        treatment plant, both facilities need to be completely 
        replaced. Further, the water distribution system needs to be 
        expanded. For reference, Twin Buttes is 120 miles from New 
        Town.
        <bullet> 4. Four Bears: (northwest corner of reservation, west 
        of lake) The Four Bears area has a water intake, but no water 
        treatment plant and no distribution system. This area needs a 
        water treatment plant and a distribution system.
        <bullet> 5. New Town: (also northwest part of reservation, east 
        of lake) New Town, the largest community on the reservation, 
        has no water intake system from the lake, less than a mile from 
        the center of town, the best and closest supply of fresh water. 
        While the aquifer under New Town supplying the city's wells is 
        a relatively good source of water, when the lake is low, the 
        aquifer is low and water quality declines. Thus, New Town needs 
        a water intake system and improvements to its water treatment 
        plant, as well as an expanded distribution system.
        <bullet> 6. Parshall: (northeast part of reservation, east of 
        lake) Parshall, also called Lucky Mound, has a water intake 
        from the lake, which isn't always working. Further, the water 
        intake is not deep enough in the lake, and doesn't function at 
        all when the lake is low. Parshall needs a new water intake, 
        improved water treatment plant and an expanded distribution 
        system.
    I want to emphasize that we need prompt action on supplying our 
needs, because our MRI funds are exhausted at the end of this fiscal 
year. It is also important to note that each of the newly expanded 
distribution systems will allow for future expansion, both within and 
outside of the reservation areas. These are just a few of the principal 
elements of the MRI projects we were promised more than 40 years ago.

2. Four Bears Bridge.

    When the Garrison Dam was built, the bridge at the old town of 
Elbowwoods was removed and its center spans, then already more than 20 
years old, were placed near New Town in the northwest part of the 
Reservation, to cross the lake at its narrowest point. The bridge was 
inadequate when constructed because the center spans were too narrow, 
making the rest of the bridge equally narrow. Now, with a much 
increased traffic load, it is increasingly dangerous. In a few years 
will be in need of massive repair.
    The Four Bears Bridge is the only bridge on a stretch of the 
Missouri River more than 150 miles in length. It is on a road which is 
part of the National Defense Highway System, and serves as part of an 
essential farm-to-market road connecting two U.S. highways, Nos. 83 and 
85. If the bridge were to be closed for an extensive period of time for 
any reason, or if it structurally became too weak to carry traffic, the 
state has no funds to repair it and massive disruption of the local 
economies would occur.
    The Four Bears Bridge was part of the Garrison project when the dam 
was built, and replacement of the Bridge ought to be part of the 
overall Garrison Diversion project now. The State of North Dakota 
doesn't have any money to replace the bridge, and even with the new 
highway bill will not have funds. The 1996 estimated cost of the bridge 
is approximately $40 million, and the authorization for that amount is 
provided for in the bill. It is understood that the state will be 
assisting with the final cost of the bridge; the Tribe is contributing 
land to the site of the new bridge.

3. Irrigation:

    Finally, I want to urge this Committee to retain the authorization 
for irrigation on the Fort Berthold reservation contained in H.R. 3012. 
As noted above, we lost 156,000 acres of land, much of it prime bottom 
land as a result of Garrison Dam, and the $63 million irrigation 
dollars authorized in the Garrison Unit Reformulation Act of 1986 were 
to be used to help us recover some of that good farm land. Our studies 
show that irrigation is feasible in the Lucky Mound-White Shield areas.
    We do have several remaining concerns about the legislation:

    Reserved water rights. We would ask that language be included in 
the final Committee report on this legislation that would recognize the 
reserved water rights of the Three Affiliated Tribes to water from the 
Missouri River and its tributaries that are within the Fort Berthold 
Reservation, known as Winters doctrine rights, and that it be made 
clear in the final Committee report that this legislation, including 
the part of it which allows for diversion of water from the Missouri 
River, does not in any way diminish or compromise those rights. This 
was a fundamental consideration of the JTAC Report, attached. Our water 
rights as a Tribe are no less important than those expressed as a 
stated purpose of H.R. 3012: ``to preserve any existing rights of the 
State of North Dakota to use water from the Missouri River.''
    Irrigation. We would also request that consideration be given to 
expand our authority for irrigation acres, should such additional acres 
prove feasible. As mentioned above, our best agricultural lands were 
taken from us. We are hopeful that in the future, some additional lands 
can be successfully irrigated and added back to our agricultural land 
base.
    JTAC Report. Finally, we would ask that in the final Committee 
report accompanying the bill, language be included that states that 
this legislation fulfills some of the goals set forth in the Garrison 
Unit Joint Tribal Advisory Committee Report, dated May 23, 1986, as 
attached. Such language simply recognizes what the bill actually does, 
and helps explain why portions of this legislation are dealing with the 
needs of the North Dakota tribes.
    In summary, we believe we, the Three Affiliated Tribes, and indeed, 
all of the residents of the Fort Berthold reservation have waited long 
enough for our fundamental water needs to be met. To have people on our 
reservation still carrying water to their homesites is unacceptable in 
the late 20th century. For us, the passage of H.R. 3012 cannot come 
soon enough. We cannot accept any alternative.
    Thank you for the opportunity to testify before this Committee.
    [GRAPHIC] [TIFF OMITTED] T1878.010
    
    [GRAPHIC] [TIFF OMITTED] T1878.011
    
    [GRAPHIC] [TIFF OMITTED] T1878.012
    
    [GRAPHIC] [TIFF OMITTED] T1878.013
    
   Statement of Michelle McCormack, Southwest Water Authority, North 
                                 Dakota
    Mr. Chairman, Members of the Committee:
    My name is Michelle McCormack, and I have been a resident of 
southwest North Dakota for the past 17 years. I am one of the many 
people in North Dakota that has benefited from the partially completed 
Southwest Pipeline Project. I support the completion of Garrison 
Diversion because I know first-hand the social, economic, and personal 
hardships of having poor water.
    My first home had clear water that was ``hard enough to walk on'' 
according to the water tester. It was high in sodium, and high in iron. 
It left rust stains on clothes that were washed in the water, and it 
left stains and deposits on fixtures. It was so corrosive that lifetime 
faucets had to be replaced every seven years. Water pipes and shower 
heads filled up with hard lime deposits so that water pressure was 
reduced, and eventually, plumbing would leak, and have to be replaced.
    My husband and I built a house 10 years ago on a building site with 
an existing well. The well water was light brown, the color of tea, and 
was soft, but very limited. When the cattle were drinking, there was no 
water in the house.
    That well failed after a few years. Because of the soils in our 
area, wells often fail, filling in with a light silt. We added filters, 
attempted to clear the water through use of settling tanks, and finally 
we had to accept the fact that we needed a new well. At a cost of $12 a 
foot, we dug until we had spent over $6,000. And we found water--
abundant, soft, potable, safe for cattle, but dark brown. We had the 
choice of digging deeper, hoping to find better water, however; there 
was no guarantee that it would be there. Or we could live with the 
brown water we had, and wait for the pipeline to come.
    The brown water stained everything. One washing would turn a white 
dishtowel grey. Even dark clothes were dulled and dingy. My children 
learned to dry their hair after a shower--if they did not, their damp, 
long hair would stain the collar of their white t-shirts.
    The picture you saw of the baby in the bathtub is my son. When he 
was five, he asked me if there was a rule that only motels and grandmas 
got to have white sheets and towels. We bought dark towels, dark 
sheets, and very little white clothing. We had to haul all white 
laundry to the nearest laundromat--a 30 mile trip one way.
    It took full strength toilet bowl cleaner to remove dried stains 
from sinks, showers and fixtures. We distilled all the water we used 
for cooking and drinking. The water had tested safe for human use, but 
boiling pasta or potatoes in that water was unappetizing at best. Our 
distiller ran 24 hours a day.
    It wasn't pretty, and we endured it because we had to. Our family 
and friends hated to visit or stay overnight, and the kids friends 
didn't like to see it. So there was a cost--socially, and a high 
economic cost to distill, haul laundry, and long term costs to the 
house plumbing and fixtures.
    Friends, neighbors--all have stories like this. They tell stories 
of faucets that erode away every five years; garbage disposal blades 
eaten by the water; stains, costs, frustrations and hard work over a 
resource most Americans take as a given part of their life.
    I've been lucky--I am one of those people who benefited greatly 
from the Southwest Pipeline Project. There are others:

    Don and Sarah Froehlich from Belfield, were about to sell their 
dairy cattle operation before the pipeline arrived at their farm. High 
levels of sulfate contaminated their water, causing Don to be sick with 
flu-like symptoms for over a month; and a bad taste in the milk and 
cheese their cattle produced.
    Douglas Candee from Dickinson, has expanded his buffalo herd to 
over 200 head, which he attributes to the abundant, dependable water he 
receives from the Southwest Pipeline Project.
    Joe and Mag Kathrein, New England, have struggled constantly with 
water in the past--hauling water twice per day to their cattle herd, 20 
miles round trip. Now they enjoy quality water in abundance.
    Bernice Jahner, Hettinger, appreciates the health benefits she 
receives from Southwest Pipeline water. For the past five years, she 
has been doctoring for ulcers on her legs, taking whirlpool baths twice 
a day for treatment. After using pipeline water for just one month, her 
doctors were amazed at her improvement.
    The North Dakota State Water Commission has currently identified 
524 projects that are necessary for water development in the state with 
an approximate cost of $1.8 billion. One hundred twenty-four of these 
projects are targeted specifically for the next biennium, at a total 
cost of $362 million. Several large projects, such as flood control for 
Grand Forks and Devils Lake, and the Maple River Dam are included in 
this cost.
    I say the cost of a pipeline water bill every month is a bargain, 
compared to what we paid to make our water usable. Pipeline water is 
better for our health, affordable, less work, and a real blessing to 
all of us in an area where wells are not reliable.
                                 ______
                                 
  Statement of Daniel P. Beard, Senior Vice President--Public Policy, 
                        National Audubon Society
    Mr. Chairman, I appreciate the opportunity to appear before the 
Subcommittee to present this testimony on H.R. 3012, the ``Dakota Water 
Resources Act of 1997,'' as amended by the amendment in the nature of a 
substitute introduced by Mr. Pomeroy.
    I'm here today to present the views of the National Audubon Society 
on H.R. 3012. The Society has nearly one million members and supporters 
in the Americas, and it is dedicated to the preservation and protection 
of birds, other wildlife and their habitat.
    To our members, protection and enhancement of the Prairie Pothole 
wetlands of North Dakota and other portions of the Central Flyway is a 
critical issue. For over 30 years we have worked hard to protect these 
internationally significant resources, and we are prepared to continue 
this effort.
    The purpose of today's hearing is to take testimony on the ``Dakota 
Water Resources Act of 1997'' introduced by Congressman Pomeroy. For 
reasons I will detail below, we strongly oppose enactment of this 
legislation and we urge the Committee to take no further action on the 
bill. Should the Committee report the bill, we will work diligently to 
oppose its enactment by the Congress.
    We appreciate all the time and hard work Congressman Pomeroy has 
put into this proposal. We also recognize that it reflects consensus 
among a variety of interests in North Dakota. While we appreciate their 
hard work, we still oppose the legislation.
    Mr. Chairman, the Garrison Diversion Unit water project has been 
the subject of controversy for over 50 years. It has generated 
countless lawsuits, legislative battles, diplomatic negotiations, 
interstate controversies, and environmental confrontations. Even worse, 
the taxpayers have spent more than $600 million on project facilities, 
many of which don't fulfill their intended purpose. In our view, H.R. 
3012 would not end the controversies surrounding the Garrison project 
and water development in North Dakota; this legislation would just 
continue old controversies, and create new ones.
    Mr. Chairman, rather than go through the bill line-by-line and 
detail our objections, I would prefer to focus on several important 
reasons why we believe this legislation is deficient. We hope these 
comments will lead you and other members of the Committee to the 
conclusion that this legislation should be rejected.

The legislation is based on a faulty premise.

    We believe this proposal is premised on a faulty assumption. The 
major premise of the legislation seems to be that a ``debt'' is owed 
North Dakota as a result of the construction of the mainstem Pick-Sloan 
reservoirs. The quid pro quo for these facilities is the often-cited 
``commitment'' that North Dakota would receive 1 million acres of 
irrigation.
    Rather than revisit the historical accuracy of this supposed 
``commitment,'' let me point out that the Congress in 1986 expressly 
said that whatever commitment may have existed was fulfilled by the 
1986 legislation. Subsequent Congresses and Administrations--both 
Democratic and Republican, with the support of the environmental 
community--have met this commitment by making available over $400 
million to the State of North Dakota for the construction of rural 
water systems, Indian water projects and other project facilities. Over 
80,000 North Dakotans have directly benefited from these expenditures. 
In addition, according to data developed by the Corps of Engineers, the 
State also receives approximately $130 million each year in benefits 
from mainstem Missouri River facilities.
    Thus, the state has already received well over a billion dollars in 
benefits and direct Federal appropriations since 1986. In our view, 
H.R. 3012 fails to present a forceful and compelling case why the 
taxpayers should make available an additional $900 million in Federal 
funds and debt forgiveness.

The Congress should know the specific facilities and features it is 
authorizing.

    Given the long history of controversy surrounding water development 
in North Dakota, we believe it is absolutely essential the Congress 
only authorize construc-

tion of facilities that have been thoroughly considered and planned. As 
currently drafted, the legislation directs the Secretary to build 
facilities that are not clearly described or known, may not be needed, 
and perhaps cannot be used. In the past, there has been considerable 
controversy about what facilities ought to be built, why and how they 
should be operated. The legislation would continue this controversy.

The Federal Government should take the lead for implemenfing any 
legislation.

    As noted earlier, the reason we are here today is because the 
Garrison project has a long and controversial history. There are 
interstate and international issues, and a host of environmental 
challenges surrounding this project. We don't believe it is appropriate 
for the Federal Government to cede authority for addressing these 
issues to the State of North Dakota. Several sections of the bill give 
the State unusual authority to influence planning processes and to be 
involved in the construction of facilities. The State's role in this 
effort should be curtailed, not expanded as proposed in H.R. 3012.

The debt forgiveness portions of the bill should be deleted.

    There are several sections of the bill that provide for forgiveness 
or changing the rules for reimbursable expenditures made in the past. 
We don't believe inclusion of these provisions is appropriate. Since 
1965, nearly $600 million dollars has been spent on Garrison-related 
facilities and programs; we feel the taxpayers deserve the maximum 
repayment possible for these expenditures.

The State of North Dakota should not have a role in environmental 
compliance.

    The legislation provides that the State will play an integral role 
in the planning and design of facilities, and in the preparation of the 
environmental impact statement on Red River Valley water supply 
facilities. Given the interstate and international problems surrounding 
this issue, we believe it is inappropriate to give the State this 
authority. The problems involved in delivering Missouri River water to 
eastern North Dakota are interstate and international in nature, and 
they are very controversial. Given the gravity of these issues, the 
Secretary should have the sole responsibility for undertaking the 
analysis to review and recommend appropriate solutions.

We should honor our treaty commitments to Canada.

    The final problem we would like to raise is the opposition of the 
Government of Canada to importing water from the Missouri River into 
the Red River drainage. In 1977, the International Joint Commission 
recommended that construction of those portions of the Garrison project 
delivering Missouri River water to streams ultimately draining into 
Canada not be built, due to the potential for violation of the Boundary 
Waters Treaty of 1909. Twenty-one years later, there is still no 
assurance that project facilities that would be completed and operated 
by the Dakota Water Resources Act would not violate the Boundary Waters 
Treaty.
    The United States has an obligation to honor this treaty and 
develop solutions to its water resource problems that won't result in 
exporting our problems to Canada. As presently drafted, H.R. 3012 
provides no assurances that the United States will meet these 
commitments.
    Mr. Chairman. I appreciate the opportunity to detail for you some 
of the problems we see with this legislation. Let me outline for you a 
suggested list of elements the National Audubon Society believes could 
lead to positive resolution of the issues surrounding the Garrison 
controversy.

        1. We oppose legislation to complete the Garrison Diversion 
        Unit, such as the ``Dakota Water Resources Act,'' because the 
        project does not represent responsible, economically sound or 
        environmentally acceptable water resource development.
        2. If a legitimate need is demonstrated for importing Missouri 
        River water to the Red River Valley for MR&I use, we support 
        formal consultations with Canada and discussions with Minnesota 
        to determine if an acceptable means can be developed to deliver 
        treated Missouri River water by pipeline directly to the target 
        cities.
        3. We support projects to meet tribal MR&I water needs using 
        cost-effective delivery systems.
        4. We support irrigation development on tribal lands adjacent 
        to the Missouri River using water directly from the river.
        5. We support other MR&I water projects in North Dakota 
        utilizing local water supplies or pipelines where they are 
        economically feasible and environmentally acceptable.
        6. We oppose the expenditure of additional Federal funds for 
        construction, operation or maintenance of the Garrison 
        Diversion Unit principal supply works.
        7. The Garrison Diversion Conservancy District is the entity 
        primarily responsible for insisting that construction proceed 
        on the principal supply works. They have done so before major 
        problems associated with the project were resolved despite the 
        objections of landowners, conservation organizations, taxpayer 
        organizations, numerous Federal agencies, the State of 
        Minnesota, and the Governments of Manitoba and Canada. 
        Therefore, costs associated with abandonment of the principal 
        supply works should be borne by the C-District rather than by 
        American taxpayers.
    Mr. Chairman, once again I want to thank you for giving me this 
opportunity to be here with you today. I'd be happy to answer any 
questions you might have.
                                 ______
                                 
  Statement of Scott Peterson, President, North Dakota Chapter of The 
                            Wildlife Society
    Good afternoon, my name is Scott Peterson and I am the President of 
the North Dakota Chapter of The Wildlife Society. I am here today to 
present a brief statement regarding the Dakota Water Resources Act on 
behalf of the North Dakota Chapter of the Wildlife Society.
    The North Dakota Chapter of The Wildlife Society is a professional 
organization of fish and wildlife biologists, educators, and students. 
The Chapter has been actively involved with issues concerning the 
Garrison Diversion Unit since the project was originally authorized by 
Congress in 1965. In 1986, the Chapter helped to forge an agreement 
that led to the passage of the Garrison Diversion Unit Reformulation 
Act. The Chapter has submitted statements for the record at previous 
hearings in Washington and North Dakota in support of the Legislation 
before us now and we stand by those earlier statements.
    During the past two years, the Chapter has participated in 
discussions that led to the introduction of the Dakota Water Resources 
Act. Throughout this process, the Chapter has focused its attention on 
three main objectives:

        1. Clearly defining the provisions of the Dakota Water 
        Resources Act;
        2. Ensuring that the contemporary water needs of North Dakota 
        include the conservation of fish and wildlife resources and 
        their habitats; and,
        3. Modifying the legislation to eliminate provisions that will 
        adversely affect the environment.
    The Dakota Water Resources Act is primarily a municipal and rural 
water supply plan which will benefit North Dakotans by providing a 
dependable supply of safe drinking water to communities throughout the 
State. We believe this work can be completed without significant 
environmental impacts. The current version of the legislation 
strengthens the process for making environmentally sound, cost-
effective decisions concerning the future water needs of Fargo, Grand 
Forks, and other communities in the Red River Valley. The Environmental 
Impact Statement will evaluate a range of practicable alternatives to 
meet the projected water needs and assess the environmental impacts 
associated with each option.
    Today I would like to address, and offer our further support for 
two specific provisions of the Dakota Water Resources Act, namely the 
expansion of the North Dakota Wetlands Trust and the operation and 
maintenance needs of the project wildlife mitigation and enhancement 
features.
    The Dakota Water Resources Act recognizes the conservation of fish 
and wildlife resources as an essential project feature to meet the 
contemporary water needs of North Dakota. The Chapter wholeheartedly 
supports expanding the mission and funding base of the North Dakota 
Wetlands Trust to include riparian and grassland conservation 
initiatives. The Chapter further endorses the Trust's wetland education 
initiatives and supports the complimentary funding that is earmarked 
for the North American Prairie Wetland Interpretive Center. The Trust 
serves as an important bridge between landowners and the conservation 
community as clearly demonstrated by the Trust's list of 
accomplishments during the past ten years. These impressive 
accomplishments include involving 37 organizations and over 200 
landowners in Trust funded projects and programs; 170 landowners signed 
wetlands protection, restoration and enhancement agreements; 578 
farmers and land managers participated in field tours on conservation 
practices; and over $1.7 million have been provided as either direct 
payments or incentive payments to landowners for various conservation 
practices. I have also attached a one page summary of the Wetland 
Trust's activities during the past ten years to highlight their 
accomplishments.
    Voluntary projects such as these are just some of the reasons that 
the various ND Wetlands Trust programs have become so popular with 
landowners and conservationists alike. The Trust is continually looking 
for cooperative ventures that benefit both the agricultural producer 
and our state's natural resources. Expanding oppor-

tunities to cooperatively work with landowners throughout North Dakota 
benefits both our natural resources and the state's economy. Further 
evidence of the Trust's popularity can be found in one Ramsey County 
landowner's comments regarding a Trust project when he stated, ``I feel 
that we've worked well together as a group . . . it's a win:win 
situation for producers and wildlife.''
    The primary provisions of the Dakota Water Resources Act are 
designed to meet North Dakota's existing and projected water supply 
needs. Along similar lines, we believe that establishing an account to 
operate and maintain the project's fish and wildlife mitigation and 
enhancement features is an important step in meeting the project's 
conservation objectives. The operations and maintenance account will 
benefit wildlife resources, neighboring landowners, and the people 
using these public lands. The account is essential to ensure the stated 
conservation commitments of the project are met in the future. We 
recommend that the authority to establish the operations and 
maintenance account be timed to coincide with the record of decision 
concerning the Red River Valley water supply features. With a secure 
mechanism to fund the wildlife development areas, we are confident that 
the projected losses associated with identified irrigation development 
can be adequately mitigated.
    In closing, we believe that substantial progress has been made 
since the first draft of the Dakota Water Resources Act was circulated. 
The North Dakota Congressional Delegation, Senator Conrad in 
particular, and North Dakota's state political leaders are to be given 
credit for their leadership abilities in keeping a diverse group, 
representing many interests, moving forward.
    We wish to thank you for the opportunity to express our opinions 
here today and we respectfully request the opportunity to continue 
negotiations directed toward developing legislation that meets the 
contemporary water needs of North Dakota and conserves the State's 
natural resources.
    Thank you.

            North Dakota Wetlands Trust, Summary of Projects
                               1997-1997
    The North Dakota Wetlands Trust, a non-profit corporation, has been 
involved in 62 wetland conservation projects since its inception in 
1986.
        <bullet> $4,907,980 have been committed to projects and 
        $2,067,102 have been spent to date.
        <bullet> This $4,907,980 is leveraged with $18,185,766 through 
        partnership agreements with organizations and agencies.
        <bullet> Projects completed conserve wetlands on 53,663 acres:
        13,336 wetland acres
        40,327 upland acres.
        <bullet> Acquired 4,154 acres.
        <bullet> Engaged private landowners and the public in wetlands 
        conservation:
        37 organizations and over 200 landowners are involved in Trust 
        funded projects and programs.
        170 landowners signed wetlands protection, restoration and 
        enhancement agreements
        578 farmers and land managers participated in field tours on 
        conservation practices
        22,900 adults are estimated to have participated in wetlands 
        education programs
        64,135 children are estimated to have participated in classroom 
        and field trip opportunities to learn about wetland habitats.
        <bullet> Provided economic benefits to landowners and 
        communities:
        Expended 22 percent of the Trust's cumulative budget over the 
        last four years on landowner incentive projects with long-term 
        educational and demonstration value
        $776,737 in direct payments to landowners for conservation 
        practices, incentives and cost shares
        $935,000 is committed for wetland restoration and native grass 
        incentives to landowners for Conservation Reserve Program lands
        Helped fund no-till drills in nine counties, providing 
        conservation tillage options for over 110 landowners
        Paid $36,330 in property taxes to local political subdivisions 
        (counties, townships, school districts).
        Improved 20,194 acres of privately owned agricultural land 
        through incentives for no-till drilling, conservation tillage, 
        soil moisture enhancement through temporary wetlands, upland 
        habitat restoration, and grazing system improvements.
        Removed agricultural uses on 10,950 acres through wetlands 
        restoration and enhancement and associated upland habitat 
        restoration. Provided payments for removing agricultural land.
                                 ______
                                 
Statement of Ronald Nargang, Deputy Commissioner, Minnesota Department 
                      of Natural Resources (MDNR)
    Mr. Chairman, on behalf of Governor Carlson, thank you for the 
opportunity to brief the Subcommittee on Water and Power on Minnesota's 
concerns regarding the ``Garrison Diversion'' project. I am Ronald 
Nargang, Deputy Commissioner of the Minnesota Department of Natural 
Resources (MDNR) and I have been asked by Governor Carlson to provide 
testimony for the State of Minnesota on this matter. Historically, the 
states of Minnesota and North Dakota have a long-standing tradition of 
working together cooperatively on interstate natural resource issues, 
such as the great floods of 1997. However, the State of Minnesota 
remains very concerned about the proposed Garrison Diversion project 
and appreciates the opportunity to provide comments.
    Issues of concern are:

          Consistency--The eight states and one province surrounding 
        the Great Lakes have a compact that provides for prior notice 
        and consultation of transfers of water out of the basin. Given 
        the high value of the Great Lakes as a resource and the 
        concerns of the eight Great Lakes states, no transfers are 
        allowed out of the basin without unanimous approval of all 
        parties. Federal law (Section 1109 of the WRDA of 1986) 
        requires the approval of all eight great lakes governors before 
        an out of basin transfer could occur. Congress has set a 
        standard in law that protects specific basins (e.g., the Great 
        Lakes) from losing water to other areas. All Missouri River 
        states should be expected to concur in a diversion of Missouri 
        River water outside the natural watershed boundaries. The State 
        of Minnesota has grave concerns about the precedent that would 
        be established if water from the Garrison Diversion project 
        were directed out of its natural basin to the Red River. The 
        State of Minnesota has no intention of jeopardizing our ability 
        to stop the transfer of water out of the state by accepting the 
        water from the Garrison Diversion and establishing a precedent 
        for interbasin diversion.
          Sustainable Use--Minnesota uses the principles of sustainable 
        use when forming natural resource policy and in decision making 
        as regards the use of natural resources. All communities within 
        Minnesota are encouraged to make decisions based on sustainable 
        use of existing resources. Within this framework, the residents 
        of the Red River Valley should be looking at ways to reduce 
        consumption of water and live within their means in terms of 
        naturally available water supplies. It is our belief that we 
        must begin to live within the confines of our natural resources 
        and not be as willing to import solutions to our resource 
        problems. Bringing water to the arid areas of the southwest has 
        been in the short-term an economic boon to that part of the 
        country. It remains to be seen whether we will continue to look 
        at it as a boon in the years to come as the population and 
        water demand continue to increase and the sources of supply are 
        exhausted.
          Water supply (both groundwater and surface water) in this 
        region is limited. Demands may surpass supply at certain times 
        of the year. Minnesota incorporates the principles of 
        sustainable use in environmental policies and decision making. 
        This principle would mean that we should first focus on lower 
        cost demand management measures and not be considering higher 
        cost alternatives for developing new sources of supply. This 
        region of Minnesota and North Dakota should not be encouraging 
        water intensive uses and should be pursuing vigorous 
        conservation measures. Water conservation measures that reduce 
        demands by improving water use efficiencies can extend water 
        supplies in the region. The December 1990, Red River Valley 
        Municipal Supply Study completed for the North Dakota State 
        Engineer and Garrison Diversion Unit Conservancy District 
        states that per capita water use rates can be reduced by 
        measures such as installing water saving devices, providing 
        general education about water conservation, industrial 
        recycling, reducing lawn water use and increasing water rates. 
        This report also states that it is the Mayor of Fargo's belief 
        that the city can extend its surface water supplies to meet 
        future needs with higher water rates and by reducing demands 
        for low valued uses. Water use projections should reflect 
        reduced demands achievable through conservation programs and 
        water conservation measures should be implemented prior to 
        authorization of this project. We must question whether 
        transporting water across a watershed divide would be 
        sustainable for either watershed.
          Doctrine of Prior Appropriation--The Red River is the 
        dividing line between riparian water law or ``equal right to 
        use of water'' and the doctrine of prior appropriation or 
        ``first in time, first in right'' for the use of water. In 
        addition, there is a climatic shift from a wet-humid climate to 
        a dry-arid climate in western Minnesota. The State of Minnesota 
        has reservations about the availability of water in dry periods 
        as North Dakota operates under the Doctrine of Prior 
        Appropriation. Prior water interests on the Missouri River 
        would first have to be met before any water could leave the 
        Missouri River Basin for the Red River Basin. We question the 
        expenditure of hundreds of millions of dollars on a water 
        diversion project that might not have any water available for 
        the end users in periods of drought when the need for water is 
        the greatest. Does the water right clearly exist, has it been 
        perfected, and/or could there be any challenge to this water 
        right? The State of Minnesota has concerns that the source of 
        water may not be legally valid. The State of North Dakota will 
        need to address the unresolved issues of water supply to the 
        various Indian bands as well as other interests. In a letter 
        dated March 20, 1998, we raised this concern to Governor 
        Schafer and have not received a response. If these rights are 
        not perfected and additional demand is created based on the 
        Garrison water supply, we have few options to meet this 
        increased demand for water.
          Water supply (both groundwater and surface water), overall, 
        in this region is limited. Flows on the Red River at Fargo/
        Moorhead were less than 100 cfs for approximately 22 percent of 
        the period of record (1901 to 1989) and were less than 50 cfs 
        for approximately 13 percent of the period of record. The 
        average use in 1990 at Fargo/Moorhead is 68 cfs. The additional 
        growth in this region that would be spurred by additional water 
        supply would place severe demands on surface water supplies in 
        this region, which already are often low and insufficient to 
        meet demand. There is potential for significant changes in 
        flows during periods of low flow that would critically stress 
        the ecological system of the Red River. Studies have shown that 
        the Red River contains an internationally recognized trophy 
        fishery for channel catfish; the changes in flow regime have 
        the potential to damage this fishery resource.
          It is likely that existing ground water supplies would be 
        looked to during periods of low flow in the Red River to 
        augment and even replace surface water supplies.
          Ground water supply in this region is also very limited. 
        Ground water levels are likely to be low during times when 
        surface water flows in the Red River are low and municipal 
        water demands are likely to be high; therefore, it is doubtful 
        that ground water will be available during periods of low flow 
        to meet all demands. Past water level declines and water 
        quality problems indicate that any new development of ground 
        water supplies should be approached with caution. The MDNR 
        believes that the recharge potential of the regions aquifers is 
        not likely to be substantially greater than the current levels 
        of appropriation. Additionally, we are concerned that a 
        reduction in ground water head levels caused by increased 
        appropriation could result in upward movement of deeper saline 
        water from Cretaceous rock formations that underlie some of the 
        regions aquifers. This would adversely affect ground water 
        quality and further exacerbate an existing shortage of quality 
        water for potable use.
          There are interstate, hydrologic connections of the regions 
        underlying aquifers. At the Wahpeton, North Dakota sugar beet 
        plant, sugar beet waste leaking from a lagoon contaminated 
        Wahpeton municipal water supply wells. During ground water 
        pumping to clean up this contamination, the yield of the 
        Breckenridge, Minnesota municipal water supply wells was 
        reduced by approximately 50 gallons per minute per well as a 
        result of the water level declines due to pumping. This clearly 
        demonstrates the hydrologic connection across the state line. 
        There is the potential for interstate conflicts in water use 
        during periods of low surface water levels when the regions 
        aquifers will be looked to for increased water supply.
          Navigation Impacts--We are concerned about the cumulative 
        effects that the diversion would have on navigation in the 
        lower Mississippi River. There were barges stranded during the 
        droughts of 1976 and 1988 because of inadequate flows in the 
        Mississippi River below the confluence with the Missouri River. 
        When the needs for water for navigation and commerce are 
        highest, so too will be the demand for pumping water out of the 
        Missouri River basin, which will jeopardize navigation and 
        commerce on the Mississippi River.
          Relationship to the Devil's Lake project--We acknowledge that 
        Congress is handling the Garrison Diversion and the Devil's 
        Lake Outlet as separate projects. Despite this fact and the 
        State of North Dakota's repeated statements that the projects 
        are in fact separate, Minnesota must consider these projects to 
        be linked for the purposes of our evaluation. It is important 
        that any planned connection between the two projects be fully 
        explained up front. Governor Carlson requested clarification of 
        this issue from Governor Schafer in a letter dated March 20, 
        1998 (copy attached). We have not received a response.
          It has been proposed that this project could provide an inlet 
        to Devil's Lake during periods of drought. The Upper 
        Mississippi River Basin Association passed a resolution on 
        September 24, 1997, in opposition to any construction on 
        Devil's Lake inlets and/or outlets until an Environmental 
        Impact Statement has been completed. No one can say with any 
        degree of certainty what impacts this project would have on the 
        Missouri and Mississippi River Basins as a result of this 
        project. The Devil's Lake inlet significantly complicates the 
        issues surrounding the Garrison Project.
          While the total impact to public water supplies of a decision 
        to bring Devil's Lake water by artificial means into the Red 
        River of the North may not be known for years, there exists at 
        this time a preponderance of evidence that such a move would be 
        poor public policy. Discussions surrounding mitigation to 
        downstream water supplies have centered around existing surface 
        water supplies. It is important that this mitigation level be 
        extended to future water supplies and for future water 
        parameters for which such an outlet would necessitate 
        additional treatment over existing water quality. According to 
        the Minnesota Department of Health, the effect of Devil's Lake 
        outlet water on public water suppliers ability to comply with 
        more than 100 water quality parameters mandated for public 
        water supplies through the Safe Drinking Water Act has not been 
        adequately evaluated at this time.
          Biota Transfer and Water Quality--A connection of the 
        Missouri River to the Red River is a clear cause for a high 
        level of concern with respect to exotic species. Water 
        transferred directly from the Missouri River or leaving via 
        Devil's Lake outlet increases the likelihood of transfer of 
        exotic species into the Red River Basin. Such a discharge of 
        water from Devil's Lake would also result in an increase in 
        total suspended solids (TSS) in the Red River Basin. Coupled 
        with the operations of the Pro-Gold corn processing plant in 
        Fargo and its resultant increase in TSS, there is a good chance 
        that municipal water suppliers will have great difficulty in 
        treating water to the standards of the Safe Drinking Water Act.
          There are examples of past connections between watersheds 
        that have caused severe regional and international problems 
        because of biota transfer. The introduction of sea lamprey into 
        the Great Lakes because of canals is a multi-million dollar 
        problem for the United States and Canada. Also, the man-made 
        connection between Lake Michigan and the Mississippi River 
        watershed, via the Illinois waterways, has allowed the spread 
        of zebra mussels to dozens of states. This water is now the 
        route used by round gobies, an exotic species that is 
        displacing perch in Lake Michigan, to invade the Mississippi 
        River and Missouri River watersheds.
          Finding technical solutions to the biota transfer issue is 
        not easy. There are considerable amounts of local, state and 
        Federal funding going into this area of research because there 
        is little known and so few technologies available (ie. the U.S. 
        Army Corps of Engineers dispersal barrier study for the 
        Illinois waterways and a ballast water demonstration project). 
        While the level of knowledge is increasing, it is far from 
        complete. Even the best technologies are unlikely to remove 
        fish pathogens from the water, and thereby could threaten fish 
        populations and angling opportunities in the receiving 
        watersheds. Just this type of problem is currently being played 
        out with the introduction of ``Whirling Disease'' in western 
        trout populations.
          The U.S. Army Corps of Engineers is a member of the Federal 
        Aquatic Nuisance Species Task Force established by Congress. An 
        issue of this scale should be reviewed by the Task Force and 
        the Western Panel on Aquatic Nuisance Species, which includes 
        states west of Minnesota and was also mandated by Congress to 
        determine if adequate technology is available to ensure that 
        biota transfer can be avoided or whether we can afford the 
        consequences of transfer.
          Proponents of the Garrison Diversion concede that adverse 
        blots transfer is a problem, but they say that technology can 
        overcome any issues through water treatment and screening of 
        the discharge. Any treatment plan must meet a very high 
        standard of proof for fail-safe reliability before there is 
        authorization to fund this project. The State of Minnesota 
        would ask to see detailed plans of any proposed method of 
        treatment.
          The State of Minnesota would request that any appropriation 
        include monies for the continued review of the biota transfer 
        issue. Minnesota's exotic species control program is one of the 
        best in the country, however, the level of review that is 
        required for this project requires both technical competency 
        and the appropriate level of funding to ensure that the project 
        meets the standards of Minnesota's exotic species control 
        program.
    I ask the Committee to review these issues very carefully as it 
deliberates authorizing this project. We have consistently voiced our 
opposition to the Garrison Diversion and to the outlet project at 
Devil's Lake. The State of Minnesota will continue to view these as one 
project. As the impact of this project on Minnesota could be 
substantial, I also ask that our state be included in deliberations to 
the greatest extent possible. To that end, please call on me for any 
further information you may require regarding Minnesota's position on 
the Garrison Diversion project.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] T1878.014
    
    [GRAPHIC] [TIFF OMITTED] T1878.015
    
 Statement of David J. Koland, Executive Director, North Dakota Rural 
                       Water Systems Association
    Mr. Chaimman and members of the Committee. My name is Dave Koland. 
I serve as the Executive Director of North Dakota Rural Water Systems 
Association. Our association has 31 rural water systems and 225 
municipal water systems as members.
    The sons and grandsons of the pioneers that settled North Dakota 
founded our association. They had experienced the dirty 30's and sought 
a solution to the unreliable and uncertain water supplies they depended 
on for a domestic water supply.
    Since the earliest days of our state the people who settled here 
were driven by the need for water. The first settlements were located 
along streams or lakes. The homesteaders who came later dug shallow 
wells or endured by hauling water from a nearby creek or slough. Many 
had to move on when the dry years withered their crops and left them 
without the precious water needed to survive.
    In the late 1970's many rural areas began constructing a water 
distribution system to serve rural areas. Farmers without water or with 
an unreliable source joined together and with the help of the Federal 
Government built rural water systems to meet their needs. But at the 
insistence of the Federal Government they were not allowed to build 
beyond their own current domestic needs.
    The Safe Drinking Water Act (SDWA) Amendments of 1986 with 
stringent testing requirements and mandated Maximum Contaminant Levels 
brought North Dakota face to face with the reality that the groundwater 
being used in many smaller communities for drinking water could not 
meet the MCL for fluoride or arsenic mandated by the SDWA.
    The answer for many communities was to work out a solution with the 
rural water system that served a rural area close to their city. Rural 
water systems now provide clean safe water to 187 communities in North 
Dakota. But many still wait for the water they so desperately need. 
Communities like Mohall (931 people), Munich (310 people), and Bisbee 
(227 people) have few other alternatives to provide their citizens with 
clean safe water.
    The key to providing water to the small communities and rural areas 
of North Dakota has been the Grant and Loan program of Rural 
Development and the Municipal, Rural, and Industrial (MR&I) program of 
the Garrison Conservancy District. Without the assistance of these two 
grant programs the exodus from the rural areas would have been a 
stampede.
    The desperate need for clean safe water is evidenced by the 
willingness of North Dakota's rural residents to pay water rates well 
above the rates the Environmental Protection Agency (EPA) consider to 
be affordable. The highest general guideline sets an affordability 
threshold at 2.0 percent of the median household income. Rates beyond 
the threshold are considered to be unaffordable.
    In North Dakota that translates into a monthly cost of $38.69 (ND 
MHI=$23,213). The average monthly cost on a rural water system for 6000 
gallons is currently $48.97. Only one system in the state has a monthly 
cost below the ``maximum affordable cost'' set out in the EPA study and 
that system charges $37.60/month for 6000 gallons. Twelve systems must 
charge their consumers $50 or more with one system charging 170 percent 
of the ``affordable rate'' or $66/month for 6000 gallons.
    The water rates in rural North Dakota would soar to astronomical 
levels without the 75 percent grant dollars in the MR&I program. For 
instance our current rates would average a truly unaffordable $134.19/
month or a whopping 7.0 percent of the Median Household Income. They 
could have ranged as high as $190.80/month or a prohibitive 9.9 percent 
of MHI.
    The people waiting for water in our rural communities are willing 
to pay far more than what many consider an affordable price for clean 
safe water. Across North Dakota we have seen the impact of providing 
good water to rural areas and witnessed the dramatic change in small 
communities.
    We must continue to support the growth of our existing rural 
systems into regional water delivery systems and provide water to those 
areas that are not now being served.
    Water alone will not solve the problems of rural North Dakota but 
without water there is little hope that any proposed solution will 
work.
[GRAPHIC] [TIFF OMITTED] T1878.016

[GRAPHIC] [TIFF OMITTED] T1878.017

[GRAPHIC] [TIFF OMITTED] T1878.018

[GRAPHIC] [TIFF OMITTED] T1878.019

[GRAPHIC] [TIFF OMITTED] T1878.020

[GRAPHIC] [TIFF OMITTED] T1878.021

[GRAPHIC] [TIFF OMITTED] T1878.022

[GRAPHIC] [TIFF OMITTED] T1878.023

[GRAPHIC] [TIFF OMITTED] T1878.024

[GRAPHIC] [TIFF OMITTED] T1878.025

[GRAPHIC] [TIFF OMITTED] T1878.026

[GRAPHIC] [TIFF OMITTED] T1878.027

[GRAPHIC] [TIFF OMITTED] T1878.028

[GRAPHIC] [TIFF OMITTED] T1878.029

[GRAPHIC] [TIFF OMITTED] T1878.030

[GRAPHIC] [TIFF OMITTED] T1878.031

[GRAPHIC] [TIFF OMITTED] T1878.032


</pre></body></html>
